<html>
<title> - INTERNATIONAL SPACE STATION RESEARCH BENEFITS</title>
<body><pre>[Senate Hearing 109-1086]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1086
 
                      INTERNATIONAL SPACE STATION 
                           RESEARCH BENEFITS
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 20, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





                        U.S. GOVERNMENT PRINTING OFFICE
61-670PDF                       WASHINGTON : 2010
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5334233c13302620273b363f237d303c3e7d">[email&#160;protected]</a> 








        SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                 KAY BAILEY HUTCHISON, Texas, Chairman
TED STEVENS, Alaska                  BILL NELSON, Florida, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               E. BENJAMIN NELSON, Nebraska
JOHN E. SUNUNU, New Hampshire        MARK PRYOR, Arkansas



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 20, 2005...................................     1
Statement of Senator Hutchison...................................     1
Statement of Senator E. Benjamin Nelson..........................     2

                               Witnesses

Fincke, Lt. Colonel Mike, Active Duty Astronaut, NASA............    11
Readdy, William F., Associate Administrator for Space Operations, 
  NASA...........................................................     3
    Prepared statement...........................................     6
Ross, Dr. Howard, Deputy Chief Scientist, NASA...................    12
Smith, Marcia S., Senior Analyst, Congressional Research Service.    23
    Prepared statement...........................................    25
Sutton, Jeffrey P., M.D., Ph.D., Director, National Space 
  Biomedical Research Institute (NSBRI)..........................    42
    Prepared statement...........................................    43
Weber, Mary Ellen, Ph.D., Vice President, University of Texas, 
  Southwest Medical Center.......................................    36
    Prepared statement...........................................    39

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    63
Response to written questions submitted to William F. Readdy by:
    Hon. Byron L. Dorgan.........................................    69
    Hon. Kay Bailey Hutchison....................................    63



                      INTERNATIONAL SPACE STATION 
                           RESEARCH BENEFITS

                              ----------                              


                       WEDNESDAY, APRIL 20, 2005

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Kay Bailey 
Hutchison, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    The Chairman. I am told that Senator Nelson will be here 
briefly, but we all need to try to stay as close to on time as 
possible.
    I want to welcome our distinguished panel and say that I am 
very pleased to be chairing my first hearing as Chairman of the 
Science and Space Subcommittee. We have chosen as the subject 
of our first hearing the tremendous scientific potential 
represented by the International Space Station and its position 
as one of the leading elements of the President's new Vision 
for Space Exploration.
    The journey, of course, begins where we are now. And we 
have to make sure that we have a strong foundation for the 
journey ahead. We all look forward to having the Space Shuttle 
return to flight next month and to continue the assembly and 
utilization of the Space Station. In fact, our next hearing is 
going to focus more on the prospects for future Space Shuttle 
operations.
    I have made my concerns known regarding the possibility of 
an extended hiatus between the time when the Shuttle is 
currently planned to be retired from service and the 
availability of a certified replacement crew launch vehicle. I 
think we cannot allow that kind of hiatus. Right now it is 
estimated to be 5 years. I think that is a national security 
threat to our country. And so I intend to pursue everything 
that I can to assure that we look at ways to shorten that 
timeframe.
    Second, I am committed to ensuring that the investment we 
have made as a nation in the International Space Station is 
rewarded to the greatest extent possible by fulfilling the 
purposes for which it is designed. I think it is important that 
we not just say this is a tool for the Moon and Mars 
exploration-related research. I think the facility is capable 
of doing so much more for our Nation and for the world. I think 
we need to come back and look at the original purpose of the 
Space Station which was for scientific, industrial, engineering 
disciplines as well as Earth observation and supporting future 
exploration possibilities.
    So, I want to go back to the original concept of the Space 
Station and look for all of the ways that we can fully utilize 
it. And one of the things I want to talk to you about today is 
other scientific value that we might be able to gain from 
experimentation aboard the Space Station. So, we are looking 
today at the current state of planning for the International 
Space Station and also on the potential and the vital 
scientific research aboard this unique international 
laboratory.
    I look forward to hearing from all of you. We assembled you 
because we think you are the ones who can shed the most light 
on ISS research plans. So, we're looking forward to having this 
testimony as the basis for our re-authorization of NASA this 
year with the full capabilities of the International Space 
Station as one of key elements of the NASA re-authorization.
    So, with that let me say, I am very pleased that my ranking 
member is the only one of us in the Senate who has been to 
space, since John Glenn left. And I am so pleased that you are 
my ranking member. We do have a complete meshing of commitment 
and ideas and visions for the future of NASA. And you will see 
a reinvigorated subcommittee that is overseeing and working 
with the leaders at NASA to fully utilize our capabilities and 
make sure that our investment is not wasted.
    So, thank you very much for being here. And I would like to 
turn it to my ranking member, Senator Nelson, for any statement 
he might wish to make.

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Nelson. Madam Chair, some of my critics were hoping 
that I was taking a one-way trip.
    [Laughter.]
    The Chairman. Well, Senator Nelson, I was going to say that 
your lateness would not be tolerated if you were still an 
astronaut, but since you are a Senator we are used to it.
    [Laughter.]
    The Chairman. So, I know you--I know you had a good reason 
to be somewhere else. Do you have any comments?
    Senator Nelson. Just a couple. Kay and I are both excited 
about the new NASA Administrator. And that he has a vision and 
that he really is a rocket scientist. And that science is 
important to him. And that part of our problem in the past is 
that there was an atmosphere that pervaded NASA that did not 
encourage two-way communication. And thus, we saw the 
destruction of Challenger in 1986 because they were not 
listening to the people on the line. And again 18 years later 
that information from the bottom was not flowing up. And we 
think that the new Administrator has a sensitivity to that and 
we think that is going to be very good.
    And we also think that he is committed to a balanced space 
program; manned and unmanned. And that in the human space 
programs a major component is the International Space Station. 
And the value that holds not only for us in the development of 
technologies and in the furtherance of science but also what it 
does for our relations with other countries that will 
participate with us.
    So, the Chair and I are absolutely linked on all of this. 
And it is my privilege to serve as the Democratic leader of 
this subcommittee with my Chair, because we are of one mind. 
And we are also of one mind that space is not a partisan 
subject. Space is a subject that we can gather and have our 
differences over policy issues, but it has nothing to do with 
ideology and it has nothing to do with partisanship.
    And so I am looking forward to your leadership and looking 
forward to the work of this Space Subcommittee. Thank you.
    The Chairman. Thank you. Thank you, Senator Nelson. The 
first panel is Mr. William Readdy, Associate Administrator for 
the Space Operations Mission Directorate at NASA. You will be 
the only one giving testimony, I understand, but you are 
accompanied by Dr. Howard Ross, the Deputy Chief Scientist at 
NASA and Lieutenant Colonel Mike Fincke, Active Duty Astronaut 
at NASA, of course. And we welcome all three of you.
    Mr. Readdy.

                STATEMENT OF WILLIAM F. READDY,

       ASSOCIATE ADMINISTRATOR FOR SPACE OPERATIONS, NASA

    Mr. Readdy. Thank you, Madam Chairman and Senator Nelson, 
thank you for the opportunity to appear before you this 
morning. With your indulgence, given your commentary I'd like 
to digress a little bit. I just got off a plane from Florida. I 
was at the Design Certification Review for the Space Shuttle, 
for return to flight. Now, that in and of itself is just 
another milestone that we're completing, but I have you to 
thank for this.
    When the new Administrator came onboard, he told us exactly 
what his priorities were and they were return to flight; build 
the International Space Station; honor our international 
commitments; and to reduce the gap of human space flight 
capability.
    When he was informed that we were having the Design 
Certification Review yesterday, he got on the plane Monday 
night, came down and sat through the entire thing. I have to 
tell you that his questions were piercing, and it showed a 
total grasp of the information that was being presented. I 
think he was impressed with the technical depth that we went 
into. But he also had some questions of his own as you might 
expect, as he was coming up to speed with where we have been in 
the last two and a half years.
    But we have you all to thank for that, because sitting in 
this chair 8 days ago, if you can believe that, 8 days ago Dr. 
Michael Griffin was here at his confirmation hearing. As you 
urged, his confirmation process happened very expeditiously. 
Probably as expeditiously as anyone can remember. He was on the 
job on Thursday where he spelled out those same priorities.
    And I'm pleased to tell you that he was able to come to the 
Design Certification Review, because of his expeditious 
confirmation. And I think it points to the wisdom of his 
selection by the Administration as the nominee and now the 
appointee as the 11th NASA Administrator.
    With me, as you mentioned, is Dr. Howard Ross, who's the 
Deputy Chief Scientist here at NASA. I think he has become 
renowned for his ability to communicate the benefits of 
International Space Station and the science that's performed.
    Quite obviously Colonel Mike Fincke who just returned from 
6 months onboard that magnificent International Space Station 
and unfortunately was removed from the planet Earth for the 
birth of his little daughter, Tarali, I guess who's now about 
10 months old. But it's an indication that life goes on. It's 
also an indication that this is not about us sitting here at 
this table. This is about the future. This is about the legacy 
for our Nation in space.
    Those benefits that you discussed, they're industrial, 
engineering and certainly science that will accrue from that 
laboratory that we're building up in space will be significant 
and both of these gentleman will be able to expand somewhat on 
that here in the testimony.
    Immediately after Dr. Griffin came onboard, that very 
evening, we launched Expedition 11 to the International Space 
Station. The crew of Sergei Krikalev, as the Russian Commander 
who was also onboard the very first expedition to International 
Space Station as they turned on the lights and started setting 
up shop onboard.
    It's been 1,630 days of continuous human presence onboard 
the International Space Station. And now jointly we have five 
crewmen onboard; three from Expedition 11 and the visiting crew 
member from Italy, Roberto Vittori. The science officer and 
flight engineer for this increment is John Phillips from NASA.
    So, we have five crewmen onboard. I'll be leaving on 
Saturday for Russia to assist at the deorbit landing/return of 
Expedition 10 after their highly successful 6-month increment 
onboard International Space Station. Commander Leroy Chiao and 
his flight engineer, and Soyuz pilot, Salizhan Sharipov, are 
coming home on Sunday.
    Now last year President Bush gave us a very bold challenge 
and Vision. Those priorities, I think, are what we're here to 
talk about today. Obviously, return to flight of the Space 
Shuttle is essential to continue assembly of International 
Space Station, to help realize those goals. That's part of a 
stepping stone strategy to go beyond low-Earth orbit and back 
to the Moon and beyond. Quite obviously it's very important for 
us to continue that effort. No one certainly foresaw the 
tragedy that occurred on February 1, 2003. The Space Station at 
this moment is half built. The other half is at the Kennedy 
Space Center with the exception of the Columbus module; it's 
still over in Europe, yet to be delivered. But half of the 
Space Station is already the size of a jumbo jet orbiting the 
Earth every 90 minutes. And right now it just happens to be the 
brightest morning star in the sky.
    It is a magnificent piece of engineering prowess, 
demonstrating our ability to assembly large structures in space 
that we'll certainly need in the future. But it is only half 
built. At the moment, as Colonel Mike Fincke will tell you, it 
is having to rely exclusively on Progress vehicles for 
resupply. We had to scale the crew back from three to two, 
which we have done here for the last several increments. We're 
looking forward to Shuttle return to flight, also to return the 
crew size to three. Then as we increase the capability of the 
Space Station to enhance that all the way up to six.
    The very character of exploration really counts on the 
ability to observe. There are no better observers than humans. 
I think Dr. Ross will talk a little bit more about that.
    Our ability to do other things, as you mentioned, the daily 
operations that will allow us to go from hours away from this 
planet, which is International Space Station at 240 nautical 
miles, to days away from the planet; the Moon, the lunar 
surface, which is still in Earth orbit. Then make the leap 
beyond that to hundreds and hundreds of days away from this 
planet, which requires an incredible sophistication and 
reliability in the systems that we must operate for life 
support, for example; for autonomous operations. All of which, 
I think, have been demonstrated at least initially here onboard 
International Space Station. One of the things that they have 
demonstrated is we have a lot to learn. We've got a long way to 
go before we would consider regenerative life support systems 
carefree.
    As you've seen and Mike can attest the Elektron, which 
generates oxygen for the Space Station, requires an incredible 
amount of tender loving care and maintenance to keep in 
operation. That clearly isn't acceptable when you're on the 
lunar surface nor when you're hundreds of days away from home 
en route to Mars.
    This Space Station is also critical to understanding some 
of the challenges that we have in human health. He can also 
attest to some of the ravages of long duration space flight and 
what it takes in terms of counter measures to maintain your 
health such that you could function when you return to a 
gravity field.
    I remember sending him a note after he passed, I guess 
about a month on orbit. I flew three times, so I had 28 days of 
space flight experience. In his rookie flight, by the way, in 
his first month he'd already surpassed me and was going even 
further down the road having performed four space walks in his 
6-month increment. So, we're building a tremendous amount of 
experience that we will need as we go into the next decade of 
exploration.
    The gathering of knowledge and validating our research is 
something Dr. Ross can talk to. But that's vital. To exploit, 
to reap the science benefit of that research platform that we 
have to continue assembly so that we can put an increased crew 
aboard is, obviously, one of our goals.
    The closed-loop life support, as I mentioned earlier, is 
one of the things that will enable that to happen. It will 
enable us to go from a crew size of three, ultimately to six, 
in addition to some additional habitable volume. As you know 
spin-offs often occur from the technologies that we build 
intended for space. For example, the water processing assembly; 
that's part of the Regenerative Life Support System. That's 
being used right now, fielded by Hamilton Standard, who's our 
contractor, to purify water in Iraq and in some of the tsunami-
ravaged areas of the world. The ability to take spoiled water, 
the ability to take brackish water, polluted water and turn it 
in to potable water is something that is of immediate benefit 
here on this planet. We, obviously, are hoping to fly that here 
in the near term.
    International Space Station as you also mentioned is very, 
very important for turning the swords to plowshares and 
international cooperation. Who would have thought that a decade 
or so ago that the Russians would be our stalwart partners in 
this endeavor? That when the Columbia tragedy occurred, that 
they would be there and provide the crew transport to and from 
and the resupply necessary to continue Space Station operations 
as well as to preserve the Space Station in an assembly-ready 
configuration for when the Shuttle does return to flight. And 
we have great plans for Space Station utilization as we build 
that second half.
    Inspiring the next generation is, obviously, one of NASA's 
missions. Inspiring my children, your children, Mike's children 
all over the world. That is something that they have taken on, 
I think, with vigor onboard the International Space Station. 
They talk routinely to school children around the world. They 
have a Earth Knowledge Acquired by Middle School Students, 
(EarthKAM) which allows the schools all over to command 
pictures to be taken from the International Space Station for 
scientific purposes and the study of geography. One that I 
think I enjoyed, and my children certainly did, while Mike 
Fincke was onboard, was ``Saturday Morning Science.'' The 
ability to stimulate interest in science by performing 
experiments in the unique environment of microgravity. Finally, 
Senator Nelson, as you know the, ``The PESTO Experiment,'' 
where dwarf wheat was cultivated on the Space Station and the 
outreach that that had was significant.
    In terms of the Vision, obviously, the first step is 
returning the Shuttle to safe flight and we're about that. 
We're milestone driven. And having completed the Design 
Certification Review, that's one more milestone that we have 
completed toward returning to flight. And we think next month 
we can begin getting the Space Station assembled and honoring 
our international commitments.
    I'd like to thank you for the opportunity to testify before 
you this morning. My two colleagues and I will be pleased to 
take your questions.
    [The prepared statement of Mr. Readdy follows:]

               Prepared Statement of William F. Readdy, 
           Associate Administrator for Space Operations, NASA
    Madam Chairwoman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the benefits of the 
International Space Station.
    On January 14, 2004, President George W. Bush announced the Vision 
for Space Exploration. The President's directive gave NASA a new and 
historic focus and clear objectives. The fundamental goal of this 
directive for the Nation's space exploration program is ``. . . to 
advance U.S. scientific, security, and economic interests through a 
robust space exploration program.'' In issuing this directive, the 
President committed the Nation to a journey of exploring the solar 
system and beyond, returning humans to the Moon, and sending robots and 
ultimately humans to Mars and other destinations. He challenged us to 
establish new and innovative programs to enhance our understanding of 
the planets, to ask new questions, and to answer questions as old as 
humankind.
    Returning the Space Shuttle to flight and completing the 
International Space Station are the first steps in the Vision for Space 
Exploration, a stepping stone strategy toward new exploration goals. 
Using the Station to study human endurance in space and to test new 
technologies and techniques, NASA will prepare for the longer journeys 
to the Moon, Mars and beyond.
    Today marks the 1,630th day of continuous human presence on the 
International Space Station. That is 11 international crews and over 
four years of research, discovery and experience in orbit. I am here 
today to tell you that NASA is progressing towards making the Vision a 
reality.
    Just a few days ago NASA passed another important milestone for the 
Space Station. Expedition 11, Commander Sergei Krikalev and Flight 
Engineer John Phillips, docked to the Station this past Sunday to begin 
their six month stay onboard. European Space Agency astronaut Roberto 
Vittori traveled with them to the Station, and will return with the 
Expedition 10 crew, Commander Leroy Chiao and Flight Engineer Salizhan 
Sharipov. Chiao, Salizhan and Vittori will return home next Sunday, 
April 24. The Expedition 10 crew spent 191 days onboard the Station.
    In addition, the Space Shuttle is in final preparations to fly 
again next month. Our return to flight also positions us to return to 
station assembly. NASA will complete the International Space Station by 
the end of the decade and meet its obligations to our international 
partners.
    NASA will utilize the ISS to perform the necessary research and 
testing to help fulfill our exploration objectives. The very character 
of exploration and discovery begins with the ability to observe. We 
send humans into space because they are our best tools for observation. 
Crews on the International Space Station have gained firsthand 
knowledge of space-based life and they are bringing that information 
back to all of us.
    While we can to some extent simulate living conditions in space 
here on the ground, there is no substitute for experience in the actual 
space environment. Simply put, to learn how to live in space, we must 
live in space. Every experiment, every spacewalk, every repair and 
every piece of hardware assembled teaches us something new. A full time 
human presence aboard the ISS offers us a tremendous opportunity to 
study human survival in the hostile environment of space and assess how 
to overcome the technology hurdles to human exploration beyond Earth 
orbit.
Assembly and Transportation
    The development of ISS elements and systems is virtually complete; 
only the assembly process remains. The return to Space Shuttle 
operations means that NASA can once again begin construction work on 
the International Space Station. The first two Space Shuttle flights 
will focus on carrying cargo to the Station and testing new techniques 
for Orbiter repair. Following those two flights, the crew of STS-115 
will restart the assembly of the International Space Station by 
carrying truss elements to orbit. From there, already completed Station 
elements will be sent into orbit on the Space Shuttle. The assembly 
sequence will complete the Station as efficiently and economically as 
possible, and with the minimum number of Shuttle flights necessary. As 
we make progress on construction of the Station, we will also work 
towards increasing the number of crew onboard to three members as soon 
as possible and working towards a six-person crew capability.
    The President's Commission on Implementation of U.S. Space 
Exploration Policy recommended that ``. . . NASA recognize and 
implement a far larger presence of private industry in space operations 
with the specific goal of allowing private industry to assume the 
primary role of providing services to NASA, and most immediately in 
accessing low-Earth orbit.'' Consistent with this recommendation, NASA 
is seeking to acquire commercial services as soon as practical and 
affordable to fulfill its transportation requirements for cargo to and 
from the ISS. NASA is developing a Request for Proposal (RFP) to be 
released in 2005. The RFP will seek to develop an initial operating 
capability for commercial services for cargo transportation to the ISS 
as soon as practical and affordable. NASA will also utilize partner 
capabilities for cargo transportation. The European Automated Transfer 
Vehicle will make its first visit to the ISS in 2006. The Japanese H2A 
Transfer Vehicle will also visit the ISS by the end of the decade.
Operational Experience
    The International Space Station is more than just a science 
laboratory. The Station is critical to understanding human health, 
system performance and logistical support in the real environment of 
space.
    Moreover, operating the Station with a limited re-supply capability 
has taught us much about how NASA might plan missions to more distant 
destinations where cargo re-supply options are limited. In any risky 
venture, experience and practice are vital. A mission to Mars will take 
at least 6 months in one-way transit; our Space Station crews 
experience that duration of exposure during each of their stays. 
Through the process of building and living on the Station, NASA has 
learned the following, all of which are vital to exploration:

  <bullet> Assembly of Large Structures--Example: Automated and manual 
        docking with various vehicles, including those built by other 
        countries.

  <bullet> Extensive Extravehicular Activity--Example: Performance of 
        two types of Space Suits.

  <bullet> Behavior of Crews--Examples: A range of crew sizes (two, 
        three, and eventually six), genders, ethnicities, citizenship, 
        and lengths of time in space--in various stages of ISS 
        assembly/capabilities.

  <bullet> Responses to Situations That Threaten Mission and/or Life-
        Examples: solar storms; loss of gyroscope; Elektron oxygen 
        generator malfunctions; gradual depressurization episodes; 
        water usage restrictions.

  <bullet> Health Maintenance of Crew--Examples: nutrition; sleep; 
        exercise; human physiological adaptation.

  <bullet> Long-Term System and Subsystem Performance and Maintenance--
        Example: Environmental Control and Life Support Systems built 
        in various combinations of systems from various nations.

  <bullet> Practice of Operational Medicine--Example: majority of crew 
        take some medication in flight; we and they rely on 
        telemedicine and monitoring with limited onboard supplies and 
        capabilities.

  <bullet> Training for Long-Term Missions--Examples: efficacy of 
        preflight versus onboard training; skills versus task training.

  <bullet> Emergency Awareness and Preparedness--Examples: 
        Depressurization Alarms and Repairs; Fire Alarms and Drills.

ISS Research: Knowledge Gathering and Validation
    U.S. research activities aboard the Station will be focused to 
support the new exploration goals, with an emphasis on understanding 
how the space environment affects astronaut health and capabilities, 
and on developing appropriate countermeasures to mitigate health 
concerns. We will also use the Station to develop and demonstrate 
improved life support systems and medical care.
    Human space flight research to date has identified a series of 
significant threats to human health associated with space travel. These 
health risks include bone loss and muscle atrophy; radiation exposure; 
and changes to fluid balances and blood pressure regulation. These 
changes may represent significant challenges on return to gravity and 
are of particular concern for future space travelers who will travel 
beyond access to Earth-based medical care. Behavioral and human 
performance concerns also exist. NASA's focused research program 
accelerates the evaluation of remediation methods for crew health 
problems and enables a better understanding of the requirements for 
health care systems for providing medical care during long duration 
human space exploration.
    For example, NASA is using portable ultrasound equipment in new 
ways on the Space Station that are already translating to use back on 
Earth. Ultrasound is a fast and safe method to diagnose conditions 
inside the body. It uses sound waves to gain information about medical 
conditions ranging from gallbladder disease to kidney stones. What we 
are testing is a way to monitor and diagnose patients remotely by non-
specialists working with an expert on Earth. Through such an approach, 
portable ultrasound machines can also be used to extend medical care 
into challenging areas such as remote rural or military locations. The 
remote procedure already has been tested on members of the Detroit Red 
Wings of the National Hockey League. The Red Wings conducted a test of 
these techniques to diagnose player injuries in the team's locker room 
rather than transporting athletes to a local hospital for an X-ray, CT 
or magnetic resonance imaging (MRI).
    Among the most vital technological systems for any future space 
exploration mission is the life support system that must provide space 
travelers with a controlled Earth-like environment within the hostile 
environment of space. Any planned mission beyond Low Earth orbit will 
need to include a system for recycling water and air that is both very 
reliable and highly efficient. The ISS research program will test 
critical technologies in the design of such a closed-loop type system.
    NASA research also benefits those of us here on Earth. One of the 
most important needs for the ISS is access to clean water. The Marshall 
Space Flight Center is currently developing a Water Processor Assembly 
(WPA) as part of the US Enhanced Crew Life Support System. This system 
will reclaim waste waters from fuel cells, from urine, from oral 
hygiene and hand washing, and by condensing humidity from the air. It 
will produce recycled water that will be cleaner than what we drink 
presently on Earth. Fresh water is an exceedingly scarce commodity in 
many locations around the world and the U.S. Now, the same technology 
we are using to build the WPA is being used to develop recycling 
systems for humanitarian purposes in nations lacking a reliable water 
supply, such as those Asian countries affected by the December 2004 
tsunami. A source of clean, inexpensive and readily available water is 
just as important here on Earth as it is on the ISS, and as it will be 
on the Moon or the journey to Mars.
    Future crews going to the Moon or Mars will need to be self-
sufficient. Access to clean water is just one thing they will need in 
their journeys beyond Low Earth orbit. Others include monitoring and 
recycling air, waste sterilization procedures, longer shelf life for 
food products and renewable food sources. These applications can be 
tested on the ISS before we apply them to longer trips to the Moon and 
Mars. After all, it is better to learn 240 miles up than 240,000 miles 
out.
    During long-duration missions in space and on planetary surfaces, 
crews must be able to live and work productively in safe and habitable 
environments. Performance of tasks by isolated crew--individual and 
teams--must be efficient, teachable, and reliable. These processes 
yield potential Earth benefits as well, including:

  <bullet> Advances in emergency habitat and shelter deployment for a 
        wide range of purposes (e.g. natural disaster, war refugee 
        relief, temporary emergency safe haven for rescue crews.)

  <bullet> Evaluation and design of self-contained, remote, and 
        hazardous environments.

  <bullet> New clinical methods for human reaction and interaction in 
        isolated and confined environments.

  <bullet> Advancement for process controls, tele-operations, and 
        robotic systems development.

  <bullet> Human performance modeling applies to the medical 
        community's enhanced rehabilitation and therapeutic practices.

  <bullet> Identification, measurement, analysis, mitigation and 
        tracking of programmatic risks.

The International Space Station and Exploration
    Led by the Exploration Systems Mission Directorate, NASA is 
currently in the process of focusing and prioritizing International 
Space Station research and technology development efforts on areas that 
best contribute to the Vision for Space Exploration. Through rigorous 
examination by technical and program managers at Headquarters and NASA 
field centers, we have identified 22 areas of research and technology 
that can take advantage of the Station as a testbed to reduce the risk 
associated with future human exploration missions. The Station will 
specifically contribute to the Vision for Space Exploration in areas 
such as: testing and validating performance of closed loop life support 
systems; testing and validating both pharmaceuticals and new exercise 
systems to maintain astronaut health, and; demonstrating technologies 
necessary for future space systems such as thermal control, power 
generation, and management of cryogenic fuels in space.
    In order to best utilize limited resources, NASA is phasing out 
some activities that do not directly support the Vision for Space 
Exploration and reallocating resources to the higher priority areas. 
The Agency is emphasizing applied research and technology development 
in the following areas: space radiation health and shielding, advanced 
environment control and monitoring, advanced Extra Vehicular Activities 
suits and tools, human health and countermeasures, advanced life 
support, and space human factors and behavioral health. NASA's highest 
priorities for research on the Station have been identified as medical 
research with human subjects and microgravity validation of 
environmental control and life support technologies.
    NASA also currently has a Space Shuttle Program/International Space 
Station (SSP/ISS) Scenario Study underway to examine alternate 
scenarios for the SSP and ISS as first steps to the Vision for Space 
Exploration. The study has been providing assessments that will support 
decision making for research, engineering, international and fiscal 
considerations. Two cycles have already been completed. The third cycle 
involves assessment of specific scenarios for US exploration research 
mission requirements. It is currently in the final stages of being 
documented for review and decision by Agency leadership.
    NASA also studied long-term plans for Station utilization. In 2003, 
the Agency began to look at how it might turn some of the tactical 
operations of the Station research management over to a consortium. 
Because of the realignment of Station science and research to focus its 
activities to support the Vision for Space Exploration, the Agency 
chose not to further develop those plans. However, NASA has retained 
all of the studies and guidelines for use should it decide to move in 
that direction in the future.
International Partnership
    The International Space Station is a cooperative effort. 
International crews work together daily--not just to keep the Station 
running, but to perform groundbreaking research. Joint research 
activities include the completion of a record-breaking 31-day 
experiment called PromISS-3 that utilized the Microgravity Sciences 
Glovebox, a sealed laboratory with built-in gloves for conducting 
experiments in space. International crews have also worked together to 
deploy a microsatellite during a spacewalk, install research equipment 
onboard the Station, perform medical experiments and test on orbit 
systems. They also work together to inspire the next generation of 
explorers through programs such as:

  <bullet> Amateur Radio on the ISS (ARISS)--an international project 
        that allows students to talk by amateur radio with ISS 
        crewmembers.

  <bullet> Earth Knowledge Acquired by Middle School Students 
        (EarthKAM)--allows students to control a digital camera mounted 
        in a window on the Station; photos are available on the 
        Internet for viewing and study by students around the world.

  <bullet> High School Students United with NASA to Create Hardware 
        (HUNCH)--High school students build training hardware that 
        meets a specific need in NASA's Space Station payload training 
        program.

    At the recent International Space Station Partnership Heads of 
Agency (HOA) meeting on January 26, 2005, the Partners reviewed the 
status of ongoing Space Station operations and NASA's plans for Space 
Shuttle return to flight. The partners reaffirmed their agencies' 
commitment to meet their ISS obligations; to complete Station assembly 
by the end of the decade; and to use and further evolve the ISS in a 
manner that meets their research and exploration objectives. Our Space 
Station partnership is strong, as demonstrated by the fact that Space 
Station operations and research have continued without interruption 
throughout our significant preparations for return to flight.
    The Station is preparing us for future human exploration in many 
ways. It is an exploration research and technology test bed. It is a 
platform that represents an unprecedented accomplishment for space 
engineering and on orbit assembly of unique and complex spacecraft. The 
Station is a model of space operations, linking mission control centers 
on three continents to sustain 24/7 space flight on-orbit operations by 
an international team speaking several different languages. Perhaps the 
most significant contribution of the ISS is that it is a foundation for 
international partnerships and alliances between governments, industry, 
and academia in space exploration. In this regard, the ISS was 
assembled on orbit with modules and other elements from Canada, Russia 
and the U.S. that were never connected on the ground. Additional 
elements from Europe and Japan will join the on-orbit structure when 
assembly resumes. The success of the assembly is a tribute to the 
engineering excellence and successful cooperation of the international 
team.
    As the United States implements the Vision for Space Exploration, 
the Administration recognizes the value of effective cooperation with 
Russia to further our space exploration goals. At the same time, we 
have to appropriately reflect U.S. nonproliferation policy and 
objectives in our relationship with Russia. The Administration is thus 
interested in seeking a balanced approach that continues to protect our 
nonproliferation goals while advancing potential U.S. cooperation with 
Russia on the Vision for Space Exploration. Such a balanced approach 
must consider the Iran Nonproliferation Act of 2000 (INA), which 
currently complicates cooperation with Russia on the International 
Space Station, and will also have an adverse impact on cooperation with 
Russia on our future space exploration efforts related to human space 
flight. To that end, the Administration looks forward to working with 
Congress to ensure that the Vision for Space Exploration is able to 
succeed while remaining fully consistent with broader U.S. national 
security and nonproliferation goals.
Summary
    As stated at the beginning of my testimony, returning the Space 
Shuttle to flight and completing the International Space Station are 
the first steps in the Vision for Space Exploration, a stepping stone 
strategy toward new exploration goals. Using the Station to study human 
endurance in space and to test new technologies and techniques, NASA 
will prepare for the longer journeys to the moon, Mars and beyond.
    Thank you for the opportunity to testify today, and I look forward 
to responding to any questions you may have.

    The Chairman. Thank you very much. We have been out of our 
Space Shuttle now for 2 years. And I wanted to ask you what you 
have learned that might tell us what would happen if we were 
out for a longer period of time, about our ability to send 
people up in the numbers that we would want for our own 
experimentation and research; as well as the maintenance of the 
Station. How has that 2-year hiatus been for us and what have 
we learned from it?
    Mr. Readdy. I'd like to start out and then I'll defer to 
Colonel Mike Fincke who has firsthand experience and can fill 
it in.
    For starters, we did have to decrew to two from the three 
that we had onboard, because the logistics simply would not 
permit us to continue to supply them with food and water and 
other spare parts necessary to maintain the International Space 
Station during the hiatus. So, we were living literally from 
one Progress resupply vehicle to the next.
    So, that was a severe impact. But out of those necessities 
comes some ingenuity and inventiveness on the part of the 
ground teams that we had. Not only from the science perspective 
but certainly from an operational perspective. Not only the 
TsUP, the flight control center in Moscow but also the flight 
control center there in Houston, and the experimental Payload 
Control Center there in Huntsville.
    They all got together and they were able to kind of form a 
virtual third crew member by performing an awful lot of those 
tasks from the ground; doing an awful lot of replanning, off-
loading the crew members so that whereas before we thought with 
three crew you'd have perhaps the equivalent of a half crew 
member devoted to science. Here with two crew you had the 
equivalent of half a crew member devoted to science, which 
showed that we could adapt and do a much better job when forced 
to, of utilizing crew time more effectively for those things 
that they must do uniquely onboard the International Space 
Station.
    The Chairman. Could that be sustained over a longer period 
of time, that kind of efficiency?
    Mr. Readdy. Well, I'll defer to Mike.
    The first thing, though, is we started out with a 
sufficiency of logistics and we started eating into that until 
we were barely sufficient from expedition to expedition, as you 
remember. I'm sure you and your colleagues read in the 
newspaper about we're waiting for the next Progress for spare 
parts; we're waiting for the next Progress for water, for food, 
or whatever.
    So, that kept us right on the edge and we could not do 
science re-supply, for example. We had extremely limited down 
mass available to be able to perform science operations. And we 
were living from the residual amount of supplies that we had 
onboard the Space Station before.
    So, Mike?

             STATEMENT OF LT. COLONEL MIKE FINCKE, 
                  ACTIVE DUTY ASTRONAUT, NASA

    Colonel Fincke. It's a huge honor and pleasure to be here 
today. Thank you for the invitation. Six months in flight and 
aboard the beautiful, amazing International Space Station was a 
big honor and I'm glad to have a chance to share it a little 
bit today and what we've learned.
    With only two people it was kind of tough. We had to 
maintain the Space Station. They threw in a couple extra space 
walks for us and even so we were able to with the ingenuity, 
and working together with the outstanding team in Houston and 
Huntsville, Alabama, we were able to get a lot of work done. We 
were able to get a strong science program and it was pretty 
amazing.
    We also became self sufficient. We learned how to fix 
things like our space suits, and the oxygen generator. We need 
to know how to do those things for the Moon. With these 
efficiencies and with this new teamwork and ways that we 
figured things out on our expedition and what Leroy and 
Salizhan have done in Expedition 10, when we get another person 
aboard the Space Station and even more, we're going to be able 
to do a heck of a lot more science. And I'm looking forward to 
that.
    The Chairman. Do you think that after this experience that 
working toward six is still the right goal or do you think that 
you can do major things with fewer than six crew?
    Mr. Readdy. I think we could do major things with two crew 
as Mike pointed out; three crew, obviously, more and six is our 
objective. When we get the Shuttle flying again, it's amazing 
the difference that makes in terms of logistics; just the 
routine things. The first two flights in addition to being test 
flights of the modifications that we've made here during the 
interval on the return to flight, also are logistics. The 
intent is to have an over-sufficiency of supplies onboard to 
restock the science and to build back to three permanent crew 
members.
    As we put Regenerative Life Support onboard, as we increase 
the habitable volume, of course, we do expect to get to six 
crew members. Part of that is in addition to the science and 
technology that we'll be pioneering on International Space 
Station, the other thing that we must do is in order to learn 
how to live and work in space and live and work in space for 
long periods of time, you must actually live and work in space 
for long periods of time. That means that we need a large 
number of crew members so that we can understand that.
    At this point in terms of exercise and other things that 
the crew needs, it's still very empirical how to decide exactly 
how much time you must devote to keep crew members healthy. 
Through the resistive exercise, we think we have found 
something that it is more efficient in terms of maintaining 
muscle mass and bone mass over long periods of time. Maybe Dr. 
Ross would like to comment?

                 STATEMENT OF DR. HOWARD ROSS, 
                  DEPUTY CHIEF SCIENTIST, NASA

    Dr. Ross. The medical benefits that we continue to learn on 
the International Space Station contribute broadly back here on 
Earth as well. From the Space Station experience so far we've 
been able to determine how much bone loss takes place. 
Something we had a sense of before, but for the first time we 
have good statistics. And in addition, we know where that bone 
loss is taking place.
    We're using equipment such as ultrasound equipment in ways 
that it was never envisioned here on Earth to use. And that 
particular equipment that Colonel Fincke used in orbit, in 
fact, has shown some really promising applications both in 
space so that there would be less mass required, safer and more 
portable equipment. And he can comment here about the Earth 
applications of that particular device.
    Colonel Fincke. Yes. So, I'm not an ultrasonographer, but 
with the help of tele-medicine, having a specialist on the 
ground talk me through it, I only had a few hours of training 
on the machine--I was able to take clinical quality images of 
our bones and our internal organs with the ultrasound machine.
    So, for the first time we were able to image our bones, 
because we have bone loss and we were able to see that with 
clinical quality images.
    The same techniques can be applied directly to rural 
medicine. That way you don't need the doctor out in the field 
you just need a technician and then talk to the doctor in a big 
city. In addition to rural medicine it's valuable for the 
military and we've even started working it with sports teams. I 
think the Detroit Red Wings had a chance to practice some of 
these things. So, there's direct application with our 
experience with ultrasound.
    The Chairman. Are you able, from all the observations you 
have had with people in space and the bone loss, to remedy some 
of that to build it back in the areas where you are losing the 
most? And has that come from the research in space?
    Mr. Readdy. Go ahead.
    Dr. Ross. One of the things we've learned is that you 
cannot always count on what we knew or thought would work on 
Earth. We really do need to test them in space on the 
International Space Station. We have, in fact, through the work 
done to date improved the exercise regimens that the crew goes 
through so that the bone loss that is experienced is mitigated 
substantially by what we have learned. Same thing from 
nutrition. We know how important improved nutrition is for a 
crew up there.
    In the future we plan to use some of the techniques or test 
some of the techniques that we have developed on orbit for use 
on Earth to treat osteoporotic people. That's particularly the 
drugs that they can take, the bisphosphonates that in fact 
should mitigate some of this, but we need to test it in space. 
We've found over and over that space continues to surprise us.
    The Chairman. I would like to ask you, Dr. Ross, what other 
areas of scientific research do you see as possible if we 
unleash the Space Station to its full potential?
    Dr. Ross. Well, let me talk more generally then about the 
benefits of Space Station, to put it in a context of the full 
benefits of human space flight. Just give me a brief moment to 
digress.
    Yesterday we recalled the events from 10 years ago with the 
Federal Building in Oklahoma City. Few people know that NASA 
technology was used in the rescue and recovery efforts by fire 
fighters and other emergency workers that could very quickly 
use some of the devices that came from Shuttle technology to 
cut through cables, cut through steel. And it helped with the 
rescue and recovery.
    The same was true at the World Trade Center recovery 
efforts; the same technology got used. Furthermore, the safety 
of the food that each of us eats, the system that's used to 
assure its safety was developed by NASA and was adopted only 
five or six years ago by the Food and Drug Administration and 
the United States Department of Agriculture. And we watched 
national salmonella incidences go way down.
    So, it's from that legacy that we build on what the Space 
Station is now capable of. And it is a broad sweep of things. 
We just talked about ultrasound. There was an experiment on the 
Station called, ``FOOT'' and the principal investigator from 
the Cleveland Clinic Foundation, Dr. Peter Cavanagh, has said 
it is giving him insight into the role of exercise in treating 
osteoporosis for both on orbit and on Earth. And I want to be 
clear: The bone loss that occurs in crew is roughly ten times 
the rate that occurs here on Earth. So, it's quite a serious 
problem.
    Much of our work with plants in space has spun off back 
here on Earth. As far as the future science, there is certainly 
human----
    The Chairman. What do you mean plants?
    Dr. Ross. I'm sorry. Agriculture. There was an experiment--
--
    The Chairman. You mean a better quality of more resistant 
type strain?
    Dr. Ross. One of the reasons we would like to grow plants 
in orbit is to help with the life support system so that as 
part of the regenerative of life support system, we have the 
carbon dioxide taken up by the plants and return oxygen, if you 
will. In addition there are psychological benefits simply to 
watch something grow other than your own hair when you're in 
space. Furthermore, it can be a food source. But it's been 
difficult in the past in space to grow plants correctly. We on 
the Space Station, for the first time, are able to do that 
quite well.
    The principal investigator, Gary Stutte from in Florida in 
fact, was able to spin off benefits for new growth media that 
are used to help nurture agriculture here on Earth. New sensors 
for measuring soil moisture, oxygen sensors, the commercial 
companies have picked up. Research communities and soil physics 
are using his work. Even people trying to look at the effects 
of climate change are using some of the models that got 
developed from that experiment. So, the simple subject of, 
``Can we grow a plant in space?'' has in fact let us back here 
benefit quite substantially.
    The Chairman. I am going to finish this and then go to the 
next round. We are taking longer in our rounds, but Colonel 
Fincke, you are a member of the American Geological Society. 
And I wondered if that would be an area for scientific research 
on the Space Station?
    It's not ever mentioned in any of the NASA material, but it 
seems that if we are going to use what we learn on the Moon to 
prepare to go to Mars that taking some of the matter from the 
Moon and looking at it in the Space Station might have some 
benefits. Is there a research path there?
    Colonel Fincke. Yes. And first and foremost we've been 
using the Space Station to look at our own beautiful planet. I 
took 21,000 pictures in my spare time. We have a beautiful 
planet. But when we go to the Moon, the Moon is incredible with 
its amount of resources. It has a lot of things; an abundance 
of metals like titanium and iron that are bigger preponderance 
on the Moon than on the planet, on Earth. So to be able to use 
those resources of the Moon for lunar bases and things like 
that as well as to maybe even use those resources sometime back 
here on the planet Earth. Those are outstanding, incredible 
possibilities.
    The Space Station can help along the way. It takes a while 
and it takes some effort and energy to get the samples back and 
forth to the Moon, down to the planet Earth. We may be able to 
certainly do some research on the materials and melt them and 
do all the things that we can only do in zero-g or reduce 
gravity aboard the International Space Station.
    As we go forward and understand how we're going to explore 
the Moon and beyond, I think this will be an important part of 
understanding the resources from the Moon and how the Space 
Station will play in there.
    The Chairman. I was interested in your thoughts on what 
would it take to justify the International Space Station to be 
designated as a national lab?
    I would be interested in Dr. Ross or Mr. Readdy telling us 
if NASA has ever looked at that as a way to assure that the 
scientific basis is going to be a priority and a long-term 
priority?
    Dr. Ross. In the recent past before the announcement of the 
Vision, we looked at broadening the community of people that 
were involved with the International Space Station and issued a 
request for information that listed all the potential tasks 
that we could turn over to a national laboratory of like 
situation; an institute if you will. A research institute.
    That list was being reviewed, commented upon by industry, 
by all comers if you will. Then we suspended the process, 
frankly, when the Vision got announced as the purpose of the 
International Space Station became more focused, if you will, 
in support of the Vision.
    Some of the tasks there are really quite challenging to use 
in a national laboratory model. Private medical data, for 
example, that we gather is something we wouldn't easily use 
through an institute the same with international agreements. 
But in the long run as the Station evolves over time certainly, 
I know we've had internal discussions, that we would want to 
come back and look at it again. This is a postponement, if you 
will, or a suspension of the activities. It's not necessarily a 
termination.
    The Chairman. Well, could it--could not the scientific 
experiments that you could do in a national lab at the Station 
be done in a way that it would enhance what you are also doing 
to prepare for exploration of the Moon and then beyond?
    Dr. Ross. Well, certainly we're proud of all the 
experiments that we go on now. Everything gets peer reviewed 
and it is a broad array of experiments. To the extent we can 
broaden the community, broaden the number of people, increase 
the number of people who are aware of what we can do on the 
International Space Station and then subsequently do 
experiments, that's, of course, a good thing.
    The Chairman. Is there something more that--or let me ask 
this. Do you see a prototype for how you would have a national 
lab designation? Different labs are run, some by university, 
some by private corporations, some with consortia. Do you see a 
best way to approach this that might not only fulfill the 
Vision, but also give more emphasis to science?
    Dr. Ross. The agency in the past has looked at eight 
different models of FFRDC's versus other non-governmental 
organizations running this. I don't think we settled on one 
exact model, in fact, the process we were going through was 
going to attempt to compete and elicit what would be the best 
model.
    So, I don't think we settled on one yet. But again if we 
come back to this in the future that's something that would be 
wrung out of the process.
    The Chairman. I would like for--to ask you to submit for 
the record the preliminary research that was done so that we 
get an idea of where you are going to determine if that might 
be a part of a re-authorization.
    [The information referred to follows:]

          ISS Utilization Management Concept Development Study
    On January 10, 2003, NASA submitted a report to Congress in 
response to direction accompanying the FY 2001 and FY 2003 VA-HUD-
Independent Agencies Appropriations Acts (Pub. L. 106-377 and Pub. L. 
107-73, respectively). The report reflected the results of a seven-
month, study-assessing options for ISS utilization management. The 
study set the following objectives for ISS utilization management: (1) 
to facilitate the pursuit of flight research; (2) to optimize research 
opportunities within current capabilities of ISS and with future 
enhancements for greater capabilities; and, (3) to increase the long-
range productivity of science, technology, and commercial research and 
development aboard the ISS. Designation of the ISS as a National lab 
was not considered as part of the study.
    As a key part of the NASA study, the scope of utilization work was 
defined as twenty-one principle functions ranging from development of 
strategic plans to archival of research samples. A few functions, such 
as policy development and safety certification, were determined to be 
inherently governmental. The other functions were analyzed as 
candidates for delegation to a non-governmental organization.
    Ten potential business models were evaluated. Two business models--
a research institute and a federally funded research and development 
center (FFRDC)--emerged as the best choices. A scoring process based 
upon an agreed upon set of evaluation criteria resulted in the research 
institute ultimately emerging as the preferred business model.
    The resulting NASA report * was based on a thorough qualitative and 
quantitative analysis of the study results and extensive discussions 
with senior managers across the Agency. In the report, NASA recommended 
the establishment of a nongovernmental organization, specifically a 
non-profit institute, to perform research leadership functions 
including significant aspects of research planning, manifesting, 
prioritizing, resource allocation, advocacy, outreach, and archiving.
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    A two-phase contracting approach was recommended. A phase one 
contract would be implemented to focus on science, technology, and 
commercial (S/T/C) leadership functions. The phase two contract, if 
implemented, would maintain the S/T/C leadership focus and add 
responsibility for the additional utilization management functions. 
Factors influencing the decision on the recommended approach included 
the importance of maintaining an institute focus on the S/T/C 
leadership functions, the need to clearly establish requirements for 
the additional utilization management functions, and the belief that a 
single entity should ultimately have the end-to-end authority and 
accountability for the competitively-sourced functions.
Future ISS Research
    The International Space Station is not anticipated to have excess 
utilization capacity beyond meeting the needs of the Vision for Space 
Exploration and our international partners through the middle of the 
next decade. Over the next several years, as the Space Station research 
agenda focused on the Vision is achieved, it will be beneficial to 
reexamine the next set of research priorities. Until that time, it 
would not be practical to expand the Space Station research functions 
to cover the wider agenda of a National research facility.

    The Chairman. Did you have anything else to add on that, 
Mr. Readdy?
    Mr. Readdy. No.
    The Chairman. Senator Nelson.
    Senator Nelson. Thank you, Madam Chairman. I am curious, 
since you had less bone loss, Colonel Fincke, what were some of 
the things that you did specifically in order to lessen that 
bone loss?
    Colonel Fincke. I think our studies are showing that 
compared to when we first started flying up to Space Station 
Mir and had American astronauts on the Russian space station 
from that time on when we've had Americans and human beings 
altogether in space where we're learning a lot of things.
    Our exercise countermeasure program is pretty outstanding. 
Gennady and I worked out for two and a half hours every day. 
Resistive exercise combined with cardiovascular exercise like 
running or on a stationary bike.
    I honestly believe that the data show, or at least--
certainly in my experience, because I exercised I came back 
feeling strong, feeling healthy and with minimum but still some 
bone loss. And we're working hard to figure out why these 
things happen. The images from the ultrasound machine will be 
helpful. And we're still working on this, because we need to 
understand the mechanisms why it happens and how to counteract 
it, because when we go to the Moon and Mars it's a long time on 
the lunar surface and it's a long trip to Mars.
    Senator Nelson. How did you get the resistance in the 
exercise?
    Colonel Fincke. There's a machine called the resistive 
exercise device or the ``RED.'' It consists of a cylinder 
that's about this big, two feet by maybe about I don't know one 
foot in diameter. There are two of these devices. They have 
some rubberized components on the inside. We can dial a certain 
resistance and then pull on some cords.
    From that we've had a very clever team on the ground that 
we can do all the things like upper body strength exercises to 
the really important one which we're doing--what are referred 
to as squats. All that stress on our bones and muscles while 
we're doing these squat exercises really helped our hips not to 
lose bone so fast. We could dial up exercise up to some very 
high weights just to keep us progressing.
    Senator Nelson. And on a treadmill, is it still the old 
style treadmill where you put on a harness with bungee cords 
that forces you down?
    Colonel Fincke. Yes, Senator. For the last month--that's 
exactly how I did it for the first 5 months. For the last month 
we actually--I ran out of bungees. In other words, they 
couldn't pull me down hard enough, so we used a device that's 
on the treadmill called the ``Subject Loading Device.'' And I 
could dial in or type in how many pounds I wanted to pull me 
down so I could be running effectively at my own weight on the 
ground. I was doing that up in space.
    So, we've come a long way with our exercise equipment and 
we still have a long way to go, however.
    Senator Nelson. Did your crew mate exercise as diligently 
as you did?
    Colonel Fincke. Yes. He was----
    Senator Nelson. And he had a similar less bone loss?
    Colonel Fincke. I'm not privy to his medical data, but he 
seemed to be looking and feeling pretty good when he came back 
home.
    Senator Nelson. That is very, very encouraging.
    Mr. Readdy, one of the things that Senator Hutchison and I 
had hammered at the confirmation hearings of Dr. Griffin was 
that we are concerned about this proposed hiatus between the 
time that the Space Shuttle would be stopped in 2010 and then 
who knows what time that the crew exploration vehicle would be 
ready. And, of course, Dr. Griffin had indicated that he was 
going to try to speed that up so that there was not much of a 
hiatus.
    Your current plan is that it may have the option, the CEV 
may have the option of docking with the Space Station. Why 
would that not be part of the plan so that we can still 
continue to use the Space Station without having to rely just 
on another nation's, specifically the Russian vehicle, to get 
to the Space Station after the year 2010?
    Mr. Readdy. Sir, first of all I have to compliment our 
Russian partners, because they have done exactly what they 
committed to do in terms of providing the Soyuz vehicles for 
crew rotation as well as crew rescue and Progress vehicles for 
resupply. But you're both absolutely right on that score.
    I know the Administrator committed to you both when he was 
doing his visits that we're going to accelerate the crew 
exploration vehicle and he's conducting the review already of 
that. He's named people to start reviewing the baseline plan 
that we had had for Project Constellation, to accelerate that 
program so that we can minimize the gap.
    You're quite right as that International Space Station 
ought to have access from U.S. vehicles as well.
    Senator Nelson. So, my question was, well why is that just 
an option? Why are we not actually planning that?
    Mr. Readdy. No. The previous baseline did show that as an 
option, I think, in the request for proposal. But I think Dr. 
Griffin is actively reviewing that as we speak.
    Senator Nelson. Well, that is encouraging too. After you 
fully assemble the Space Station and on the timeline that's 
what year now?
    Mr. Readdy. 2010, Sir.
    Senator Nelson. OK. Then what is the role of the Space 
Station once we have it fully assembled and supposedly the 
Space Shuttle is over and done with?
    Mr. Readdy. Well, as you know from your own personal 
experience, the Space Shuttle is a very unique vehicle and it's 
not without risk. That was pointed out, obviously, and the loss 
of our colleagues on the Challenger and then again on Columbia.
    The Columbia Accident Investigation Board pointed out that 
it's inherent design has risk associated with it. Our job is to 
use the Space Shuttle for those missions that it's uniquely 
qualified to do. Those include assembly of International Space 
Station where you need robotic capability, you need crew 
capability to do the space walks, you need the rendezvous 
docking and the environment of the payload bay in order to take 
those very large modules up to Space Station.
    So, as the Vision was being formulated our input to that 
vision was we should minimize the number of Space Shuttle 
flights to those essential to complete International Space 
Station and honor our international commitments.
    As the Space Station is completed, we expect to be able to 
do logistics not only from our international partners, the 
Russians certainly with their Progress vehicles, the Europeans 
next spring with Autonomous Transfer Vehicle Jules Verne which 
is right now over in Holland being completed. They're working 
with the Ariane which is now the ten-ton version has just 
returned to flight here 2 months ago. So, they're on track to 
provide a redundant logistics leg. I know a number of American 
contractors are looking at that capability to see if it would 
launch on our launch vehicles as well.
    Then our Japanese partners similarly returned to flight on 
their H-II launch vehicle in February. They are progressing 
well on their HTV, which is a H-II transfer vehicle that in 
addition to mating with the U.S. portion of the Space Station 
allowing much larger transfer of pressurized cargo also has the 
capability of taking up un-pressurized cargo such as gyrodynes 
and batteries and things like that.
    Clearly, we would also like, United States industry and 
entrepreneurs to supply us with the possibility of logistics 
here from the United States. And we are putting out a request 
for proposal here at the end of the summer with the expectation 
that by the end of the year we would be able to do that 
probably around the year 2009.
    The role of the Space Shuttle Orbiter at that point would 
not be required. Clearly eliminating the gap that both of you 
have mentioned and crew exploration vehicle and making sure it 
has the possibility of docking at Space Station is a critical 
part of that.
    Senator Nelson. Is the present thinking that the CEV is 
going to launch on an EELV or some Shuttle-derived vehicle?
    Mr. Readdy. Admiral Steidle would be better to comment on 
that than I. But the initial plan that they have provided to us 
and industry are two competing designs. Spiral One would not in 
fact be a crude vehicle. It would be a demonstration of the 
capability, and I think, they're silent on what launch vehicle 
would be required to do those demonstrations.
    Downstream, though, I think the expectation is that the 
crew exploration vehicle would be of such a size in mass that 
would require heavy lift launch vehicle and that could be one 
of the EELV derivatives or it might wind up being some kind of 
Shuttle-evolved design.
    Senator Nelson. There has been some concern expressed about 
the RCS system accidentally activating while the Space Shuttle 
Orbiter is docked to the International Space Station. Could you 
discuss the things that we should be worrying about and what we 
are going to do?
    And particularly once you have got all the mass up there 
that has been assembled.
    Mr. Readdy. Certainly. The Senator is referring to the 
reaction control system, RCS. These are 44 thrusters that are 
on the Space Shuttle Orbiter, they're used to maneuver the 
Space Shuttle. When docked to the International Space Station 
we also use the vernier or the lower thrust versions of those 
to re-orient the Space Station. So, operation of those jets is 
not anything that we wouldn't have planned to do normally.
    I think the failure mode that you're referring to is the 
jet driver, the reaction control jet driver device. One of the 
outcomes of the Columbia accident was we established a NASA 
Engineering and Safety Center. They surfaced a failure mode 
that, as yet, they haven't quantified whether it's a one-in-a-
thousand or one-in-ten-thousand chance that this driver device, 
which is what translates either the pilots input or the 
computers input into firing of the appropriate reaction control 
jet. Whether through failure of one of the electronic devices 
in it, it might inadvertently command a jet to fire.
    As you mentioned, the concern would be that it would 
perhaps put too large a load into the docking interface and the 
International Space Station.
    Well, I'd offer three things. For the first two flights, 
which are logistics flights that is not an issue given the 
configuration of Space Station even were the jets to fire 
inadvertently. But given the fact that we acknowledge that 
there's the possibility, however remote of this failure 
occurring, we turn off the reaction control jet drivers as soon 
as we're docked to help alleviate that as a possibility.
    Further, we would also secure the manifolds to the reaction 
control jets so that they wouldn't have any propellants. As an 
additional measure, though, as the Space Station increases in 
mass and future configurations after STS-115, what we will also 
do is a software modification to the Orbiter orientation system 
such that the pulse size of the jets of the primary thrusters 
would be insufficient to cause any kind of structural issue.
    Senator Nelson. And Colonel Collins is satisfied with where 
we are on this?
    Mr. Readdy. Yes, sir.
    Senator Nelson. How about the--presently you have two 
gyroscopes that are operational and one of those possibly, is 
going to fail. How are we going to get replacement gyros to the 
Station, if the--if this return to flight were to be postponed?
    Mr. Readdy. To start out, I'd like to complete my answer to 
your previous question in terms of Eileen Collins and STS-114. 
I just want to make very clear that the failure mode that you 
describe is not an issue for STS-114, it's not an issue for 
STS-121 either; the second test flight. We have controls in 
place so that we don't think it's a credible issue for 
subsequent flights either.
    In terms of your question about the gyroscopes or the 
control momentum gyros, Mike Fincke actually had an opportunity 
to do a space walk while he was up there and I'll ask him for 
his commentary here in a moment.
    There are four gyros onboard the International Space 
Station. They are the non-propulsive means of orienting the 
Space Station and pitch, roll, and yaw.
    There are propulsive ways to do that using the thruster 
jets that are part of the Russian part of International Space 
Station. Those function perfectly fine. We've got over a year 
of propellants and so that's really not an issue were other 
gyros to fail. We do not use the gyros to orient the Space 
Station during shuttle docking; so that's not an issue.
    It turns out to be one of redundancy management. As you 
point out STS-114 does have a replacement gyro onboard. And the 
complement of two that are functioning right now could be 
enhanced to three if we take the power supply and instead of 
making it independent for each of the gyros if we tie it to 
another gyro. Here I'm starting to get way outside my personal 
knowledge, so I'd like Colonel Fincke to comment.
    Colonel Fincke. The Space Station's equipped with four 
gyroscopes. One of them is hard-failed. We think it's something 
maybe in the bearings or something. That one's been down for a 
while and that's the one that's going to be replaced by this 
next crew.
    The one that we worked on, the failure mode was different. 
It's a power supply problem. And we went out and we changed out 
the power supply and a year later the power supply we replaced 
it with showed the same design defect. So, that gyroscope spun 
down.
    So, the trick is to get if we wanted to, if we thought we 
needed to get this other gyroscope back and up running there's 
two different ways to get power to it. We could do the same 
kind of space walk that Gennady and I performed, or we could 
take a shorter space walk and jumper over the power like Mr. 
Readdy was suggesting.
    So, it could be done by a Space Station crew. So if we 
really needed to get another gyroscope up and running it would 
require a space walk. To do a task that we've already done on 
either different way we have experience doing that.
    So, it's a big deal to do a space walk. It takes some 
operational planning, some a little bit of Station resources, 
in general it's well understood issue and quite achievable.
    Mr. Readdy. To complete that thought, it is planned for 
STS-114 not only to replace the failed gyroscope but also to do 
what he described as really kind of hot wiring the gyroscope 
that has a faulty power supply so that we would be back in 
operation with all four gyros.
    Senator Nelson. Back on my original question about your 
exercise regime. With this successful regime that you employed 
that Dr. Ross was talking about, how long did it take you where 
you could stand up and walk once you returned?
    Colonel Fincke. I felt even though we were in space for 
over 187 days that I could have walked off the Soyuz 
spacecraft. I was feeling very good, very strong. So there were 
no strength issues. The only issue I had was really a balance 
issue. My inner ear just wouldn't balance me so I was walking a 
little bit zig-zag. But other than that I felt I could have 
walked off that spacecraft.
    Senator Nelson. I was zig-zag as well and I was only up 6 
days.
    [Laughter.]
    Senator Nelson. Dr. Ross, are we within the magnetic field 
of the Earth in the Space Station so that we don't have to 
worry about protection on solar flares?
    Dr. Ross. Oh, we are within the magnetosphere, but we still 
have to worry about solar flares. There was an incident just 
this past January where the crew had to organize themselves, if 
you will, against the solar storm.
    Senator Nelson. And how do they do that?
    Dr. Ross. Put sufficient shielding in the path. We know the 
direction that the radiation is coming from in such cases. So 
they put sufficient material, if you will, in the path.
    Senator Nelson. What is that shielding material?
    Dr. Ross. Today it's all of the different equipment that's 
on the Space Station. Primarily aluminum in the long run we 
hope to go to materials like polyethylene or more advanced 
materials that have even better shielding capabilities.
    Senator Nelson. Will that be a component in the design of 
the CEV, especially if it is to leave Earth's orbit?
    Mr. Readdy. Clearly, we have to protect the crewmen. As 
soon as you leave the magnetosphere, of course you're subject 
to a much, much higher radiation. When we're talking about 
voyages that would be hundreds of days, yes, we do need to work 
on radiation protection.
    Senator Nelson. Madam Chairman, thank you so much.
    The Chairman. Thank you. Last question. Just to sort of 
summarize, if we had a 5-year hiatus in being able to deliver 
and return payload to the International Space Station, would 
science not be hurt as well as the security risks of being 
unable to go in space when we know other countries are going to 
be putting people in space more and more; even China and India 
possibly?
    Dr. Ross. I guess the answer to your question is it depends 
what alternatives are available at the time. Certainly there is 
pursuit right now of other launch vehicles that would provide 
the cargo transportation to and from the Space Station. That 
would mitigate any problems associated with the science.
    The Chairman. Being unmanned is----
    Dr. Ross. Yes.
    The Chairman. Yes.
    Dr. Ross.--unmanned. The same thing if we would have to 
continue to rely on the Russians as far as crew transport 
that's, you know, that's the major concern of course. And to 
try to expand the number of crew members.
    So, yes, it would be a concern until we explore all the 
alternatives. I couldn't tell you how much science would be 
hurt.
    The Chairman. But about the people not being there in 
sufficient numbers to do the experiments?
    Dr. Ross. We hope by 2009 that the people will be there in 
sufficient numbers. We're planning on six people by that time. 
As I understand it, I can defer this to Bill, to keep it 
populated with six people through the lifetime of the Station.
    The Chairman. Using Russian vehicles?
    Mr. Readdy. Right now it appears that Russian vehicles are 
the interim answer. Yes, ma'am. But as I said before, the 
Administrator's committed to accelerate the CEV program so that 
we minimize the gap.
    The Chairman. Yes. But my point was if we did not have the 
gap minimized would it not hurt our scientific----
    Mr. Readdy. We would certainly be dependent on someone 
else.
    The Chairman.--capacity?
    Mr. Readdy. Yes, ma'am.
    Senator Nelson. And Madam Chairman, if I might, that of 
course is our dual concern. In the geopolitics of today that's 
not a problem, because we have this bond, this close 
relationship with the Russians. But what is the geopolitics of 
planet Earth going to look like in the year 2012? And that's 
why jointly the two of us feel very strongly we need to 
accelerate the CEV.
    The Chairman. Thank you very much. We appreciate your being 
here and helping us get started.
    And I do want to have all of the work that you have done on 
a national lab and anything that you would want to add that 
might be useful from a scientific standpoint that might be done 
in a national lab configuration.
    Dr. Ross. Absolutely.
    The Chairman. Thank you.
    Dr. Ross. Thank you.
    Mr. Readdy. Thank you, Madam Chairman, Senator Nelson.
    The Chairman. Thank you. I would like to call our second 
panel, Marcia Smith, Senior Analyst at the Congressional 
Research Service; Dr. Jeffrey Sutton, Director of the National 
Space Biomedical Research Institute in Houston; and Dr. Mary 
Ellen Weber, Vice President of the University of Texas, 
Southwestern Medical School in Dallas.
    I am very pleased to have your testimony and I want to say 
to Ms. Smith, particularly, I appreciated in your written 
remarks and maybe you will be going over this orally, but 
describing the mission of the Space Station through the 
different presidents was very enlightening to me. And I want to 
go back to the Ronald Reagan Vision. I'll just state that right 
now.
    So, with that, let me welcome you and ask for your 
testimony.

  STATEMENT OF MARCIA S. SMITH, SENIOR ANALYST, CONGRESSIONAL 
                        RESEARCH SERVICE

    Ms. Smith. Thank you very much, Madam Chairwoman. And thank 
you for inviting me here today to testify about the Space 
Station program. You asked that I focus my remarks on how the 
rationale behind the program has changed over the years, 
particularly in terms of it's expected benefits. Essentially, 
what was promised and whether those promises are likely to be 
met under the current plan.
    I would ask that my written testimony be submitted for the 
record and I will try to summarize it's key points in the next 
5 minutes.
    Ms. Smith. When he initiated the Space Station program in 
1984, President Reagan said, ``A Space Station will permit 
quantum leaps in our research in science, communications, in 
metals, and in lifesaving medicines which could be manufactured 
only in space.''
    Originally, the Space Station was to consist of three 
orbiting facilities; an occupied base, an automated co-orbiting 
platform, and another automated platform in a polar orbit. NASA 
Administrator Beggs said in 1984 that it would have eight 
functions; a laboratory in space, a permanent observatory to 
look down upon the Earth and out at the universe, a 
transportation node, a servicing facility, an assembly 
facility, a manufacturing facility, a storage depot, and a 
staging base for more ambitious future missions.
    Repeated cost growth led to many changes in that concept 
over the next 5 years. By the end of 1989 only the laboratory 
function remained. President George H.W. Bush, the senior 
President Bush, made a major space policy address announcing 
his Moon/Mars program that year and spoke glowingly of what was 
then known as Space Station Freedom's role in that vision.
    But the Space Station continued to be down-sized. A 
redesign in 1990 to 1991 raised concern in the scientific 
community, because it excluded plans for a centrifuge. Reports 
from the Space Studies Board and the White House Office of 
Science and Technology Policy stressed the need for a 
centrifuge. The Chairman of the SSB told this Committee in 1991 
that, ``. . . a centrifuge is the single most important 
facility for space biology and medicine research.'' NASA 
restored a 2.5 meter centrifuge to the design.
    In 1993 as President Clinton took office, additional cost 
growth was revealed. He directed another redesign and in June 
1993 approved a scaled-down version of Space Station Freedom. 
Congress agreed to proceed with the redesign program, but by 
narrow margins in the House. Then in September 1993, Vice 
President Gore announced that Russia would join the program. 
This design including Russian contributions is the Space 
Station under construction today, the International Space 
Station.
    In 1997 NASA Administrator Goldin told this Committee that, 
``. . . the ISS has unique characteristics where we could do 
research and bio-medicine, biotechnology, advanced materials, 
combustion research, advanced communications, and advance 
engineering and Earth science that we could do on no other 
platform. This is a place where we use the absence of gravity 
to understand the laws of physics and chemistry and biology 
much better and rewrite text books.''
    Assembly of the Space Station began in 1998 and permanent 
occupancy by three-person crews began in 2000. But in 2001 as 
President Bush took office more cost growth was revealed. The 
White House decided to truncate construction, canceling plans 
to build certain U.S. hardware including a crew return vehicle. 
The decision not to build the CRV affected plans to increase 
the size of the Space Station crew.
    The number of crew is important in terms of how much 
research could be conducted since, according to NASA prior to 
it's recent experience with the two-person crews, that with a 
three-person crew it takes two and a half people to operate the 
station, meaning that only one half of one person's time would 
be allocated to research.
    The 2003 Columbia accident led to a re-examination of the 
fundamental rationale of the human space flight program. That 
review led in turn to President Bush's January 2004 
announcement of a Vision for Space Exploration. The full extent 
to which the Vision, if adopted, would effect the Space Station 
program is not clear yet. What is known is that the scope of 
research would be narrowed to only that which supports the 
Vision. There would be fewer years during which NASA would 
conduct research and the Shuttle would not be available to 
support scientific operations after 2010.
    What is not known yet are details of the new research 
program, and therefore, what benefits can be expected from it, 
what the ISS crew size will be and how many will be NASA 
astronauts; whether the centrifuge will be completed, and what 
capabilities may be available from other partners or the U.S. 
commercial sector to take cargo to and from ISS instead of the 
Shuttle.
    Therefore, the extent to which Space Station research will 
rewrite text books, as Mr. Goldin forecast in 1997, remains to 
be seen. Thank you very much.
    [The prepared statement of Ms. Smith follows:]

        Prepared Statement of Marcia S. Smith, Senior Analyst, 
                     Congressional Research Service
    Madam Chairwoman, Members of the Subcommittee, thank you for 
inviting me to testify here today about the space station program. You 
asked that I focus my remarks on how the rationale behind the program 
has changed over the years, particularly in terms of its expected 
benefits--essentially, what was promised, and whether those promises 
are likely to be met under the current plan.
    The space station program has been an international endeavor since 
its inception. Today, Russia, Canada, Japan, and 10 European countries 
\1\ are partners with the United States in building the International 
Space Station (ISS). My testimony will not address how the non-U.S. 
partners have won support from their governments, or what benefits they 
expect, however. The focus here is on how NASA and the White House have 
explained the rationale for and expected benefits from the program to 
the U.S. Congress. My testimony would not be complete, though, without 
noting that the other partners are vital to NASA's use of the space 
station. NASA is dependent on Russia for crew and cargo transportation 
to and from ISS while the space shuttle is grounded. Under President 
Bush's Vision for Space Exploration, NASA will continue to be dependent 
on Russia to enable NASA astronauts to remain aboard the space station 
for long duration missions, and to have them there at all once the 
space shuttle is terminated in 2010. In addition, some of the research 
facilities that will be available to U.S. researchers are in Europe's 
Columbus module and Japan's Kibo module. Also, Japan is building a 
centrifuge and its accommodation module for NASA in exchange for NASA 
launching Japanese hardware. However, NASA reportedly is reconsidering 
whether it needs the centrifuge.
---------------------------------------------------------------------------
    \1\ Belgium, Denmark, France, Germany, Italy, the Netherlands, 
Norway, Spain, Sweden, and Switzerland. The United Kingdom signed the 
Intergovernmental Agreement that governs the program, but is not 
financially participating in it, so the number of participating 
European countries is sometimes listed as 11.
---------------------------------------------------------------------------
Rationale for and Expected Uses of the Space Station
    Four Presidents have shaped the space station program--Ronald 
Reagan, George H.W. Bush, Bill Clinton, and George W. Bush--so I have 
separated this historical discussion into the time periods of those 
administrations. This is not meant to suggest that they were the only 
forces affecting the program. Congress has played a strong role in the 
space station's evolution through funding decisions and oversight. The 
two space shuttle tragedies--Challenger in 1986 and Columbia in 2003--
also impacted the program. Perhaps the biggest influence has been the 
incessant cost growth and schedule delays that have characterized the 
program since its earliest days. Assembly was originally planned for 
completion by 1994; now it is 2010. NASA estimated the space station 
would cost $8 billion (FY 1984 dollars) when it first came to Congress 
to obtain approval for the program. Congress now has appropriated 
approximately $35 billion (FY 1985-2005, in current dollars), and NASA 
estimates it will cost another $10 billion through the end of 
construction in FY 2010. (Estimates do not include shuttle launch 
costs.)
    The cost growth and schedule delays over the past 21 years have 
subjected the space station to repeated downsizings and consequent 
reductions in its capabilities.
    It is not possible in this short statement to review 
comprehensively the record of statements made to Congress by the White 
House and NASA about the rationale for building a space station and 
what could be expected from it. The examples herein are illustrative. 
For your convenience, I have summarized the various changes to the 
space station's configuration in a table appended to this statement.
Reagan Administration
    The space station program, today known as the International Space 
Station (ISS), was formally initiated by President Ronald Reagan in his 
January 25, 1984 State of the Union Address. President Reagan directed 
NASA to build a permanently occupied space station ``within a decade'' 
and to invite other countries to join in the project. He explained his 
reasons for wanting to build such an orbiting facility in this way:

        America has always been greatest when we dared to be great. We 
        can reach for greatness again. We can follow our dreams to 
        distant stars, living and working in space for peaceful, 
        economic, and scientific gain. Tonight, I am directing NASA to 
        develop a permanently manned space station and to do it within 
        a decade.

        A space station will permit quantum leaps in our research in 
        science, communications, in metals, and in lifesaving medicines 
        which could be manufactured only in space. We want our friends 
        to help us meet these challenges and share in their benefits. 
        NASA will invite other countries to participate so we can 
        strengthen peace, build prosperity, and expand freedom for all 
        who share our goals. \2\
---------------------------------------------------------------------------
    \2\ Ronald W. Reagan. State of the Union Address. January 25, 1984. 
Text available on the University of California Santa Barbara (UCSB) 
American Presidency Project website at: http://www.presidency.ucsb.edu/
ws/index.php?pid=40205.

    NASA officials at this time articulated the need for a new space 
station \3\ by using the motto that it was ``the next logical step'' in 
the space program. Indeed, in 1969, Vice President Agnew had chaired a 
Space Task Group to recommend goals for the post-Apollo space program. 
Briefly, the plan was to build a space station, a reusable space 
transportation system to service it, and to send people to Mars. Budget 
constraints led President Nixon to approve only one element of that 
plan in 1972--development of a reusable space transportation system, 
which became known as the space shuttle. NASA declared the space 
shuttle ``operational'' in 1982, and then was ready to proceed with the 
next step, building a space station.
---------------------------------------------------------------------------
    \3\ The space station approved in 1984, and currently under 
construction, is NASA's second space station. The first NASA space 
station was Skylab, launched in 1973. Skylab was not intended to be 
permanently occupied. Visited by three 3-person crews in 1973-1974, it 
made an uncontrolled reentry through Earth's atmosphere in 1979, 
spreading debris on Australia and the Indian Ocean. The space station 
approved in 1984 was intended to go beyond Skylab, to a permanently 
occupied facility with sequential crews onboard year-round. Meanwhile, 
the Soviet Union had launched the world's first space station in 1971 
(Salyut 1). By 1984 when President Reagan announced the plan to build 
NASA's space station, the Soviets were operating their sixth successful 
space station (Salyut 7). In 1986, they launched the first element of 
the modular Mir space station. Several other modules were added to the 
Mir complex over many years, and Mir was permanently occupied from 
1989-1999 (including multi-month visits by seven NASA astronauts, and 
nine dockings between Mir and NASA's space shuttle). Mir made a 
controlled deorbit into the Pacific Ocean in 2001.
---------------------------------------------------------------------------
    Two months after the State of the Union Address, then-NASA 
Administrator James Beggs testified to the House Appropriations 
Committee that the cost estimate for the space station was $8 billion 
(FY 1984 dollars), and identified the eight functions that the space 
station would serve:

  <bullet> a laboratory in space, for the conduct of science and the 
        development of new technologies;

  <bullet> a permanent observatory, to look down upon the Earth and out 
        at the universe;

  <bullet> a transportation node where payloads and vehicles are 
        stationed, processed and propelled to their destinations;

  <bullet> a servicing facility, where these payloads and vehicles are 
        maintained, and if necessary, repaired;

  <bullet> as assembly facility where, due to ample time on orbit and 
        the presence of appropriate equipment, large structures are put 
        together and checked out;

  <bullet> a manufacturing facility where human intelligence and the 
        servicing capability of the Station combine to enhance 
        commercial opportunities in space;

  <bullet> a storage depot where payloads and parts are kept on orbit 
        for subsequent deployments; and

  <bullet> a staging base for more ambitious future missions. \4\
---------------------------------------------------------------------------
    \4\ U.S. Congress. House. Committee on Appropriations, Subcommittee 
on HUD-Independent Agencies. Department of Housing and Urban 
Development--Independent Agencies Appropriations for 1985, Part 6, 
National Aeronautics and Space Administration. March 27, 1984. 
Washington, U.S. Govt. Print. Off., p. 8

    This original concept envisioned three separate space station 
facilities: an occupied base for eight crew members in a 28.5+ orbit, 
an automated co-orbiting platform nearby, and an automated ``polar 
platform'' in orbit around Earth's poles (an orbit typically used for 
Earth observations). By the fall of 1985, NASA had settled on a ``dual-
keel'' design for the facility, with four laboratory and habitation 
modules. Over the next several months, NASA approved other details, 
including a few changes from that baseline design. Among the changes 
was reducing the number of U.S. modules from four to two (but the new 
U.S. modules would be larger so the total habitable volume was 
relatively unchanged), with plans for two more modules to be provided 
by Europe and Japan. NASA also agreed to add a U.S. Flight Telerobotic 
Servicer at Congressional urging, to supplement Canada's planned Mobile 
Servicing System.
    In 1985, as you may recall Senator Nelson, NASA's Associate 
Administrator for Space Station, Phil Culbertson, told you at a hearing 
you convened on the space station and space science, that a 
``fundamental concept upon which the space station has been and will 
continue to be defined is that it will be designed, operated, and 
evolved in response to user requirements.'' \5\ Mr. Culbertson 
explained that NASA had worked closely with prospective users for the 
previous three years, and established a Task Force on Scientific Uses 
of the Space Station, to advise NASA on what the scientific community 
wanted and needed. He listed the following as examples of the planned 
scientific uses: Earth observations; astronomical observations; basic 
biological and physiological research, including the effect of long 
duration exposure to microgravity conditions; research on the 
processing and behavior of materials in microgravity, including 
crystals and pharmaceuticals (with research to be conducted on the 
occupied base, and full scale commercial production either on the 
occupied base or on spacecraft serviced from the occupied base); and 
applications and technology research such as advanced communications, 
energy conversion, propulsion, controls, and human factors.
---------------------------------------------------------------------------
    \5\ U.S. Congress. House. Committee on Science and Technology. 
Space Science and the Space Station. September 24, 1985. Washington, 
U.S. Govt. Print. Off., 1985, p. 6.
---------------------------------------------------------------------------
    Funding challenges, and the January 1986 Space Shuttle Challenger 
tragedy, soon impacted the space station design. In late 1986, the 
dual-keel design was reaffirmed, but emphasis was placed on building a 
single-keel first because of the reduction in the number of shuttle 
flights, and the reduced amount of cargo that would be allowed aboard 
the shuttle, in the wake of the Challenger tragedy. An emphasis on 
early accommodation of experiments, fewer spacewalks, an extended 
``safe haven'' concept with the possibility for ``lifeboats'' for 
emergency return to Earth (not made a requirement at this time 
reportedly for cost reasons), and increased use of automation and 
robotics, were made part of the program.
    In 1987, in response to continued cost growth, the program was 
split into two phases. Phase I, to be completed by 1996, would include 
a single keel of the occupied base (including the four modules), and 
the polar platform. The second keel, the co-orbiting platform, and 
solar dynamic power were deferred to Phase 2, on which further 
decisions were anticipated in 1991.
    In 1988, Canada, Europe, and Japan formally joined the program 
after three years of negotiations. Canada agreed to build a Mobile 
Servicing System (Canadarm2), while Europe and Japan each agreed to 
build laboratory modules (Columbus and Kibo, respectively). The 
partners named the space station Freedom. In return for providing 
services such as electrical power and crew and cargo transport, NASA 
obtained utilization rights to half of the research facilities in the 
European and Japanese modules.
George H.W. Bush Administration
    On July 20, 1989, six months after taking office, the senior 
President Bush made a major space policy address on the 20th 
anniversary of the Apollo 11 landing on the Moon. He called on the 
United States to return humans to the Moon and someday go to Mars. 
Space Station Freedom featured prominently in the President's vision 
for the future of the space program. This excerpt may be helpful in 
comparing the role envisioned for the space station as part of a 
program of human space exploration at that time, versus today. The 
senior President Bush said:

        In 1961 it took a crisis--the space race--to speed things up. 
        Today we don't have a crisis; we have an opportunity. To seize 
        this opportunity, I'm not proposing a 10-year plan like Apollo; 
        I'm proposing a long-range, continuing commitment. First, for 
        the coming decade, for the 1990s: Space Station Freedom, our 
        critical next step in all our space endeavors. And next, for 
        the new century: Back to the Moon; back to the future. And this 
        time, back to stay. And then a journey into tomorrow, a journey 
        to another planet: a manned mission to Mars.

        Each mission should and will lay the groundwork for the next. . 
        . .

        And to those who may shirk from the challenges ahead, or who 
        doubt our chances of success, let me say this: To this day, the 
        only footprints on the Moon are American footprints. The only 
        flag on the Moon is an American flag. And the know-how that 
        accomplished these feats is American know-how. What Americans 
        dream, Americans can do. And 10 years from now, on the 30th 
        anniversary of this extraordinary and astonishing flight, the 
        way to honor the Apollo astronauts is not by calling them back 
        to Washington for another round of tributes. It is to have 
        Space Station Freedom up there, operational, and underway, a 
        new bridge between the worlds and an investment in the growth, 
        prosperity, and technological superiority of our nation. And 
        the space station will also serve as a stepping stone to the 
        most important planet in the solar system: planet Earth.

         . . . 

        The space station is a first and necessary step for sustained 
        manned exploration . . . But it's only a first step. And today 
        I'm asking . . . Vice President, Dan Quayle, to lead the 
        National Space Council in determining specifically what's 
        needed for the next round of exploration. . . . The Space 
        Council will report back to me as soon as possible with 
        concrete recommendations to chart a new and continuing course 
        to the Moon and Mars and beyond.

         . . . Why the Moon? Why Mars? Because it is humanity's destiny 
        to strive, to seek, to find. And because it is America's 
        destiny to lead. \6\
---------------------------------------------------------------------------
    \6\ George H.W. Bush. Remarks on the 20th Anniversary of the Apollo 
11 Moon Landing. Text available from the Bush Library website at: 
http://bushlibrary.tamu.edu/research/papers/ 1989/89072000.html.

    Despite this glowing endorsement of Space Station Freedom, on a 
practical level, the program continued to experience cost and schedule 
problems, resulting in more changes that further reduced its 
capabilities. In 1989, the same year as the President's speech, NASA 
indefinitely postponed Phase 2, and the polar platform was transferred 
out of the space station program and into NASA's Office of Space 
Science and Applications.
    By this time, five years after the program began, of the eight 
functions identified by Administrator Beggs in his 1984 testimony, only 
one remained: a single-keel occupied base to serve as a laboratory. 
Construction of that base was, in turn, divided into two phases: an 
``initial phase'' with reduced capabilities ( crew size was reduced 
from eight to four, electrical power reduced from 75 kw to 37.5 kw, and 
an open-loop instead of a closed-loop life support system would be 
used); and an ``assembly complete'' phase when full capabilities would 
be restored. NASA asserted that the capabilities envisioned in the 1987 
Phase 2 program (dual-keel etc.) could still ``evolve'' sometime in the 
future to support expeditions to the Moon and Mars.
    In 1990-1991, the space station was further downsized because of 
continued cost problems, weight growth, and growing estimates of the 
number of spacewalks needed for its construction. The U.S. modules were 
reduced in size from 44 feet to 27 feet in length; the total length of 
the facility was reduced from 493 feet to 353 feet; the Flight 
Telerobotic Servicer was canceled; crew size was formally reduced to 
four; and electrical power was formally reduced from 75 kw to 56 kw. A 
``lifeboat'' was added to the station's design, but was not included in 
the cost estimate. The ``assembly complete'' designation was abandoned 
in favor of a concept that the station would continually evolve in an 
undefined and unbudgeted ``follow-on phase.''
    The 1990-1991 downsizing raised concern in the scientific 
community. Among other things, the redesign excluded plans for a 
centrifuge. The Space Studies Board (SSB) of the National Research 
Council issued a report saying that the limited microgravity research 
that could be conducted on the redesigned station did not merit the 
investment required. The SSB said that while it strongly endorsed the 
need for a space station to study the physiological consequences of 
long-term space flight, the redesigned station did not have the 
necessary facilities to do so. It cited the following as ``absolutely 
fundamental to the acquisition of the data necessary to determine the 
feasibility of long-term human space exploration''--

  <bullet> a dedicated life sciences laboratory with adequate 
        scientific crew to conduct research;

  <bullet> a variable speed centrifuge of sufficient radius to 
        accommodate small primates;

  <bullet> sufficient numbers of experimental subjects (humans, plants 
        and animals) to address the stated scientific goals; and

  <bullet> sufficient laboratory resources, i.e. power, equipment, 
        space, and atmosphere, to support the above research 
        requirements. \7\
---------------------------------------------------------------------------
    \7\ U.S. National Academy of Sciences. National Research Council. 
Space Studies Board. Space Studies Board Position on Proposed Redesign 
of Space Station Freedom. Letter report to NASA Administrator Richard 
Truly, March 14, 1991. pp. 1-3.

    In testimony to this subcommittee on April 16, 1991, SSB Chairman 
Louis Lanzerotti noted that ``For over twenty years, virtually every 
internal and external life sciences advisory group to NASA has 
emphasized the absolutely critical need for a centrifuge in space. A 
variable force centrifuge (VFC) is the single most important facility 
for space biology and medicine research.'' \8\
---------------------------------------------------------------------------
    \8\ U.S. Senate. Committee on Commerce, Science, and 
Transportation. Subcommittee on Science, Technology, and Space. NASA's 
Plan to Restructure the Space Station Freedom. Hearing. April 16, 1991. 
S. Hrg. 102-268. Washington, U.S. Govt. Print. Off., 1997, pp. 52-53.
---------------------------------------------------------------------------
    The White House Office of Science and Technology Policy issued its 
own report, which essentially agreed with the Academy's findings, and 
similarly emphasized the need for a centrifuge. \9\ In response, NASA 
restored a 2.5 meter centrifuge to the design.
---------------------------------------------------------------------------
    \9\ White House. Letter from Dr. D. Allan Bromley, Assistant to the 
President for Science and Technology, to the Honorable Dan Quayle, Vice 
President of the United States. March 11, 1991. Dr. Bromley's report 
called not only for a centrifuge able to accommodate animals, but a 
larger one for human subjects.
---------------------------------------------------------------------------
Clinton Administration
    As President Clinton took office in 1993, NASA announced $1 billion 
in cost growth in the Space Station Freedom program. In response, the 
President directed NASA to redesign the space station again to reduce 
costs. Many in the space community consider this to be the most crucial 
year in the space station's history, as the continued cost growth, 
schedule delays, and redesigns took their toll on congressional support 
for the program.
    Ultimately, a scaled-down version of the Freedom design was 
selected. President Clinton issued a statement announcing the decision 
on June 17, 1993 that included the following rationale for proceeding 
with the program:

        At a time when our long-term economic strength depends on our 
        technological leadership and our ability to reduce the deficit, 
        we must invest in technology but invest wisely, making the best 
        possible use of every dollar. That's why I asked for a review 
        of NASA's space station program. . . . I instructed NASA to 
        redesign the space station program in a way that would preserve 
        its critical science and space research and ensure 
        international cooperation, but significantly reduce costs and 
        improve management.

        NASA has met that challenge . . . 

        I am calling for the U.S. to work with our international 
        partners to develop a reduced-cost, scaled-down version of the 
        original Space Station Freedom. At the same time, I will also 
        seek to enhance and expand the opportunities for international 
        participation in the space station project so that the space 
        station can serve as a model of nations coming together in 
        peaceful cooperation. . . . 

        To make maximum use of our investments and meet the scientific 
        goals we have set, the specific design we will pursue will be a 
        simplified version of Space Station Freedom . . . 

        There is no doubt that we are facing difficult budget 
        decisions. However, we cannot retreat from our obligation to 
        invest in our future. Budget cuts alone will not restore our 
        vitality. I believe strongly that NASA and the space station 
        program represent important investments in that future and that 
        these investments will yield benefits in medical research, 
        aerospace, and other critical technology areas. As well, the 
        space station is a model of peaceful international cooperation, 
        offering a vision of the new world in which confrontation has 
        been replaced with cooperation. \10\
---------------------------------------------------------------------------
    \10\ William J. Clinton. Public Papers of the President. June 17, 
1993. Available from the Government Printing Office at: http://
www.gpoaccess.gov/pubpapers/index.html.

    A week later, on June 23, 1993, the House voted to continue the 
space station program by a one-vote margin as it considered a NASA 
authorization bill. A week after that, on June 28, it voted to support 
the program by a somewhat wider (24 vote) margin when considering 
NASA's appropriations bill for that year. Two months later, on 
September 21, 1993, the Senate voted to continue the program 59-40.
    By the time of the Senate vote, the space station had changed 
again, however. On September 2, Vice President Gore announced that 
Russia had agreed to join the space station partnership as part of 
broader cooperation in human space flight and other science and 
technology areas. Some of the expected benefits of bringing Russia into 
the space station program were in the foreign policy arena and, while 
important, are not the focus of your hearing this morning, so I will 
not discuss them here. In terms of the capabilities of the new space 
station design, NASA said that, in comparison with the design announced 
in June 1993, the space station would be ready one year sooner, cost $2 
billion less, \11\ have 25 percent more usable volume and 42.5 
kilowatts more electrical power, and accommodate six \12\ instead of 
four crew members.
---------------------------------------------------------------------------
    \11\ Initially, NASA and the White House said that Russia's 
participation would save 2 years and $4 billion, but later lowered it 
to 1 year and $2 billion. The estimated savings were based on the fact 
that NASA was spending about $2 billion per year on the program, so 
accelerating the schedule by one year would save that amount. For more 
information, see CRS Issue Brief IB93017.
    \12\ Although NASA said six at the time, the revised 
intergovernmental agreements that formally brought Russia into the 
program in 1998 call for a permanent space station crew of seven.
---------------------------------------------------------------------------
    Mr. Daniel Goldin, the Administrator of NASA from 1992-2001, often 
stated that this redesigned space station--now referred to simply as 
the International Space Station (the name Freedom was dropped in 
1993)--would have ``world-class'' research capabilities. In 1997, he 
articulated the expected scientific payoff in response to questions 
posed at a hearing before this Subcommittee:

         . . . We happen to be building a station in Earth orbit that 
        has unique characteristics where we could do research in 
        biomedicine, biotechnology, advanced materials, combustion 
        research, advanced communications and advanced engineering and 
        Earth science that we could do on no other platform.

        We already have results back from our very early missions on 
        the Mir space station . . . [W]e have been getting absolute 
        breakthroughs in the kind of science we have in the areas of 
        cancer research, pharmaceutical research.

        We have even built a half-centimeter piece of human cartilage 
        in the bioreactor. . . . We have done incredible research in 
        combustion.

        The key to it is time on orbit and the absence of gravity. The 
        International Space Station is going to provide that capacity.

        Furthermore, we're going to have exploration of space. . . . In 
        the process of understanding how people can adapt to space, we 
        study healthy physiology in an abnormal environment and compare 
        it to abnormal physiology or sick people in a normal 
        environment here. This is yielding great results, and, in fact, 
        it is so exciting that the American Medical Association has 
        signed a cooperative agreement with NASA to take advantage of 
        the International Space Station to help upgrade medical 
        techniques right here on Earth.

         . . . This is a place where we use the absence of gravity to 
        understand the laws of physics and chemistry and biology much 
        better and rewrite textbooks. \13\
---------------------------------------------------------------------------
    \13\ U.S. Senate. Committee on Commerce, Science, and 
Transportation. Subcommittee on Science, Technology, and Space. 
International Space Station. Hearing. September 18, 1997. S. Hrg. 105-
792. Washington, U.S. Govt. Print. Off., 1997, pp. 12-13.

    After further discussion, he cautioned that `` . . . I cannot tell 
you that I could give any American a cure for cancer. . . . '' or make 
other promises because NASA engages in long term, high risk research 
for which the payoff could be 10-20 years in the future. \14\
---------------------------------------------------------------------------
    \14\ Ibid, p. 15.
---------------------------------------------------------------------------
    The basic design of the space station remained unchanged throughout 
the Clinton Administration. But cost growth and schedule delays 
remained a constant companion. In 1997, NASA began to shift funds from 
space station research into space station construction.
    In 1998, the first two elements of the space station were launched. 
A 19-month hiatus followed, waiting for Russia to launch its ``Service 
Module'' that provides crew quarters. With the successful launch of the 
Service Module in 2000, successive space station crews took up 
residency, initiating permanent occupancy of ISS.
George W. Bush Administration
    As President George W. Bush took office in 2001, NASA again 
announced significant cost growth, not unlike the situation when 
President Clinton took office in 1993. With space station construction 
already under way, redesign options were limited. The Bush 
Administration decided to truncate ISS construction at a phase called 
``core complete,'' which included the launch of certain U.S. 
components, and the hardware under construction by other ISS partners. 
The White House said that if NASA could demonstrate better program 
management, it would consider adding ``enhancements'' to the station 
later.
    Three major U.S. elements were cancelled then or the next year: a 
Crew Return Vehicle for returning astronauts to Earth in an emergency; 
a Propulsion Module; and a Habitation Module. The Administration also 
cut the budget for space station research by $1 billion, and directed 
NASA to reprioritize its research program accordingly. NASA created a 
Research Maximization and Prioritization (ReMaP) Task Force to do so. 
Its report was completed in 2002.
    Mr. Goldin, who remained Administrator for most of the first year 
of the Bush Administration, told the House Science Committee that the 
downscaled space station still would support the ``high priority goals 
of: (1) permanent human presence in space, (2) accommodation of all 
international partner elements; and (3) world-class research in 
space.'' \15\ One major concern was the decision to terminate the Crew 
Return Vehicle (CRV), which was needed if the crew size was going to 
increase from three to six or seven. The size of the crew was 
considered vital to the amount of scientific research that could be 
conducted there, since NASA estimated that it took ``2\1/2\'' 
astronauts to operate and maintain the facility, leaving only half of 
one person's time for research when the crew size was limited to three. 
Mr. Goldin said that ``human-tended science would be greatly degraded'' 
with a three-person crew, but he expressed hope that a solution would 
be found so that the larger crew size could be restored. \16\
---------------------------------------------------------------------------
    \15\ U.S. Congress. House. Committee on Science. Space Station Cost 
Overruns. Hearing, April 25, 2001. Washington, U.S. Govt. Print. Off., 
p. 74.
    \16\ U.S. Congress. House. Committee on Science. Subcommittee on 
Space and Aeronautics. NASA Posture. Hearing, May 2, 2001. Washington, 
U.S. Govt. Print. Off., p. 31.
---------------------------------------------------------------------------
    Mr. Sean O'Keefe became NASA Administrator in December 2001, with a 
mandate, inter alia, to ``fix'' the space station program. Eleven 
months later, he won White House support to submit a FY 2003 budget 
amendment that called for adding $706 million to the ISS program for FY 
2004-2007: $660 million to boost program reserves to ensure sufficient 
funds to finish the core complete configuration, and $46 million in FY 
2004 for ``long-lead'' items to preserve the option of increasing crew 
size beyond three. \17\ In December 2002, he and the heads of the other 
partners' agencies agreed on a process for selecting a final ISS 
configuration by December 2003, including how to increase the crew 
size.
---------------------------------------------------------------------------
    \17\ The ISS increases were proposed to begin in FY 2004. By the 
time Congress deliberated the FY 2004 budget, ISS construction was 
suspended because of the Columbia tragedy, and Congress cut $200 
million from the ISS budget. The budget amendment also initiated an 
Orbital Space Plane program that would have been able to take crews to 
and from ISS, but it was terminated a year later.
---------------------------------------------------------------------------
    The crew size limitation is based on the number of astronauts who 
can be returned to Earth in an emergency by a single Russian Soyuz 
spacecraft. In this context, it is referred to as a ``lifeboat'' or 
``crew return'' capability. Russia is committed to having one Soyuz 
docked with ISS at all times throughout its lifetime to serve as a 
lifeboat for three people. The U.S. Crew Return Vehicle (CRV) was to 
serve the same function for another four. The Bush Administration had 
terminated the CRV, however. Without it, the only option for augmenting 
lifeboat services is for Russia to provide additional Soyuz spacecraft. 
Each Soyuz can only remain in orbit for 6 months. Today, Russia 
launches two Soyuzes per year. To enable crew size to increase to six, 
it would have to launch four per year. Russian space officials said 
that they could not afford to build and launch the additional Soyuzes, 
and needed to be compensated. NASA, however, is not permitted to pay 
Russia for ISS-related activities unless the President certifies that 
Russia is not proliferating certain technologies to Iran under the Iran 
Nonproliferation Act. \18\ The other partners did not offer to pay for 
the additional Soyuzes, leaving the situation in a stalemate, where it 
remains today.
---------------------------------------------------------------------------
    \18\ The relationship between the ISS and the Iran Nonproliferation 
Act is discussed in CRS Report RS22072.
---------------------------------------------------------------------------
    Debate over the long term plans for the ISS was soon complicated by 
the February 1, 2003 space shuttle Columbia tragedy. The Columbia 
tragedy has affected the space station program in many ways. One 
outcome is that it led to a review of the reasons that the United 
States engages in human space flight at all. That review resulted in an 
announcement by President Bush of a new Vision for Space Exploration on 
January 14, 2004. The President said:

        Today I announce a new plan to explore space and extend a human 
        presence across our solar system. We will begin the effort 
        quickly, using existing programs and personnel. We'll make 
        steady progress--one mission, one voyage, one landing at a 
        time.

        Our first goal is to complete the International Space Station 
        by 2010. We will finish what we have started, we will meet our 
        obligations to our 15 international partners on this project. 
        We will focus our future research aboard the station on the 
        long-term effects of space travel on human biology. The 
        environment of space is hostile to human beings. Radiation and 
        weightlessness pose dangers to human health, and we have much 
        to learn about their long-term effects before human crews can 
        venture through the vast voids of space for months at a time. 
        Research onboard the station and here on Earth will help us 
        better understand and overcome the obstacles that limit 
        exploration. Through these efforts we will develop the skills 
        and techniques necessary to sustain further space exploration.

        To meet this goal, we will return the Space Shuttle to flight 
        as soon as possible, consistent with safety concerns and the 
        recommendations of the Columbia Accident Investigation Board. 
        The Shuttle's chief purpose over the next several years will be 
        to help finish assembly of the International Space Station. In 
        2010, the Space Shuttle--after nearly 30 years of duty--will be 
        retired from service. \19\
---------------------------------------------------------------------------
    \19\ President Announces New Vision for Space Exploration Program. 
Available at: http://www.whitehouse.gov/news/releases/2004/01/20040114-
3.html.

    A NASA budget chart released the same day as the President's speech 
showed NASA completing its use of the space station by FY 2017. Funds 
now devoted to the space shuttle and space station programs could 
thereby be redirected to fulfilling the ``Moon/Mars'' goals enunciated 
in the Vision. So although the Columbia tragedy was a catalyst for a 
new Vision for the human space flight program, if that Vision is 
implemented, it also would spell the end of the space shuttle and ISS 
programs (from a U.S. perspective that is; the other partners might 
continue to use ISS after NASA completes its utilization).
    If the Vision is adopted, the full extent of its impact on U.S. use 
of ISS is not yet clear. What is known is that the scope of research 
would be narrowed to only that which supports the Vision; there would 
be fewer years during which NASA will conduct research; \20\ and the 
shuttle would not be available to support scientific operations by 
taking experiments and equipment up to the ISS (``upmass'') or back to 
Earth (``downmass'') once construction is completed. NASA's ReMaP Task 
Force cited lack of upmass capacity as one of the limiting factors on 
conducting high priority research.
---------------------------------------------------------------------------
    \20\ Space Station Freedom was designed with a 30 year lifetime. 
When the program was redesigned in 1993, NASA shortened the operational 
lifetime of the new station to 10 years (the modules are designed for 
15 years--5 years during assembly, and 10 years of operation). Under 
the Vision, NASA officials say the agency will complete its use of the 
ISS by 2016, six years after construction is completed.
---------------------------------------------------------------------------
    What is not known is details of the new research program and 
therefore what benefits can be expected from it, what the ISS crew size 
will be, whether the centrifuge will be completed, and what 
capabilities may be available from other partners or the U.S. 
commercial sector to take cargo to and from ISS instead of the shuttle.
Conclusion
    The space station was originally presented to Congress as a 
facility that would have eight functions. Within five years, that had 
been reduced to one--a laboratory for world-class research. That 
research program has been affected by reductions in funding (in the 
late 1990s by shifting funds from research into construction, and in 
2001 as part of the cost-cutting in response to cost growth in the 
overall program), and now by the direction of President Bush, narrowing 
the scope to only research that supports the Vision.
    The extent to which space station research will ``rewrite 
textbooks'' as forecast by Mr. Goldin in 1997 remains to be seen.

  Major Program Changes to the U.S. Portion of the International Space
                                Station*
------------------------------------------------------------------------
  Calendar
    Year             Nature of Change                   Reason
------------------------------------------------------------------------
                          Reagan Administration
------------------------------------------------------------------------
Fall 1985-    Original space station concept  Cost and user
 May 1986      envisioned three elements: an   requirements. NASA stated
               occupied base for 8 crew        that the dual-keel design
               members in a 28.5 orbit, an     would provide a better
               automated co-orbiting           microgravity environment
               platform nearby, and an         for scientists, more
               automated ``polar platform''    usable area for attached
               in orbit around Earth's         payloads, and better
               poles. The original reference   pointing accuracy. Cost
               design for the occupied base    estimate maintained at $8
               was called the ``Power          billion ($FY 1984).
               Tower,'' but a ``dual-keel''
               approach was chosen instead
               as the baseline design in the
               fall of 1985; the details
               were approved by NASA in May
               1986. Changes included:
               arrangement of truss
               structure and modules
               modified to place modules at
               center of gravity; solar
               dynamic power added to
               photovoltaic arrays; number
               of U.S. laboratory and
               habitation modules reduced
               from 4 to 2, with plans for 2
               more provided by Europe and
               Japan (the new U.S. modules
               would be larger than the
               original design, however, so
               total habitable volume
               relatively unchanged); U.S.
               Flight Telerobotic Servicer
               added at congressional urging
               to supplement Canada's
               planned Mobile Servicing
               System.
Late 1986     Dual-keel design reaffirmed,    January 1986 space shuttle
               but emphasis on building        Challenger tragedy and
               single-keel first in            concern by astronauts at
               recognition of reduced          Johnson Space Center
               availability of shuttle         about the number of hours
               flights and reduced amount of   of spacewalks, or
               cargo that would be allowed     ``EVAs''; quality and
               aboard the shuttle in the       quantity of living space;
               wake of the Challenger          standard of safety for
               tragedy. Emphasis on early      ``safe havens'' (to which
               accommodation of experiments;   astronauts would retreat
               fewer spacewalks; extended      in emergencies such as
               ``safe haven'' concept with     depressurization or
               the possibility for             dangerous sunspot
               ``lifeboats'' for emergency     activity); lack of
               return to Earth (not made a     ``lifeboats'' for
               requirement at this time        emergency return to Earth
               reportedly for cost reasons);   when the space shuttle
               increased use of automation     was not docked with the
               and robotics; ``lead center''   station. Cost estimate
               management approach replaced    unchanged.
               with dedicated program office
               for the space station in
               Reston, VA.
1987          Program split into ``phase 1''  Rising program costs and
               and ``phase 2,'' with single    expected budget
               keel of occupied base built     constraints. Cost
               in phase 1 and second keel      estimate had risen to
               delayed until phase 2; polar    $14.5 billion ($FY 1984)
               platform part of phase 1; co-   for research and
               orbiting platform and solar     development. New design
               dynamic power pushed into       estimated to cost $12.2
               phase 2.                        billion ($FY 1984) for
                                               Phase 1 and $3.8 billion
                                               ($FY 1984) for Phase 2,
                                               saving money in the near
                                               term, but costing more in
                                               the long term.
------------------------------------------------------------------------
                      George W. Bush Administration
------------------------------------------------------------------------
1989          Phase 2 indefinitely            Cost growth and expected
               postponed; polar platform       budget constraints. NASA
               transferred from space          termed this a
               station program to NASA's       ``rephasing.'' Cost for
               Office of Space Science and     Phase I estimated at $19
               Applications (was for Earth     billion real year
               observation studies). Only      dollars,* or $13 billion
               remaining element is single-    FY 1984 dollars, for R&D;
               keel occupied base, divided     NASA estimated total
               into an initial phase with      program costs through
               reduced capabilities (e.g.      assembly complete at $30
               crew reduced from 8 to 4;       billion real year
               electrical power reduced from   dollars.
               75 kw to 37.5 kw; use of open-
               loop instead of closed-loop
               life support system) and an
               assembly complete phase when
               ``full capabilities'' would
               be restored. NASA asserted
               that the capabilities
               envisioned in the 1987 Phase
               2 program (dual-keel etc.)
               could still ``evolve''
               sometime in the future to
               support expeditions to the
               Moon and Mars.
1990-1991     U.S. modules reduced in size    Beginning in 1990,
               (from 44 feet to 27 feet);      concerns developed over
               ``pre-integrated truss''        rising program costs,
               chosen in effort to reduce      weight, and too many EVAs
               EVA requirements; total         for maintenance. In Dec.
               length reduced (from 493 feet   1990, NASA estimated
               to 353 feet); Flight            program costs through
               Telerobotic Servicer            assembly complete at
               canceled; crew size formally    $38.3 billion real year
               reduced to 4; electrical        dollars. Congress
               power reduced (from 75 kw to    directed NASA to
               56 kw); ``lifeboat'' added to   restructure the station.
               the station's design but not    New plan released in
               included in the cost            March 1991. NASA stated
               estimate; ``assembly            it would cost $30 billion
               complete'' designation          real year dollars through
               abandoned with concept that     1999, though this was no
               station would continually       longer the time when
               evolve in an undefined and      assembly would be
               unbudgeted ``follow-on          completed (see column to
               phase.''                        the left). GAO estimated
                                               total program costs
                                               through 30 years of
                                               operation at $118
                                               billion.
                         Clinton Administration
------------------------------------------------------------------------
1993          Space Station Freedom program   Cost growth and foreign
               terminated. New design          policy considerations.
               developed (initially called     There were two phases of
               Alpha), which NASA said would   space station program
               use 75 percent of Freedom's     changes in 1993. The
               hardware and systems. Russia    first (February-
               added as another                September) was prompted
               international partner in a      by $1.08 billion cost
               second phase of the 1993        overrun (which NASA
               activity. Program renamed       termed ``cost growth'')
               International Space Station     and resulted in a new
               Alpha, and, later, simply       design, tentatively
               International Space Station     called Alpha, involving
               (ISS). Two U.S., 1 European,    the original space
               1 Japanese, and 5 Russian       station partners (U.S.,
               modules (3 for science)         Canada, Europe and
               accommodate crew of 6; Canada   Japan). This design was
               to build Mobile Servicing       released on Sept. 7, but
               System; station located in      5 days earlier, the White
               51.6o orbit (to allow access    House announced plans to
               from Russia); operating         merge the space station
               period shortened from 30 to     program with Russia's
               10 years and annual operating   primarily for foreign
               costs reduced; ``assembly       policy reasons. In
               complete'' designation          November, a new ``Russian
               reinstated (but no ``follow-    Alpha'' design was
               on phase'' or ``evolution''     announced including
               or capabilities envisioned by   Russia as a partner. NASA
               the 1987 Phase 2 plan); space   said with Russian
               station management changed to   involvement, ``Russian
               ``host center'' (later ``lead   Alpha'' would be ready 1
               center'') at Johnson Space      year sooner, cost $2
               Center, TX; Reston, VA office   billion less (a figure
               closed.                         GAO disputes), and have
                                               more scientific utility
                                               than the Sept. 7 Alpha
                                               version. NASA's current
                                               estimate of program costs
                                               for FY 1994-2002
                                               (assembly complete) is
                                               $17.4 billion real year
                                               dollars, not including
                                               launches or civil service
                                               salaries (adding those
                                               costs would raise it to
                                               $47.9 billion, using
                                               average shuttle costs).
                                               Monies spent prior to FY
                                               1993 ($11.4 billion) and
                                               operational costs for 10
                                               years ($13 billion) are
                                               not included. [All
                                               funding figures from
                                               NASA.]
2001-2002     ISS construction to be          Cost growth of $4 billion
               terminated after completion     over estimate made in its
               of ``U.S. Core'' and            FY 2001 budget
               attachment of European and      submission. ISS had been
               Japanese modules.Propulsion     estimated to cost $17.4
               Module canceled. Habitation     billion (real year
               Module and Crew Return          dollars) when it began in
               Vehicle indefinitely deferred   1993 (FY 1994). NASA's
               pending demonstration of        estimate rose to $21.3
               improved program management     billion and then $22.7
               (later canceled). Could mean    billion in 1998, to $23.4-
               that crew size would be         26 billion in 1999, and
               limited to 3 instead of 6 or    to $24.1-26.4 billion in
               7 because only one Russian      2000. NASA's March 2001
               Soyuz (which can accommodate    plan to discontinue
               3) would be available as a      construction after the
               lifeboat. Smaller crew size     ``U.S. Core'' is
               would limit amount of science   completed and attachment
               that could be conducted.        of the European and
               Funding for research program    Japanese module results
               cut $1 billion cut. At          in a cost estimate of $22-
               December 2002 ``Heads of        23 billion and a
               Agency'' meeting, partners      ``completion'' date of
               agree that crew size should     November 2003-October
               be restored to six, but no      2004. Hardware being
               details on how to accomplish    built for NASA by Europe
               it.                             and Japan (Node 3 and
                                               Centrifuge Accommodation
                                               Module, respectively) as
                                               part of barter agreements
                                               could be launched if NASA
                                               has sufficient funding
                                               for integration costs.
2004          Construction of ISS to be       President Bush's
               completed by 2010, and          announcement of the
               shuttle program thereupon to    Vision for Space
               be terminated, so shuttle       Exploration, which
               will not be available during    directs NASA to focus its
               the ISS operational phase to    activities on returning
               rotate crews, bring supplies    humans to the Moon by
               or new equipment and            2020 and someday sending
               experiments, return results     them to Mars and ``worlds
               of experiments, or return       beyond.''
               equipment needing repair.
               U.S. ISS research program to
               be reformulated to support
               only the Vision. If crew size
               is to increase, will be via
               additional Soyuz spacecraft,
               but no details on how to
               accomplish that (NASA
               prohibited from making
               payments to Russia for ISS
               because of the Iran
               Nonproliferation Act). New
               Crew Exploration Vehicle
               (CEV) to be built to take
               crews to the Moon; Earth-
               orbit capability by 2014.
               Between 2010 (when shuttle is
               terminated) and 2014, U.S.
               will rely on Russia for crew
               transport to ISS. NASA to
               rely on other partners, and
               U.S. commercial sector, to
               take cargo to and from ISS
               after shuttle retirement. No
               commitment to use CEV to
               service ISS, although it is
               an option. According to NASA
               budget chart, U S use of ISS
               to end by FY 2017.
------------------------------------------------------------------------
Prepared by CRS, based on information from NASA, historical CRS
  publications, congressional hearings, and articles in the trade press.
According to NASA's budget books (e.g., page SI-6 of the FY 2001 budget
  book), estimates in ``real year dollars,'' reflect current and prior
  year spending unadjusted for inflation, plus future year spending that
  includes a factor accounting for expected inflation.


    The Chairman. Thank you. Dr. Weber.

     STATEMENT OF MARY ELLEN WEBER, Ph.D., VICE PRESIDENT, 
         UNIVERSITY OF TEXAS, SOUTHWEST MEDICAL CENTER

    Dr. Weber. Thank you very much. I had the great privilege 
of being a member of our Nation's Astronaut Corps for 10 years 
and even greater privilege to fly on two Space Shuttle flights, 
the second of which was the third construction flight for the 
Space Station. And although I'm now with Southwestern Medical 
Center, my heart and my passion will always be in space. And 
I'm so thrilled that your Subcommittee is taking up this 
hearing and this topic.
    For thousands of years people have looked up at the heavens 
and tried to imagine what was out there. What could possibly be 
those points of light? And our generations are so incredibly 
fortunate to be the ones alive at what is just a blink of time 
in the history of humankind.
    This is the beginning of the quest to creating a space-
faring civilization. Anything this momentous cannot be 
accomplished in a day or a week or a year or even a decade. 
It's a very long road ahead of us. And we as a country and as a 
society have to be patient.
    Someone recently lamented to me that we really hadn't come 
very far in aviation because 50 years ago it took a few hours 
to fly across the country and now it takes about the same 
amount of time. But what they were ignoring is the fact that we 
have created this enormous, tremendous infrastructure that 
doesn't just move a few hundred people once a day. We move 
millions of people every day. And in fact, we've embraced 
aviation as a part of our society, as part of our economy. And 
this is where we are with the space program as well. We need to 
create an infrastructure to bring space travel to our society 
to make it an integral part of our economy, and to be 
contributing to our economy.
    It's really easy to simply focus on the flashy events; the 
Super Bowl, the World Series and to ignore and diminish the 
smaller events, the regular season games, the daily practice. 
And when we look at space travel, certainly going to other 
planets is the most alluring thing we can do in our quest to 
explore space. But to diminish what we've done with the Space 
Shuttle and the Space Station is a tremendous mistake. These 
programs are giving us this necessary infrastructure for us to 
go on and do the big flashy major events.
    The Space Shuttle for the past two decades has focused on 
the most dangerous and most risky aspect of any space venture; 
that of leaving and returning to a celestial body. It is the 
most risky and the most dangerous because of the irrefutable 
fact that you have to go mind numbingly fast. You have to go 25 
times the speed of sound to get into space.
    For the past two decades we've been learning how to leave 
and return to a planet. About 100 flights. And it may sound 
like a lot, but it is just the first step and we've learned 
with Challenger and Columbia that we have much to learn.
    You heard Mr. Readdy talk about the benefits of the 
International Space Station and the operational experience and 
knowledge that we're gaining. How to operate in weightlessness. 
How can our bodies, bodies that have evolved over millions of 
years, how can they operate in weightlessness? And we're also 
mastering the ground operations of coordinating this colossal 
collaboration between nations across the entire world. And this 
is going to be the same thing we need to do if we ever want to 
go on to the Moon and Mars; such an enormous venture is going 
to require the same kind of collaboration.
    But aside from the operational lessons that we've learned, 
the Shuttle and Station have provided some very important 
opportunities scientifically. We have the chance to probe 
biological and material systems by varying a force that we 
could otherwise not vary. This is information we cannot 
possibly get on the ground. Will all research experiments 
aboard the Space Station make a dramatic impact on our society? 
That's very unlikely. Research--ground-based research--doesn't 
work that way either.
    But for Congress to continue to make an investment in space 
and to get us to the Moon and on to Mars I believe that it's 
essential that we receive an economic return from space 
research. While I was at NASA, I became intensely involved in 
these efforts to attract private sector investment in space 
research. And even on the ground, bridging the gap between the 
laboratory and the marketplace is truly one of the most 
daunting challenges and I think one of the most under-
appreciated challenges. And when you put that laboratory up in 
space it definitely presents some even more formidable hurdles.
    From my experience in working with one particularly 
successful effort with a VC firm--this one resulted in the most 
ever paid to NASA for a single space experiment--I believe that 
there is still some low hanging fruit out there. Good 
opportunities for the private sector to invest. However, in 
order to do this right with all of these hurdles, NASA has to 
be diligent in it's approach to attracting this investment and 
making the business case. NASA must find compelling needs in 
the marketplace. Rather than starting with the phenomenon we 
see in space, we have to start with the needs that the 
marketplace has.
    Only if there is an extremely compelling need will it 
justify the expense and the overhead and the inaccessibility 
right now to space. And even more important than that, NASA 
really must focus on identifying specific sources of revenue 
from these space experiments.
    I have continually heard the phrase, ``Well what we think 
is that that they'll be able to figure out something up on 
space that will help them with the process down on the 
ground.'' And that's not enough. It simply doesn't work that 
way. There needs to be a specific question identified that, if 
answered in that space experiment, will be a source of some 
revenue for that investor.
    And finally, it is NASA's responsibility to identify these 
needs and sources of revenue, not the investors. Now, this may 
seem like a simple concept, but from my experience this would 
actually be a paradigm shift for NASA. Very often and 
historically NASA has put the onus on the investors to come up 
with how they can make money and put the onus on them to pitch 
the idea to NASA. Credible top tier investors simply don't work 
this way.
    What we've seen is that a lot of investors with motives 
other than creating a viable business are the ones that solicit 
NASA. And this is a major hurdle if we truly want to be 
successful at commercializing space experiments and getting 
that private sector investment in.
    Now, I mention that I believe there are a couple of areas 
of low hanging fruit for commercialization. If I--if I have 
time I'd like to just talk about a couple of those areas.
    The Chairman. Very briefly. If you could just give us maybe 
a couple of points and then I wanted to go to Dr. Sutton and 
then do questions and try to bring those out. But I would like 
to know the two points. Thank you.
    Dr. Weber. The NASA bio-Reactor is an area of research in 
which you can grow human tissues outside of the human body. Not 
cells like we did in eighth-grade biology class, but real 
tissues. Tissues with cells that are differentiating, 
functioning like the organs in our body. This is a tremendous 
step forward in trying to understand the cellular sources and 
mechanisms for disease.
    The other area of research is in protein crystal growth. 
The whole idea behind protein crystal growth is not in the 
crystals themselves but in the structures of the proteins that 
you can get from these experiments. Protein structure-based 
drug design is prolific today. This is how we have gotten the 
most exciting, most effective drugs out there including those 
that fight AIDS, the recent drugs that fight flu. But the 
bottom line is not all proteins can be crystallized on the 
ground. And in space we have the opportunity to grow them more 
perfectly and get those structures.
    So, tissue growth and protein structure, I think, are the 
two lowest hanging pieces of fruit. And with that if I could 
just close with this:
    Despite all the tangible benefits from the space program, I 
really think that the most important comes from deep within the 
human spirit. There is no better example of this than what 
happened 2 years ago with Columbia.
    As you might expect, the entire Astronaut Corps was deeply 
moved by these events. We lost colleagues and had our deepest 
fears realized. What was surprising to me was the impact that 
it had on the entire world. The news programs literally shut 
down for anything but this event. I had friends in other 
countries that received condolences simply because they were 
Americans. People wept who never had ever met an astronaut. And 
these were seven lives. Just seven lives. And it's really--the 
people were not weeping for those lives, they were weeping for 
the loss, the potential loss of moving our society forward 
beyond the bounds and into new territory.
    [The prepared statement of Dr. Weber follows:]

    Prepared Statement of Mary Ellen Weber, Ph.D., Vice President, 
             University of Texas, Southwest Medical Center
    For thousands of years people have looked to the heavens trying to 
imagine what could be out there, what could those points of light 
possibly be. We are the generations--those fortunate to be alive at 
this blink of time in the history of the universe--at the dawn of 
humanity's quest to become a space-faring civilization. Momentous 
endeavors such as this cannot be accomplished in day, or a year, or 
even a decade, and yet it is a time when it seems everyone seeks only 
instant gratification.
    Someone recently lamented to me that we really had not come very 
far, since fifty years ago it took several hours to fly across the 
country, and it still does today. However, this is ignoring that an 
enormous infrastructure has been created, that simply flying a few 
hundred people a few thousand miles is an entirely different 
undertaking than moving millions about the globe each and every day. 
Indeed, aviation has progressed from simply a remarkable feat lasting 
mere seconds to become an inextricable part of billions of lives and an 
infrastructure without which our economy simply could not function. 
Likewise, in creating a space-faring civilization, it is not merely the 
one-time feats of venturing into new territory that matter. Creating 
the infrastructure and operations that will enable space to be woven 
into our daily lives is the more difficult--and perhaps more 
important--feat.
    It is easy to only applaud the flashy events, the Super Bowl, 
golf's major tournaments, or the Olympic gymnastics. But to eliminate 
the arduous tedious daily practice, the minor competitions, or the 
daily workouts would eliminate the major events entirely. Similarly, 
creating new space vehicles that will take us once again beyond Earth 
orbit is certainly an alluring attention-getting element of the 
centuries-long quest to become a space-faring civilization. Yet we 
cannot eliminate or diminish the value and benefits of programs such as 
the Space Shuttle or the International Space Station. These programs 
provide necessary elements for success in the major events of human 
planetary exploration. They have been extremely important, both 
necessary to prepare us and the next generations to whom we will pass 
the baton.
    The Shuttle program has focused on the most dangerous, challenging, 
and risky aspects of any space venture--leaving from and returning to a 
celestial body. The challenge, danger and risk arises from the 
irrefutable fact that to go into space, you must go mind-numbingly 
fast, at least 25 times the speed of sound, and then return. The 
required speed alone creates a need for amazing power and technologies 
and for complex operations coordinated around the world. Understanding 
and developing technologies, which will allow us to control complicated 
and delicate operations at these incredible speeds and over vast 
distances, will take decades and perhaps centuries. For two decades, 
with the Shuttle, we have been mastering launch and reentry, learning 
lessons--and learning just how much we have yet to learn--over the 
course of a hundred or so flights. It is only the beginning, a small 
and critical step in the long journey to becoming a space-faring 
civilization.
    Similarly, the International Space Station is allowing us to master 
yet another important aspect of space travel to other heavenly bodies--
long-term, non-stop operations in space. This involves mastering living 
and working in space, including the challenges of performing in 
weightlessness and the debilitation that happens to a body that has 
evolved for millions of years to use the strong force of gravity. It 
also involves mastering long-term, non-stop operations on the ground 
that involve multiple agencies and countries. The importance of this 
cannot be diminished, since undoubtedly, venturing to other planets 
will involve such enormous collaborations. The Station has moved us 
forward lightyears in our ability to operate globally, and to 
understand and withstand long-duration space travel.
    Aside from the operational lessons that we have learned, the 
Shuttle and Station have provided us an unparalleled scientific 
opportunity in research experiments. We have the chance to probe 
biological systems and physical materials by varying a force that we 
could not otherwise vary. Will all research experiments aboard the 
Station make an immediate and dramatic impact? Unlikely. Even ground-
based research does not work that way. But I would like to highlight 
just two types of research done in space that promise great rewards and 
promise to return the investment many times over. Both tie in to the 
next big wave in biomedical research, that of understanding the basis 
for disease both at a cellular and molecular level.
    The first area of research I would like to highlight is growing 
human tissues outside the human body, using the NASA bioreactor. Of 
course for over a hundred years, we have been able to grow cells--we 
all did it back in Petri dishes in eighth grade biology--but cells are 
not the same as tissues. In fact, when a cluster of cells gets large 
enough, they begin to differentiate, to take on different roles in the 
larger organ. Consider a cancer tumor. It has a blood vessel system and 
glandular structures that enable it to secrete chemicals, chemicals 
important for metastasis. In the NASA bioreactor, we have the 
opportunity to grow many types of tissues, outside the human body, on a 
large scale, with cells differentiated, and the Station allows us to do 
it for months on end. This is an unprecedented opportunity to gain 
answers about the cellular basis for diseases affecting every organ of 
the human body. Hundreds of researchers across the country are studying 
many different types of tissue, using a ground-based NASA bioreactor, 
and those that get to fly their experiments in space have an incredible 
opportunity to study the largest, most stress-free, and highest-
fidelity tissues.
    The second area of research is protein crystal growth, and these 
experiments have been flying since almost the beginning of the Shuttle 
program. The end result is not crystals themselves, but structures of 
protein molecules. Proteins are enormous gangly molecules with 
thousands of atoms, and nothing happens in our bodies without proteins 
being involved. Each protein has an active site, a specific place in a 
specific structure that allows it to combine in a specific way with 
other proteins to either make something good or bad happen in our 
bodies. If we knew the complete structure and that active site, it 
would be relatively simply to come up with a chemical to fit within 
that site to prevent something from happening.
    Protein crystals are the way to determine the structure. Imagine 
shining light on a glass prism; from the pattern of colors on the wall, 
we could determine the shape of that prism. For protein crystals, the 
dimensions are much, much smaller, so instead of light, we use x-rays 
to reveal their shape. With either glass prisms or protein crystals, 
any flaws in them will disturb the resulting pattern and prevent the 
true structure from being revealed. This is why growing protein 
crystals in space is so beneficial. The protein crystals are extremely 
delicate, and in the environment of space, they can grow more 
quiescently and more perfectly to reveal more accurate--and in some 
cases, the only available--structures.
    Protein-structure-based drug design is now being done all over the 
world, and it has been the source of some of the most effective drugs 
for some of the most challenging diseases. These include HIV drugs that 
can eliminate the presence of the virus and make possible a relatively 
symptom-free life for many years. Another example is a recently 
introduced prescription flu drug that can make any strain of flu 
possibly a one- or two-day annoyance instead of a serious multi-week, 
sometimes lethal, illness. Hundreds of billions of dollars are lost 
each year in this country due to common but untreatable illnesses, and 
the use of space to discover even one effective drug would return many-
fold the $16 billion we spend each year on the entire space program.
    It is critical to put in perspective the level of this $16 billion 
investment in space exploration and research. In fact, it is 
exceedingly small compared to the other agency budgets that must focus 
on the here and now. For instance, we have spent far more paying 
farmers not to grow crops than we have each year on our entire Shuttle 
program. There are good reasons to provide farm subsidies, and yet 
there are equally compelling reasons to invest even more in space 
research, an activity that has yielded substantial return on investment 
over the past four decades.
    For research in general, either space-based or ground-based, 
finding immediate applications is a challenge that requires patience. 
Yet there is a prevailing demand for instant gratification in our 
society, with Wall Street and corporations responding almost 
exclusively to current quarter earnings. Since I received my Ph.D. in 
1988, virtually all elite corporate basic research centers America have 
vanished--including those at Bell Labs, Exxon, Xerox, and Texas 
Instruments. Instead, research is supported only if it can be tied to 
business units, with researchers having to justify their existence only 
by having a positive impact on profit and loss in the current quarter. 
The most important discoveries in our society would never have been 
made if subjected to such restrictions. Research, like the quest to 
become a space-faring civilization, is a long but critical road. Since 
companies must focus on the here and now, it is the responsibility of 
our government to look to the future, to invest in research and 
activities that will pay dividends in the long run.
    For Congress to continue to make this investment, however, I 
believe that receiving an economic return from it is absolutely vital. 
Therefore, while at NASA, I became intensely involved in efforts to 
attract private sector investment in space research. Commercializing 
research is always a daunting prospect, but space presents some 
additional formidable challenges. In some successful ventures--one 
involving the bioreactor that resulted in the most ever paid to NASA 
for a single experiment--we learned successful private investment is 
possible with the right approaches. I have been asked to comment on 
lessons learned. First, the bridge between the laboratory--space-based 
or otherwise--and the marketplace must be built starting from the 
marketplace. This contrasts markedly with prior NASA efforts, in which 
amazing scientific phenomena observed were the starting point, with 
finding potential links to processes here on Earth second. Second, 
there must be an extremely compelling market need, since only with 
intense need will there be sufficient upside to bear the cost, the 
bureaucratic overhead, and the rare accessibility to space. ``Nice-to-
have'' just is not good enough to warrant the investment. Third, there 
must be a specific source of revenue. The phrase repeated to me over 
and over, ``hopefully they can learn something up there that might be 
applied to a process here on the ground,'' simply does not work. For 
instance, exactly what question, if answered from a space experiment, 
will lead to revenue? What physical lightweight product can be 
produced? Is there a ``gold standard'' that can be identified in space 
that will guide product development on the ground? Fourth, it is NASA's 
responsibility to identify that need and revenue source, not the 
investor's. While this may seem a simple concept, time and again, NASA 
has put the onus on investors to create the value proposition and 
business plan, and market it to NASA. Top-tier credible investors 
simply do not work this way, leading only investors with motives other 
than viable business prospects to solicit NASA.
    Despite all tangible benefits from the space program, I believe the 
most important comes from deep within the human spirit. There is no 
better testament to the importance of this than from the tragedy of 
Columbia, just two years ago. As one might expect, the entire astronaut 
corps and NASA family was deeply affected. It is a small community, and 
not only did we lose colleagues and friends, this loss was a deep and 
pervasive fear realized. What was entirely unexpected however--at least 
for me--was the effect this tragedy had on the world. The entire world 
essentially came to a halt. No other news was covered. People wept, 
people who had never met an astronaut. Friends I had in other countries 
at the time received condolences, simply because they were Americans. I 
received condolences from people I did not know. Columbia captivated 
and moved our entire society. But the reality is that seven lives were 
lost. Seven lives. It happens all the time. People across our Nation 
and around the world did not weep for the loss of seven lives. I 
strongly believe people wept for something far deeper in us all, a deep 
rooted need to progress our civilization, to go beyond our bounds, 
beyond our own lives and the lives of our children. People wept because 
a part of this was lost, and because our whole space endeavors would be 
at risk.
    I have been exceedingly fortunate to have had a small but exciting 
role in our quest to create a space-faring civilization. But we are all 
pioneers, everyone in our country because of the bold commitment that 
we have made to space. For many years I have felt great pride that it 
would be our generations upon which future generations would look with 
envy that we started it all. But we are now at a pivotal point in the 
quest. We are now retiring the Shuttle, and even with the most 
promising budget proposal, there is still insufficient funding to get 
us much beyond test flights with a new vehicle. I greatly fear that 
rather than being the generations to have started it all, we will be 
the generations to bring it to a grinding halt. We simply cannot let 
that happen.

    The Chairman. Thank you, Dr. Weber. Dr. Sutton, I want to 
thank you for being here and I know you have had a loss at 
NSBRI with your CFO Jim Cooper passing away suddenly this week. 
And certainly my sympathies go out to you.

STATEMENT OF JEFFREY P. SUTTON, M.D., Ph.D., DIRECTOR, NATIONAL 
          SPACE BIOMEDICAL RESEARCH INSTITUTE (NSBRI)

    Dr. Sutton. Madam Chairman, thank you very much for your 
condolences. And distinguishing Ranking Member thank you for 
the wonderful opportunity to come here today and present my 
testimony.
    I have the privilege to serve as the Director of the 
National Space Biomedical Research Institute, or NSBRI. NSBRI 
is a non-profit organization that engages outstanding 
scientists, engineers, and physicians from approximately 70 
leading institutions across the country to work on focused 
integrated teams that develop ways to decrease biomedical risks 
associated with long-duration space missions. We're 
headquartered in Houston and we work closely with NASA in our 
science, technology, and education programs.
    Many view the ISS as the most sophisticated engineering 
structure ever constructed in the history of humankind. It 
provides a unique precious resource for the United States to 
develop innovative technologies, knowledge and infrastructures 
to support U.S. space exploration goals. It's an invaluable 
test bed for exploration in science.
    The NASA Administrator has affirmed that the completion of 
the ISS is a priority, in a matter consistent with commitments 
to our international partners and the needs of human 
exploration. And as you know this view is consistent with the 
President's Vision for Space Exploration. And in the Vision, 
one of the three main items listed for the ISS places emphasis 
on understanding how the space environment affects astronaut 
health and capabilities and developing countermeasures.
    In the wake of events following the tragic loss of Columbia 
and her valiant crew, progress and discovery concerning crew 
health aboard the ISS continues. As we heard from the previous 
panel, experience is being gained on the reliability of 
critical hardware systems including life support. There's 
increased emphasis on autonomy, on performing in-flight 
maintenance rather than replacing parts from the ground. And 
the innovation continues to have a strong presence as 
illustrated by the recently published first scientific report 
ever submitted from space involving the testing and evaluation 
of ultrasound as an exploration medical capability.
    Now with a shift in emphasis of the human space program 
from low-Earth orbit to destinations beyond, new priorities and 
exciting mission possibilities arise. In my view, it's 
imperative in developing a balanced over-all program of 
science, exploration and aeronautics to capitalize on the 
unique test platform of and the Nation's investment in the ISS.
    The strategic planning process for ISS should integrate 
with plans for other systems such as transportation. Strategic 
goals should take into account the continuity of scientific and 
technological development of deliverables currently in the 
pipeline. Some of these products have long lead times toward 
maturation and operational integration to satisfy standards and 
requirements. ISS provides a critical resource to help define 
requirements for exploration needs and for on orbit check-out 
of select technologies and requisite interfacing with the human 
system.
    Human flight testing may be required for many months or 
even years given current design reference missions to Mars 
which potentially expose humans to micro-gravity for periods 
well in excess of current ISS mission durations. The ISS is a 
critical training and educational platform for crew to 
familiarize themselves with the space environment and 
operational demands for extended periods of time.
    It's worth noting that not all highly meritorious research 
and development for human exploration requires ISS resources. 
It will, therefore, be a challenging yet necessary task to 
prioritize projects. What do we need to do that could only be 
done on the ISS? What is feasible? What is the cost of not 
pursuing certain ISS scientific inquiries given the 
opportunity? And what are the benefits to Earth?
    As my colleagues have mentioned the path toward exploration 
class human space missions captures the imagination, it adds to 
the marvelous recent successes of NASA's robotics program, and 
it inspires the next generation. Fostering a broad interest in 
science and engineering is essential to our national mission 
and wellbeing. And a strong future workforce in technology 
helps fuel our economy. There are several management models 
which may increase private sector involvement in the ISS. Some 
details concerning involvement in the human health and 
biomedical sector are included in my written testimony.
    In closing, it's recognized that difficult decisions must 
be made to enable a bold, sustainable and affordable space 
program. ISS presents an unprecedented opportunity to bring to 
light innovative discoveries that advance our Nation and 
civilization. Thank you.
    [The prepared statement of Dr. Sutton follows:]

    Prepared Statement of Jeffrey P. Sutton, M.D., Ph.D., Director, 
          National Space Biomedical Research institute (NSBRI)
    Madam Chairman, Ranking Member and distinguished Members of the 
Subcommittee:
    Thank you for the opportunity to present testimony on the benefits 
of human spaceflight as it relates to the International Space Station 
(ISS) and beyond. As Director of the National Space Biomedical Research 
Institute (NSBRI), my statement addresses each of the topics outlined 
for this hearing. These are (1) benefits of human spaceflight in the 
context of ISS development and current ISS operations, (2) future 
opportunities using the ISS for operations, engineering, commercial and 
scientific research and applications that support exploration and other 
national missions, and (3) possible management transition opportunities 
that increase private sector involvement in the ISS. The issues are 
complex, but important, as NASA moves forward under the leadership of 
its new Administrator, Dr. Michael Griffin.
Benefits of Human Spaceflight in the Context of ISS Development and 
        Current ISS Operations
    The ISS is the most sophisticated engineering structure ever 
constructed in the history of humankind. It provides a unique, precious 
resource for the U.S. and its international partners to develop 
innovative technologies, knowledge and infrastructures to support U.S. 
space exploration goals. The ISS has now been continuously crewed for 
more than four years, and it is an invaluable test bed for exploration.
    The NASA Administrator has outlined the need for an exciting, 
outward-focused, destination-oriented space program, which includes 
both human and robotic exploration and aeronautics. Dr. Griffin has 
also affirmed that the completion of the ISS, in a manner consistent 
with commitments of international partners and the needs of human 
exploration, is a priority. This view is consistent with the 
President's Vision for Space Exploration, articulated on January 14, 
2004. One of the three main activities listed for the ISS in low-Earth 
orbit is to focus U.S. research and use of the ISS on supporting space 
exploration goals, with emphasis on understanding how the space 
environment affects astronaut health and capabilities, and developing 
countermeasures. \1\
---------------------------------------------------------------------------
    \1\ The other two activities listed for the ISS in low-Earth orbit 
are: (1) complete assembly of the ISS, including the U.S. components 
that support U.S. space exploration goals and those provided by foreign 
partners, planned for the end of this decade and (2) conduct ISS 
activities in a manner consistent with U.S. obligations contained in 
the agreements between the U.S. and other partners in the ISS.
---------------------------------------------------------------------------
    While the extent of scientific research and development being 
performed on ISS is limited in the wake of events following the tragic 
loss of Columbia and her valiant crew, important progress and discovery 
are nevertheless taking place. Experience is being gained on the 
reliability of critical hardware systems, including life support. There 
is increased emphasis on autonomy and performing maintenance inflight 
rather than replacing parts from the ground.
    Innovation continues to have a strong presence, as illustrated by 
the recently published, first scientific report ever submitted from 
space, involving the testing and evaluation of ultrasound as an 
exploration medical capability. \2\ The study was made possible by the 
unique, long-duration exposure to microgravity afforded crew members 
aboard the ISS.
---------------------------------------------------------------------------
    \2\ Radiology 2005; 234(2):319-322. The study involved a 
collaboration between the ISS increment 9 crew, academia (MI) and 
industry (TX). The results have implications for assessing 
physiological adaptation to long-duration microgravity exposure and for 
remote medical imaging by non-medical personnel in harsh environments, 
including space and war zones.
---------------------------------------------------------------------------
Future Opportunities Using the ISS for Operations, Engineering, 
        Commercial and Scientific Research and Applications That 
        Support 
        Exploration and Other National Missions
    With a shift in emphasis of the human space program from low-Earth 
orbit to destinations beyond, new priorities and exciting mission 
possibilities arise. It is imperative in developing a balanced, overall 
program of science, exploration and aeronautics to capitalize on the 
unique test platform of, and Nation's investment in, the ISS.
    The strategic planning process for ISS should integrate with plans 
for other systems, such as transportation, wherein the Shuttle retires 
and the Crew Exploration Vehicle (CEV) seamlessly comes into service. 
Strategic goals should also take into account continuity of scientific 
and technological product development for deliverables currently in the 
pipeline and which are, or can be, targeted at meeting specific 
exploration requirements. Some of these products, such as 
countermeasures which mitigate biomedical risks, have long lead times 
toward maturation and operational integration to satisfy medical 
standards and requirements. \3\ ISS also provides a critical resource 
to define requirements for exploration needs and for on-orbit check-out 
of select technologies for the CEV and requisite interfacing with the 
human system.
---------------------------------------------------------------------------
    \3\ A NSBRI bedrest study in spinal cord injury patients has 
demonstrated the effectiveness of a single infusion of a bisphosphonate 
medication to inhibit bone loss for a one-year period (MD). The 
countermeasure requires further evaluation but is promising to 
counteract bone loss on exploration missions, as well as having 
potential benefit for the bone loss and fracture risk of persons 
immobilized by spinal cord or brain injury, stroke, or neuromuscular or 
developmental disorders.
---------------------------------------------------------------------------
    Human flight testing may be required for many months, or even 
years, given current design reference missions to Mars which 
potentially expose humans to microgravity for periods well in excess of 
current ISS mission durations. Thus, to adequately test systems and 
reduce risk of failures, there may well be a need to maintain the ISS, 
perhaps with commercial and increased partner support, beyond those 
times currently being proposed.
    Not all highly meritorious scientific research and development, 
engineering and operational systems for human exploration require ISS 
resources. \4\ It will be a challenging yet necessary task to 
prioritize the advanced space technologies, capabilities and knowledge 
requiring the ISS as a test bed for exploration. What do we need to do 
that can only be done on the ISS? What is feasible, given cost, 
schedule and task? What is the cost of not pursuing certain ISS 
scientific inquiries given the opportunity? What are the benefits to 
life on Earth from enabling technologies developed for exploration and 
validated aboard ISS?
---------------------------------------------------------------------------
    \4\ For example, a rugged, portable, lightweight radiation 
detection instrument is under development by NSBRI/NASA and the United 
States Naval Academy (MD) to enable real-time measurement of radiation 
risk in space and estimate risk of damage to body tissue. A preliminary 
version is scheduled to launch September 2006 on a MidSTAR-I 
spacecraft. The instrument is applicable on Earth for homeland 
security, jobs with high potential for radiation exposure and 
monitoring radiation as part of cancer radiotherapy. A post-doctoral 
student at Memorial Sloan-Kettering Cancer Center (NY) is working on 
the cancer application.
---------------------------------------------------------------------------
    The ISS is a training and educational platform for crew to 
familiarize themselves with the space environment and operational 
demands for extended periods of time. The path toward exploration class 
human space missions is invigorating and captures the imagination. It 
adds to the marvelous recent successes of NASA's robotics program, and 
if properly executed with integration of the unique capabilities of the 
ISS, can further inspire the next generation of space scientists, 
engineers and explorers. Fostering a broad interest in science and 
engineering is essential to our national mission and well-being, and a 
strong future workforce in technology helps fuel our economy. \5\
---------------------------------------------------------------------------
    \5\ Between 1998 and 2002, the number of science and engineering 
doctoral degrees awarded to U.S. citizens at U.S. institutions fell 
11.9 percent to 14,313, according to the Commission on Professionals in 
Science and Technology, a nonprofit research group.
---------------------------------------------------------------------------
Possible Management Transition Opportunities That Increase Private 
        Sector Involvement in the ISS
    There are several management models which may increase private 
sector involvement in the ISS, such as the proposed ISS Research 
Institute considered by NASA approximately two years ago. With 
increased emphasis for exploration on focused, prioritized 
requirements, corporate participation, development of new capabilities 
in stages, and management rigor, it is timely that a discussion of 
management transition opportunities occur now. Given the integrated 
nature of ISS and exploration, any business model for private sector 
involvement for BS should link to plans for exploration. Key sectors 
include, but are not limited to, aerospace transport, advanced 
propulsion, power generation and energy storage, automation and 
robotics, and materials.
    The following comments pertain to a management opportunity for ISS 
biomedical research and countermeasures for human exploration. In 1997, 
NASA awarded a competitive cooperative agreement to the National Space 
Biomedical Research Institute to ``lead a national effort for 
accomplishing the integrated, critical path, biomedical research 
necessary to support long-term human presence, development, and 
exploration of space and to enhance life on Earth by applying the 
resultant advances in human knowledge and technology acquired through 
living and working in space.'' \6\ The NSBRI is a private, non-profit 
organization that engages scientists and engineers from approximately 
70 universities across the country to work on teams to develop 
countermeasures to health-related problems and physical and 
psychological challenges men and women face on long-duration space 
flights. The product-oriented approach to research and development, 
which is primarily ground-based, is leading to a number of 
operationally relevant countermeasures now ready for testing and 
evaluation aboard the ISS. A number of projects have industry partners. 
The Institute works with an Industry Forum and User Panel, and there is 
strong program oversight and management rigor, to maximize the 
likelihood of success and return on investment.
---------------------------------------------------------------------------
    \6\ NASA Cooperative Agreement Notice 9-CAN-96-01.
---------------------------------------------------------------------------
    NSBRI engages NASA and other stakeholders throughout the 
countermeasure development process. This ensures requirements are in 
place and met, and that the highest priorities of risk are addressed 
and reduced. Projects are openly solicited and competitively awarded. 
There is synergy among science and technology projects, as well as 
integration with an educational program that spans from kindergarten to 
undergraduate and graduate levels, to post-doctoral training. The NSBRI 
is productive, cost-effective, scalable and provides NASA with an 
opportunity to partner with non-government entities to utilize ISS for 
exploration goals and provide maximum return on valuable resources 
invested.
    In closing, it is recognized that difficult decisions must be made 
to enable a bold, sustained and affordable space program. ISS presents 
an unprecedented opportunity to test and validate critical technologies 
for human exploration and to bring to light the innovative discoveries 
that advance our Nation and civilization.
      National Space Biomedical Research Institute Select Program 
                   Accomplishments/Earth Implications
Background
    The National Space Biomedical Research Institute (NSBRI), funded by 
NASA, leads a research program to develop countermeasures, or 
solutions, to the health-related problems and physical and 
psychological challenges men and women face on long-duration 
spaceflights. The research results and medical technologies developed 
have impact for similar conditions experienced on Earth, such as 
osteoporosis, muscle wasting, shift-related sleep disturbances, balance 
disorders, and cardiovascular and immune system problems.
Select Program Highlights
Needle-Free Blood and Tissue Measurement Sensor Progresses to NASA 
        Evaluation
    This patented NSBRI device allows accurate, noninvasive blood and 
tissue measurements not impacted by body fat or skin color. An 
extension of this work, in collaboration with NASA Johnson Space 
Center, will adapt the sensor for monitoring in-flight functional 
changes during exercise and assessing injury. This type of lightweight, 
portable device will be of use in ambulances, .intensive care units and 
on the battlefield. Another Earth benefit is its ability to detect, 
without a needle, reduced blood flow in diabetics. (Massachusetts and 
Texas)
Blue Light: Potential Use for Sleep and Circadian Rhythm Disruptions
    NSBRI researchers have discovered that certain wavelengths in the 
blue portion of the visible spectrum alter melatonin production, 
thereby affecting the human circadian pacemaker. ``Blue light'' lamps 
are predicted to be more effective for regulating circadian rhythm than 
those currently used pre-launch and represent a potential in-flight 
countermeasure for adaptation to shifts in sleep cycle required by 
astronauts during spaceflight. NSBRI is working with an industry 
partner to study further the use of blue light. On Earth, lighting 
countermeasures developed for spaceflight can be modified for 
therapeutic or architectural applications and to facilitate adaptation 
to shift work. (Pennsylvania and Massachusetts)
Ultrasound Training for Non-Physicians
    Diagnosing and managing acute health problems is challenging in 
space and on Earth. An NSBRI project in collaboration with NASA Johnson 
Space Center is evaluating the use of ultrasound for medical 
applications during spaceflight. The work has produced successful 
training sessions and interactive DVD refresher modules so that non-
physician astronauts can successfully use ultrasound in remote medical 
needs for diagnosis of problems. On Earth, this training system could 
be used for remote-guided medical evaluation under isolated conditions. 
(Michigan and Texas)
Drug Advances in Evaluation as Countermeasure
    NSBRI investigators demonstrated in ground-based simulation studies 
that the drug midodrine appears to be a promising agent for post-flight 
orthostatic hypotension (a drop in blood pressure causing light-
headedness and fainting upon standing). A significant number of 
astronauts experience this condition upon return to gravity. This study 
is now approved for flight investigation. (Massachusetts and Texas)
Zoledronate: Possible Solution for Bone Loss in Space
    In studies of spinal cord injury patients, NSBRI researchers 
demonstrated the effectiveness of a single, 15-minute IV dose of 
zoledronate in decreasing bone loss over a one-year period. These 
researchers are collaborating with NASA scientists and flight surgeons 
to further evaluate and validate the drug as a countermeasure for bone 
loss on long-duration missions, as well as in individuals subjected to 
long periods of bed rest. (Maryland and Texas)
Ultrasound Surgery--No Scalpels or Stitches
    This NSBRI project on high-intensity, focused ultrasound, known as 
HIFU, demonstrates the usefulness of this technique to control 
bleeding, destroy unwanted tissue or tumors, and dissolve kidney stones 
with pinpoint accuracy. Treatment does not affect surrounding tissue 
and could one day allow bloodless surgery in space, emergency rooms and 
on the battlefield. (Washington)
Protein Linked to Muscle Loss
    The way in which muscles atrophy during weightlessness in space has 
similarity with muscle wasting in diseases such as cancer, AIDS and 
diabetes. NSBRI-funded investigators identified atrogin-1, a muscle-
specific protein whose levels go up during muscle atrophy. Recently, 
studies by this group have narrowed in on the molecular regulator of 
atrogin-1, a family of proteins called FOXO, thereby making this 
protein family a potential target for therapeutic approaches to combat 
muscle loss. (Massachusetts)
      Evaluation of Shoulder Integrity in Space: First Report of 
       Musculoskeletal US on the International Space Station \1\
---------------------------------------------------------------------------
    \1\ From the National Aeronautics and Space Administration, Johnson 
Space Center, Houston, Tex (E.M.F., G.P.); Texas Diagnostic Imaging, 
Dallas, Tex (D.L.); Departments of Radiology (M.v.H.) and Surgery 
(K.M., S.A.D.), Henry Ford Hospital, 2799 W Grand Blvd, Detroit, MI 
48202; and Wyle Laboratories, Houston, Tex (A.E.S., D.R.H., D.M., 
S.L.M.). Received September 30, 2004; revision requested October 12; 
revision received October 14; accepted October 15. Supported by NASA 
Flight Grant NNJ04HB07A and the National Space Biomedical Research 
Institute Grant SMS00301.
---------------------------------------------------------------------------

  By E. Michael Fincke, M.S., Gennady Padalka, M.S., Doohi Lee, M.D., 
    Marnix van Holsbeeck, M.D., Ashot E. Sargsyan, M.D., Douglas R. 
Hamilton, M.D., Ph.D, David Martin, RDMS, Shannon L. Melton, BS, Kellie 
            McFarlin, M.D. and Scott A. Dulchavsky, MD, Ph.D

    Investigative procedures were approved by Henry Ford Human 
Investigation Committee and NASA Johnson Space Center Committee for 
Protection of Human Subjects. Informed consent was obtained. Authors 
evaluated ability of nonphysician crewmember to obtain diagnostic-
quality musculoskeletal ultrasonographic (US) data of the shoulder by 
following a just-in-time training algorithm and using real-time remote 
guidance aboard the International Space Station (ISS). ISS Expedition-9 
crewmembers attended a 2.5-hour didactic and hands-on US training 
session 4 months before launch. Aboard the ISS, they completed a 1-hour 
computer-based Onboard Proficiency Enhancement program 7 days before 
examination. Crewmembers did not receive specific training in shoulder 
anatomy or shoulder US techniques. Evaluation of astronaut shoulder 
integrity was done by using a Human Research Facility US system. Crew 
used special positioning techniques for subject and operator to 
facilitate US in microgravity environment. Common anatomic reference 
points aided initial probe placement. Real-time US video of shoulder 
was transmitted to remote experienced sonologists in Telescience Center 
at Johnson Space Center. Probe manipulation and equipment adjustments 
were guided with verbal commands from remote sonologists to astronaut 
operators to complete rotator cuff evaluation. Comprehensive US of 
crewmember's shoulder included transverse and longitudinal images of 
biceps and supraspinatus tendons and articular cartilage surface. Total 
examination time required to guide astronaut operator to acquire 
necessary images was approximately 15 minutes. Multiple arm and probe 
positions were used to acquire dynamic video images that were of 
excellent quality to allow evaluation of shoulder integrity. 
Postsession download and analysis of high-fidelity US images collected 
onboard demonstrated additional anatomic detail that could be used to 
exclude subtle injury. Musculoskeletal US can be performed in space by 
minimally trained operators by using remote guidance. This technique 
can be used to evaluate shoulder integrity in symptomatic crewmembers 
after strenuous extravehicular activities or to monitor microgravity-
associated changes in musculoskeletal anatomy. Just-in-time training, 
combined with remote experienced physician guidance, may provide a 
useful approach to complex medical tasks performed by nonexperienced 
personnel in a variety of remote settings, including current and future 
space programs.

        Supplemental material: radiology.rsnajnls.org/cgi/content/full/
        2342041680/DC1

    Medical care capabilities for the International Space Station (ISS) 
and future exploration space missions are currently being defined 
(1,2). Although rigorous astronaut selection procedures reduce the 
chance of chronic health problems, acute conditions can occur during 
spaceflight (3,4). The probability of a crewmember developing a medical 
condition that may affect their performance or require care may be 
increased during long-duration or exploration missions.
    Some alterations in musculoskeletal integrity take place during 
prolonged exposure to microgravity, despite the generally successful 
exercise countermeasures (5). Insidious reduction in bone, muscle, and 
tendon mass that has been observed during spaceflight may heighten the 
risk of musculoskeletal injury. In addition, strenuous physical work 
during spacewalks, combined with upper body and arm motion constrained 
by the current spacesuits, further raises the likelihood of shoulder 
injury.
    The assessment of musculoskeletal integrity is difficult in space 
because of limited medical training of the crew and a lack of 
radiographic and magnetic resonance imaging capabilities on either the 
transport vehicles or the ISS (6,7). However, a multipurpose diagnostic 
ultrasonographic (US) system is available within the Human Research 
Facility (HRF) of the ISS. We evaluated the ability of a nonphysician 
astronaut operator to perform shoulder US by using remote guidance 
techniques. This report documents the first shoulder US examination 
ever performed in microgravity of spaceflight.
Astronaut Training
    The ability of two nonphysician astronaut crewmembers to perform 
shoulder musculoskeletal US was evaluated in the HRF of the ISS during 
ISS Expedition 9. The investigative procedures were approved by the 
Henry Ford Human Investigation Committee and the NASA Johnson Space 
Center Committee for the Protection of Human Subjects. Both crewmembers 
received briefings and acknowledged their informed consent before the 
mission, as did other human participants.
    Astronaut crewmembers attended a 2.5-hour US familiarization 
session approximately 4 months before this evaluation to include a 
brief didactic presentation on the basics of US examination and the 
experiment-specific principles of remote guidance. The crewmembers also 
participated in a hands-on US session in the Payload Development 
Laboratory at the Johnson Space Center, Houston, Tex, where they 
performed abdominal and musculoskeletal US on a human subject via 
remote guidance from an experienced sonologist (A.S. and D.L., with 15 
and 10 years of experience in musculoskeletal US, respectively). The 
hands-on sessions were designed to closely simulate in-orbit 
experiments. Real-time US images were transmitted to the remote 
sonologist, who guided the astronauts through the necessary 
positioning, probe placement and manipulation, and equipment 
adjustments to obtain optimal images. Identical remote-guidance ``cue 
cards'' were available to the guiding experienced sonologist on the 
ground and the operator onboard. The cards included keyboard prompts, 
anatomic reference points, and other essential information to increase 
remote guidance efficiency.
Imaging, Evaluation, and Communication
    The ground and in-flight US examinations were both performed with 
flight-modified HDI-5000 US systems (ATL; Philips Medical Systems, 
Bothell, Wash) by using high-frequency (5-12 MHz) linear probes. Images 
were viewed by the operator on a flat-panel monitor and were 
transmitted simultaneously to remote US-guidance sonologists (A.S., 
D.L.) via local circuits (ground familiarization session) or through 
satellite broadband transmission (flight session). Flight 
communications include a 1.6-second transmission delay due to distance, 
data relaying, and conversions. Still and video cameras in the U.S. 
Laboratory module automatically recorded the US session, but recorded 
images and video were downloaded to the experiment team only after 
completion of the experiment.
    The astronauts were asked to develop specific restraining 
techniques for both the subject and the operator, which would allow 
access to the upper arm and shoulder area, provide stability for the 
examination, allow unrestricted use of the keyboard, and help avoid 
operator hand fatigue.
    The astronaut US operator completed a 1-hour computer-based US 
``refresher'' course by using the Onboard Proficiency Enhancement (OPE) 
compact disk developed by the evaluation team 1 week before the US 
session. Information regarding OPE navigation, time on task, and query 
responses was stored on the ISS computer and was downlinked to the 
evaluation team before the US session to allow the team to refine the 
procedure or highlight certain procedural components to facilitate the 
upcoming US evaluations.
    The US session was completed during scheduled Ku-band (video) and 
S-band (voice) communications. Dynamic US video was routed through the 
ISS communications system to the Telescience Center at the Johnson 
Space Center, where the ground-based experienced sonologist viewed the 
video output from the US machine with near real-time (1.6-second delay) 
conditions. Two-way audio communication with the US operator was used 
to guide US probe placement and adjust US device settings.
    A full unilateral shoulder musculoskeletal examination was 
conducted, which included transverse and longitudinal views of the 
biceps and supraspinatus tendons and the articular cartilage surface. 
The examination was initiated with the probe positioned at the distal 
end of the clavicle in a longitudinal attitude. The probe was 
``steered'' with remote experienced sonologist voice commands to 
achieve the desired images. After acquisition of the four views of the 
shoulder area, the subject and operator aboard the ISS switched roles, 
and the examination was repeated.
    Examination completeness was evaluated initially by the ground-
based experienced musculoskeletal sonologist by viewing the real-time 
downlinked US video stream. Full-resolution US frames were saved during 
the examination and were downlinked to the Telescience Center at a 
later time. These images were subsequently reviewed by an outside 
musculoskeletal US specialist (M.v.H.) to verify the diagnostic quality 
of the examination and the ability to exclude injury on the resultant 
images.
Findings
    The astronaut crewmembers used foot restraints and hand pressure to 
maintain positioning and freedom of movement in the microgravity 
environment (Fig 1). This positioning technique allowed the subject to 
help with keyboard adjustments and provided rapid switching of the 
subject and operator when the examination was complete (Movie 1, 
radiology.rsnajnls.org/cgi/content/full/2342041680/DC1). No hand 
fatigue was reported, which had been noted by previous crewmembers who 
performed abdominal, cardiac, and thoracic US on the ISS, most likely 
as a result of the additional effort required when restraint is not 
optimal. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Figure 1. Cabin view obtained with a still camera of the HRF on 
        the ISS. Commander Gennady Palalka performs a musculoskeletal 
        US examination on Mike Fincke by using an HRF US unit (blue 
        flat-screen monitor and keyboard).

    Remotely guided shoulder musculoskeletal US examinations were 
completed by the two nonphysician astronaut operators in less than 15 
minutes each (Movie 2, radiology.rsnajnls.org/cgi/content/full/
2342041680/DC1 ). The downlinked real-time US video stream provided 
good-quality images of all of the areas of the shoulder that could be 
used to exclude substantial rotator cuff abnormalities (Movie 3, 
radiology.rsnajnls.org/cgi/content/full/2342041680/DC1 ). Full-
resolution US frames, which were reviewed after the US session by the 
team, provided excellent-quality detail of all of the shoulder views 
(Figs 2-5). The still US images could be used to exclude subtle 
shoulder injury. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Figure 2. Full-resolution US images of the shoulder were 
        downlinked from the ISS to mission control after the US 
        examination. This image demonstrates a longitudinal view of the 
        biceps tendon. The proximal intracapsular end of the long 
        biceps tendon (T) is displayed on the observer's left. Within 
        the normal tendon, a distinct fibrillar pattern is noted 
        (arrow). D = deltoid muscle.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        Figure 3. On this transverse view of the extracapsular biceps, 
        the echogenic round shape of the tendon (arrow) is recognized 
        between the lesser tuberosity (e) and the greater tuberosity 
        (G). D = deltoid muscle.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        Figure 4. With the transducer placed over the long axis of the 
        deltoid muscle (D), note the longitudinal striations (upper 
        arrows) of the fibrofatty septa in between the muscle bundles. 
        Supraspinatus tendon (S) is displayed in its long axis deep to 
        the deltoid. The tendon rests on the bright echogenic surface 
        of the proximal humerus. The humeral head shows on the medial 
        aspect (observer's right) and the greater tuberosity more 
        laterally. The anatomic neck is recognized on the groove (lower 
        arrow) between these bone surfaces.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        Figure 5. With the transducer turned perpendicular to the 
        position in Figure 4, the examination of the supraspinatus (S) 
        is completed with transverse views of the cuff. The deltoid 
        muscle (D) is separated from the supraspinatus by alternating 
        hypo- and hyperechoic lines, representing bursa and peribursal 
        fat. The echogenic supraspinatus rests on hypoechoic hyaline 
        cartilage over the echogenic humeral head surface (c).

Discussion
    The ability to provide medical care aboard a spacecraft is 
challenging because of limitations in crew medical training, medical 
equipment, and environmental constraints in microgravity (1-5). The 
crews of the ISS receive training in a wide variety of tasks, ranging 
from maintaining spacecraft systems to conducting research to 
performing emergency medical procedures. A crew medical officer, who is 
generally not a physician, receives approximately 40 hours of 
additional training in medical diagnosis and therapeutics. Therefore, 
accurate communication during an illness or trauma is critical, 
particularly if real-time imaging is to be employed.
    US is currently used in many trauma centers to diagnose abdominal 
injury (8,9). The technique has been shown to be accurate and sensitive 
in the identification of intraabdominal hemorrhage, even when performed 
by nonradiologists or nonphysicians (10). NASA investigators have 
similarly demonstrated that US can be used by nonphysicians to diagnose 
thoracic injury or bone fracture. The performance of US examinations 
and interpretation of images for the detection of abdominal bleeding or 
long-bone fracture do not require extensive training. Conversely, 
musculoskeletal US is substantially more complex and requires 
specialized expertise during both data acquisition and image 
interpretation.
    Basic ultrasonic imaging has been completed on both U.S. and 
Russian spacecraft (5,11,12). NASA investigators have demonstrated a 
wide array of diagnostic US applications in microgravity experiments on 
animal models and human volunteers during parabolic flight on KC-135 
aircraft. Results of these investigations suggest that the sensitivity 
and specificity of these US applications are not degraded in 
microgravity and may even be enhanced in certain circumstances. More 
comprehensive US examinations (e.g., abdominal, musculoskeletal, and 
cardiac) require considerably more operator experience to perform and 
interpret autonomously. Since extensive US training with frequent 
refresher practice is not feasible in many situations, including remote 
medicine or the space program, alternative paradigms of US examination 
are required for this application.
    Remote US guidance by experienced sonologists virtually couples a 
modestly trained US operator with a remote sonologist. The US operator 
is trained in basic US operation and gross requirements of the US 
examination. The operator places the US probe in a predetermined and 
familiar starting point (aided by topologic reference cue cards), and 
the video stream from the US device is split between the on-site 
monitor and a remote location, where it is viewed by the experienced 
sonologist. Optimal probe position and device settings are guided with 
voice commands from the remote sonologist to obtain the necessary US 
images.
    The remote guidance paradigm substantially reduces initial and 
refresher operator training requirements and allows experienced 
sonologist input during the conduct of the examination. We combined 
remote guidance with a focused review of complex US to complete the 
shoulder musculoskeletal examinations. The unique software used for OPE 
evaluation in this project streamlined equipment setup and subject and 
operator positioning and facilitated the successful completion of the 
complex US tasks by means of remote guidance. This ``just-in-time'' 
training approach allowed preflight and in-flight training time to be 
reduced substantially. The OPE program was constructed in modules that 
allow future HRF refinements or equipment alterations to be modified 
electronically as required. The program also can be used as a framework 
for other complex tasks that require focused skills or complex 
instructions. The self-reporting feature of the program allowed the 
experienced sonologists on the ground to assess operator familiarity 
with the procedures to better prepare for and conduct the session.
    The evaluation of shoulder integrity with the use of US is the 
standard of care at many institutions and is used by professional 
athletic teams to evaluate injuries to athletes. Astronaut crewmembers 
may be at risk of shoulder injury during long-duration spaceflight 
because of decreases in muscle and tendon mass and exertion during 
space walks. The extravehicular activity suits that are worn constrain 
upper body and arm movement. Construction requirements on the ISS and 
future exploratory missions involving extravehicular activities can 
increase strain on the shoulder joint. A reliable method for evaluation 
of shoulder integrity during long-duration space missions would 
increase medical care capabilities for this operationally relevant 
concern.
    Shoulder musculoskeletal US was performed rapidly and accurately by 
the two astronaut crewmembers aboard the ISS. The average time to 
perform the examination was less than 15 minutes. The conduct of the 
examination was not appreciably different than similar examinations in 
a terrestrial environment and was aided by innovative restraint 
techniques developed by the crewmembers (Movie 4, 
radiology.rsnajnls.org/cgi/content/full/2342041680/DC1 ). The quality 
of the near real-time US video transmitted to the Telescience Center 
was very good and could be used to exclude substantial shoulder 
musculoskeletal injury. Still US images were obtained during the 
examination and were downlinked to the team afterward. These high-
fidelity images were of excellent diagnostic quality and could be used 
to exclude subtle changes in shoulder integrity.
    The ability of the ISS crew to perform complex US tasks aboard the 
ISS supports the hypothesis that a nonphysician crewmember with modest 
training in US can perform high-fidelity diagnostic-quality 
examinations when directed by a ground-based experienced sonologist. 
The images acquired by the astronaut in this study were of excellent 
content and quality, and in a ``real'' medical scenario, they would 
have provided essential information to guide clinical decision making. 
There were no discernible differences between the US examinations 
performed in orbit and those performed in standard terrestrial 
conditions when the images were evaluated by the experienced 
sonologists involved in this trial.
    The optimal training of crewmembers for the ISS and later 
exploration-class missions is still being defined. This initial US 
experience suggests that limited training, combined with onboard 
proficiency enhancement and directed remote guidance, may be an 
effective technique for performing complex tasks. The examination was 
conducted within a strictly limited time frame, which would probably be 
the case in most terrestrial situations, such as in some remote and 
most military settings.
    The unique constraints imposed by the space environment require the 
development of detailed training, diagnostic, and therapeutic 
strategies. Although some of the aerospace procedures currently 
investigated by NASA are appropriate only for the space environment, 
many other spaceflight-derived techniques are readily transferable to 
the Earth, including rural, military, and emergency medical care. The 
remotely guided US concept, with crew medical officers or comparably 
trained first responders as operators, is an important and clinically 
relevant advancement in space medicine, with profound ramifications for 
emergency or clinical medicine (Audio 1, radiology.rsnajnls.org/cgi/
content/full/2342041680/DC1).
References
    1. Davis JR. Medical issues for a mission to Mars. Aviat Space 
Environ Med 1999; 70:162-168.[Medline]
    2. Grigoriev AI, Egorov AD. The theory and practice of medical 
support of long-term space missions. Aviakosm Ekolog Med 1997; 31:14-
25. [Russian].[Medline]
    3. NASA. Medical intervention and care ISS Medical Operations 
Requirements Document SSP 50260, clause 4.1. Rev B ed. Houston, Tex: 
NASA, 2003.
    4. Grigoriev AI, Bugrov SA, Bogomolov VV, et al. Medical results of 
the Mir year-long mission. Physiologist 1991; 34(suppl 1):S44-
S48.[Medline]
    5. Gazenko OG, Shul'zhenko EB, Grigor'ev AI, At'kov OI. Medical 
studies during an 8-month flight on the orbital complex ``Saliut-7''--
``Soiuz-T.'' Kosm Biol Aviakosm Med 1990; 24:9-14. [Russian].
    6. Harris BA, Jr, Billica RD, Bishop SL, et al. Physical 
examination during space flight. Mayo Clin Proc 1997; 72:301-
308.[Medline]
    7. Sargsyan A. Medical imaging In: Barratt MR, Pool SL, eds. 
Principles of clinical medicine for space flight. New York, NY: 
Springer Verlag, 2003.
    8. Patel JC, Tepas JJ, 3rd. The efficacy of focused abdominal 
sonography for trauma (FAST) as a screening tool in the assessment of 
injured children. J Pediatr Surg 1999; 34:44-47; discussion, 52-
54.[Medline]
    9. Scalea TM, Rodriguez A, Chiu WC, et al. Focused assessment with 
sonography for trauma (FAST): results from an international consensus 
conference. J Trauma 1999; 46:466-472.[Medline]
    10. Boulanger BR, Kearney PA, Brenneman FD, Tsuei B, Ochoa J. 
Utilization of FAST (Focused Assessment with Sonography for Trauma) in 
1999: results of a survey of North American trauma centers. Am Surg 
2000; 66:1049-1055.[Medline]
    11. Atkov OY. Ultrasound techniques in space medicine. Aviat Space 
Environ Med 1987; 58(9 pt 2):A69-A73.[Medline]
    12. Jadvar H. Medical imaging in microgravity. Aviat Space Environ 
Med 2000; 71:640-646.[Medline]

    The Chairman. Thank you very much. Just for the record, I 
would like--you gave a very good piece in your written 
testimony on some of the accomplishments of NSBRI that I think 
are very interesting, particularly I thought that Colonel 
Fincke already talked about one of them, your ultrasound 
training for non-physicians. He was a good case in point.
    The possible solution for bone loss in space and 
particularly the potential for ultrasound surgery are very 
interesting. Could you elaborate on those two as evidence of 
some of the research that does have tangible results on Earth?
    Dr. Sutton. Right. Well, thank you very much.
    First of all, I just want to clarify and emphasize that the 
wonderful research and development that's taking place is a 
partnership that doesn't belong to NSBRI and I note in a sense 
that it's a collaboration between government and academia, as 
well as industry. And it--what's so wonderful is that it 
actively engages the customers all the way along in the 
process; specifically the astronauts and the flight surgeons.
    With respect to bone loss in space, while it is true that 
there are excellent countermeasures currently in place, it's 
nevertheless a concern that some bone loss does occur. That it 
seems to be monotonic in time. And we don't know what the 
effects of gravitational--fractional gravitational forces, such 
as one-sixth G or one-third G are going to be.
    What the NSBRI has been engaged in is using spinal cord 
injury patients as a model for astronauts in the zero-g 
environment, because spinal cord injury individuals tend to 
lose bone in places that emulate the loss, such as in pelvic 
regions and in lower extremities.
    And so there was a bed rest study that was funded through 
NSBRI/NASA that looked at a single intravenous infusion of a 
bisphosphonate compound and then looked at the extent of bone 
loss a year later. And indeed while there was some bone loss in 
those individuals that received the drug it was significantly 
less compared to those individuals that did not. This is an 
example of research and development that's done in a wonderful 
ground-based analog setting that is now primed and ready for 
testing and evaluation in the ISS. That testing and evaluation 
process can only be done in the micro-gravity environment at 
this point.
    The ultrasound story is a very interesting one. And it 
feeds from some of the work that Colonel Fincke talked about. 
We are very fortunate to have a naval acoustic physicist, one 
of the outstanding investigators, Dr. Larry Crum as part of 
NSBRI. He's at the University of Washington in Seattle. He was 
one of the key physicists who developed the technology behind a 
device that actually Dr. Becker and myself when we were flying 
up for this hearing saw an ad for the device, it's called 
``SonoSite.'' It's in the commercial market. There was a big ad 
in the Wall Street Journal for this device.
    What Dr. Crum and his colleagues are doing is moving the 
sensing part to the next level by using the exact technology 
and the same platform as the effector in being able to use 
ultrasound at higher energies to be able to do completely non-
invasive bloodless surgery that is guided by the ultrasound 
images.
    So, here's a situation where a person is thinking about how 
to deliver autonomous care in very remote harsh environments. 
Whether it be in space where there are clear applications or in 
harsh settings such as war zones. And what the individual has 
done is to look at the evolution of surgery from large open 
operations to small key hole procedures and take the next bold 
step, the type of step that changes text books of how 
procedures are done and to say, ``We're going to go completely 
non-invasive and that the user does not have to be a surgeon or 
necessarily medically trained.''
    It's a wonderful story.
    The Chairman. It is. It is incredible. I want to pursue the 
national lab issue with you as I did with the last panel. And 
ask you, Dr. Sutton, what would your thoughts be about 
preserving a broader range of research capabilities aboard the 
ISS and operating it as a national laboratory?
    Dr. Sutton. My personal views are that I think it's a 
wonderful idea. NSBRI was engaged for its opinions while some 
of the initial work was being done, and although we clearly are 
not on the inside, I think that the NSBRI presents a wonderful 
model created and established by NASA. We've had some growing 
pains, but have worked them out and have established a very 
strong effective partnership between academia and industry and 
NASA. I think that the idea of consortium, institutions, 
organized in a way that allows investigators who have wonderful 
ideas to come forward and use this precious resource in an 
organized fashion that's managed well, that's going to give 
absolutely outstanding results to help us achieve the missions 
for exploration as well as advanced scientific knowledge, is a 
great one and I applaud it.
    The Chairman. Do you have links right now between some of 
your component institutions and a direct link into the Space 
Station where you are talking back and forth or discussing 
experiments or something that has happened on an experiment, or 
is that something that we would look to for the future?
    Dr. Sutton. The answer is, yes, we do have direct links and 
we're extremely thankful to our NASA collaborators.
    The example of the ISS ultrasound experiment is a good one. 
In this case the principal investigator, Dr. Scott Dulchavsky 
is an NSBRI investigator who worked with the astronauts. We 
have introduced specific positions that are liaisons between 
the academic and industrial communities and folks in the 
operational environment including the Station. This has been a 
wonderful breakthrough.
    We're very fortunate that, for example, in the case that I 
just cited that Dr. Jonathan Clark, Flight Surgeon at NASA, 
functions as a NASA/NSBRI space medicine liaison.
    The Chairman. Dr. Weber, you have had some experience with 
UT Southwestern and Sandia labs; do you have any thoughts about 
how you would structure a national lab so that you could get 
the most benefit and also to connect it to a consortium like 
the NSBRI?
    Dr. Weber. I think the biggest challenge with the national 
lab--I've been involved not just flying in space, but in the 
experiment side at NASA and the infrastructure there. The 
biggest challenge whether it's a national lab or otherwise is 
selecting which experiments get to fly and those that don't. 
And I think certainly we have models for how we could 
bureaucratically structure a lab, but I think the most 
important element going forward would be to decide what you 
wanted to accomplish with the lab.
    Do you want to have it be a conduit for commercialization? 
A conduit for getting private sector investment, or do you want 
it to be like a more traditional national lab in which we are 
working on problems and issues in the interest of our national 
security? And so my biggest concern in structuring that would 
be exactly what is the mission of that national lab?
    The Chairman. Do you think the medical experimentation 
would necessarily be for private investment? I mean it would 
not be just security issues that you would want to look at. 
Obviously, the medical science is an important part of the 
International Space Station.
    So, would you say that all of that would go toward trying 
to get private investment or can you also see that as a 
government function for future exploration, for example?
    Dr. Weber. There are two types of medical experiment--
medical experiments that take place up in space. You've heard 
mostly about the types that are involving how do we keep 
astronauts flying? How do we address the issues of astronauts 
being weightless? And to me that's almost a national--if not a 
national security a national interest question. The 
technologies--that's almost--the results that we use on the 
ground are almost in the spin-off category. We're doing 
experiments to answer questions in space for a government need 
and then from that learning bringing it back down to the 
ground.
    The two areas that I brought up are really not spin-off 
technologies. Those are really biomedical research where you're 
trying to look at things not in the interest of the astronauts' 
health, but in the interest of what we can glean from it. And 
those would have--those would be more ripe for 
commercialization.
    The Chairman. OK. Thank you very much. Senator Nelson.
    Senator Nelson. Thank you, Madam Chairman.
    Dr. Sutton, I am curious, you said, `` . . . take it from 
the Earthly lab to the Space Station.'' Are you talking about 
taking a paraplegic into space and injecting this material? Is 
that what you were referring to?
    Dr. Sutton. No, sir. The--what I'm referring to is the fact 
that there are some excellent ground-based analogues for 
research and development that allow good scientific ideas to go 
forward, to obtain results, to assess those results. And, if 
they look promising, to then move them to the next step where 
that next step engages the unique resources of the 
International Space Station; namely long duration exposure to 
micro-gravity for humans.
    So, the idea is to fundamentally be more selective in the 
types of experiments that are flown to----
    Senator Nelson. Well, give me an example of one of those 
experiments.
    Dr. Sutton. Well, if we take, for example, that we're 
talking about a particular drug, and it is a promising drug 
that could decrease even further the extent of bone loss that 
occurs. And that it would be given in conjunction with other 
countermeasures; exercise countermeasures and so forth.
    So, rather than go right to the step of administering the 
drug in the space environment, what one can do is to do an 
analogue--a study on Earth that is far less expensive. To look 
at the usefulness and the effectiveness of this particular 
agent. If the agent doesn't work in an analogue population then 
maybe it's something that should not be tested in the space 
environment.
    Senator Nelson. Well, did I misunderstand you that the use 
of this drug you said on paraplegics on Earth shows some 
improvement of lessening bone loss?
    Dr. Sutton. Absolutely. Yes, it's truly dramatic.
    Senator Nelson. So your proposal is to take it to space and 
do what?
    Dr. Sutton. And test it in the space environment.
    Senator Nelson. By testing it on----
    Dr. Sutton. The astronauts.
    Senator Nelson.--what?
    Dr. Sutton. On the astronauts, sir.
    Senator Nelson. OK. Dr. Weber, protein crystal growth. 
Charlie Walker who is seated behind you did the first 
experiment on protein crystal growth and I had the privilege of 
participating in that later on. And I was given to believe that 
although he and I, and I assume others, had some dramatic 
examples of growing larger and more pure crystals in the zero-
gravity of orbit, that its application, given the expense of 
doing that in space versus what you could do on Earth, that 
there really wasn't much of an application. But you are 
indicating something otherwise. Tell us about that.
    Dr. Weber. Only a fraction of all the proteins of interest 
that might be good drug targets can be crystallized here on the 
ground. And I mentioned that protein crystal growth was 
prolific around the country, at drug companies and such. This 
is an activity that is indeed going on on the ground. But there 
are some percentage of proteins that we can't get that 
information on the ground. And this is actually, in my opinion, 
the best way that you want to do space experimentation. Since 
we can't fly all the experiments, you want to find those things 
which you have a large base of information about how it works 
on the ground and you only take up the one experiment that you 
can't do the ground that can yield tremendous value.
    The reason why I point to protein crystal growth as being a 
low hanging fruit is this: I talked about this revenue stream 
that you have to identify if you're going to be successful with 
commercialization. Well, it's tough to manufacture in space, it 
costs a lot of money per pound to go into space; ten thousand 
or more dollars per pound.
    So, manufacturing is a dicey proposition. However, with 
protein crystal growth, if you get that tiny little protein, if 
you can bring back to the ground even one tiny crystal you can 
get the answer you need that can result in a drug that has 
literally a hundred billion dollar impact on our economy----
    Senator Nelson. Right.
    Dr. Weber.--in a given year. So it's the perfect way.
    Senator Nelson. Get the answer you need through an electron 
microscope or x-ray diffusion, something like that?
    Dr. Weber. Exactly. The way it works is if you have--and 
I'm sure you know this. But the way it works, like if you had a 
glass prism, if you shine light on it from the pattern on the 
wall you could calculate what the shape of that prism is. If 
you shine x-rays on a protein crystal you can figure out where 
these hundreds and hundreds of molecules are sitting and you 
can get that structure.
    And this is--if you think about it, HIV drugs they are now 
so effective that people can't detect the HIV in their blood 
stream any more and they can lead relatively symptom-free lives 
for a very long time. This is how effective drugs can be 
through structure-based drug design. And there are many 
examples of this.
    We used to, for a long time, drug companies threw darts at 
a dart board in order to come up with a possible drug. Now we 
can logically, intelligently come up with where that active 
site is and come up with a chemical that fits into that active 
site and stops whatever bad is happening from happening.
    Senator Nelson. Do we have candidates in these proteins 
that we cannot get their structure on one-gravity that we think 
that we can get their structure by taking them to zero-gravity?
    Dr. Weber. Absolutely. Larry DeLucas at University of 
Alabama at Birmingham, he runs one of our most successful 
commercial centers for space. And he has drug companies coming 
to him all the time with drug targets. And he has a certain 
smorgasbord of techniques that he can use to try to do them on 
the ground. And I'm told that there are a number of candidates 
and there are proteins that indeed he can't crystalize, nobody 
can crystalize and those are the ones typically that we send up 
on experiments in space.
    Senator Nelson. Why are we not doing that right now?
    Dr. Weber. With the way the Station is right now it's only 
half complete, you heard that testimony. The RACKS for doing 
this, are at Kennedy Space Center. And we need more crew time 
and we need more cargo capability to really make this a viable 
option.
    There are very sound reasons, despite all the great work 
that two crew members can do and have done on the Space 
Station, there is so much more. Even if we can get that Shuttle 
flying again and finish the Space Station and even get three 
crew members it would open up the flood gates in a sense.
    Senator Nelson. Do you in fact know and it is too bad that 
Mr. Readdy is not still here, we would ask him, that in fact 
this is going to be on the manifest once we start flying again 
with three crew members?
    Dr. Weber. I don't know. I left NASA 2 years ago and--so 
I'm not--I am not up to date on the latest manifest and plans 
and such.
    Senator Nelson. Well, we will ask that question. Madam 
Chairman, it would sure make your and my job a lot easier in 
getting money for NASA if we suddenly had a breakthrough on 
unlocking the architectural secrets of these proteins that we 
can't get here on Earth. If we did that up there on the 
Station, boy that would be a page-one story.
    The Chairman. Well, I agree. And also you just look at this 
list of things that have been accomplished and they are huge 
breakthroughs. They are huge. I think this is exactly what we 
need to focus on, build on, and make more available.
    Senator Nelson. Let me just ask a couple more questions. 
For any of you, what Space Station research are you concerned 
about that may be cut?
    Dr. Sutton. I'll take a crack at that. In my testimony I 
talked about the pipeline and I'm going to limit my remarks in 
the biomedical area.
    There is a wonderful body of ground-based research that 
it's working it's way through a developing pipeline that is 
just about to hit a stage that is ready for ISS. There's a 
capital investment that's been made, there's an intellectual 
investment that's been made. There is clear proof of 
principles, demonstrables, and deliverables that hit at high 
priority items on what is the bio-astronautics road map, which 
lays out various risks.
    My concern is that budget reductions in that pipeline will 
significantly impede progress. In a business model, one 
actually begins to invest more capital as one moves very 
promising products toward operations or toward actual delivery 
to the customer. And the concern is that with budget reduction 
some of the most promising products that hit at the highest 
risk areas being bone behavioral health, advanced medical 
capabilities, nutrition, and cardiac issues will be cut.
    And what might happen is that if cuts take place now 
there's loss of the teams that are moving these products 
forward. And what ends up sometimes happening is that when 
production slows down the teams disperse and one ends up 
spending more money in the long run trying to engage people 
back because there are issues of confidence and a lack of 
stability that has been lost.
    Senator Nelson. Let me ask any of you, in the sequence in 
which the Station will continue to be assembled, does it 
assemble the elements to your satisfaction in the order in 
which you can get the research done that you think that needs 
to be done?
    Dr. Sutton. In a word, yes.
    Senator Nelson. OK. Thank you.
    The Chairman. Thank you very much. We appreciate all of our 
panelists. It has been a very informative session and one that 
will help us with our re-authorization priorities. Thank you.
    Dr. Sutton. Thank you very much.
    [Whereupon, at 12 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Today's hearing will examine what it takes to make the 
International Space Station a productive orbiting laboratory and what 
we expect to learn once this facility becomes fully operational. 
Whether we are learning about bone loss or combustion, this research 
will lead to unexpected benefits on Earth.
    As you know, I am a longtime supporter of the Space Station and 
space research. However, there are several barriers that could keep the 
Station from becoming the world class laboratory it should be. Meeting 
future transportation needs is at the top of the list. After all, U.S. 
astronauts cannot conduct research on the Station if they and their 
equipment can not get there.
    Likewise, a prolonged gap between the retirement of the Shuttle and 
the launch of a new crew exploration vehicle is unacceptable. We must 
have access to the laboratory we built.
    After all, the Space Station offers tremendous opportunities. Space 
Station researchers are devising new imaging techniques that use 
ultrasound rather than X-ray or MRI to diagnose patients. Long-duration 
microgravity research can lead to fundamental advances in physics, 
materials, the life sciences, and the health and safety of our 
astronauts.
    We have just confirmed an Administrator who I believe is more than 
ready to meet those challenges. Like the Members of the Committee, 
Administrator Griffin is looking to keep the Nation's space program 
strong and vital.
    NASA is currently developing plans to utilize the Station. I look 
forward to receiving those plans and working with Dr. Griffin to make 
the most of our investment in the International Space Station.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                           William F. Readdy
    Question 1. The charter of the ISS Strategic Roadmap Committee 
describes the purpose of the Committee as being:

        `` . . . to provide advice and recommendations to NASA on 
        completing assembly of the International Space Station and 
        focusing research on supporting space exploration goals, with 
        emphasis on understanding how the space environment affects 
        human health and capabilities, and developing 
        countermeasures.''

    This appears to be a very narrow definition of the mission of the 
Space Station. Is it NASA's view that the space station is only to 
support research that enables humans to go to the Moon, Mars and 
beyond?
    Answer. NASA's utilization of U.S. crew time and research 
capability aboard the International Space Station is focused on 
supporting future human space exploration goals. Based on the recently 
completed Zero Base Review of the Human System Research and Technology 
portfolio, the highest priorities for research on the Space Station 
include space radiation health and shielding; advanced environment 
control and monitoring; advanced Extra Vehicular Activities suits and 
tools; human health countermeasures to the effects of long-duration 
space travel; advanced life support systems; exploration medical care; 
and, space human factors. The Space Station acts as a test bed for 
engineering and operations concepts, and will demonstrate technologies 
necessary for future space systems such as thermal control. power 
generation, and management of cryogenic fuels in space. Altogether, 
NASA has identified 22 areas of research and technology that can take 
advantage of the Space Station as a test bed to reduce the risk 
associated with future human exploration missions. Currently, the 
Shuttle/Station Configuration Options Team is conducting a study, which 
is considering previous work done in the Zero Base Review and, 
examining configuration options for the ISS. As part of the study, this 
team is looking at ISS assembly, operations, and use and considering 
such factors as International Partner commitments, research 
utilization, cost, and ISS sustainability. This study will be completed 
later this summer.

    Question 2. How has the fundamental mission of ISS changed since 
January 14, 2004, with the announcement of the Vision for Exploration?
    Answer. In one sense, the fundamental mission of the International 
Space Station has not changed. The Space Station is still a 
continuously crewed, on-orbit research platform designed to house 
scientific experiments and new technology development, as well as 
facilitate international cooperation. What changed with the 
announcement of the Vision for Space Exploration is the focus for the 
science and technology work done by US astronauts. The Vision for Space 
Exploration directed NASA to focus U.S. research and use of the 
International Space Station on supporting space exploration goals, with 
emphasis on understanding how the space environment affects astronaut 
health and capabilities.

    Question 3. Apart from the laboratory facilities aboard the space 
station, a key to space station research is the crew time available for 
conducting that research. Please provide the current projections for 
the number of crew members planned to be aboard the space station and 
the amount of crew time that will be available for research, for the 
U.S. and its international partners. Indicate the optimum number of 
crew for conducting the maximum level of ISS research using available 
and planned on-orbit research facilities. Provide this information for 
each remaining stage of ISS assembly and utilization.
    Answer. As we make progress on construction of the Station, we will 
also work towards increasing the number of crew onboard to three space 
members as soon as possible and working towards a six-person crew 
capability. How soon we increase crew size is dependent on additional 
life support capability and on the availability of a rescue capability.
    The amount of crew time available to the European Space Agency 
(ESA), the Japanese Aerospace Exploration Agency (JAXA), and the 
Canadian Space Agency (CSA) is based on the provisions of the ISS 
Memoranda of Understanding. In accordance with these provisions, ESA 
will receive 8.3 percent of the non-Russian crew assignments after the 
launch of its Columbus module; JAXA will receive 12.8 percent of non-
Russian crew assignments after the launch of its Japanese Experiment 
Module elements; and CSA began accruing 2.3 percent of the non-Russian 
crew assignments after its Space Station Remote Manipulator System was 
launched in April 2001.
    Under the ISS Agreements, Space Station crew rights are shared 
equally between Russia and the U.S. during the assembly period. 
Following completion of assembly, Russia will have a right to a crew of 
three and may make separate arrangements with any of the other ISS 
Partners for these crew flight opportunities. Russia will use its Soyuz 
vehicle to provide crew transportation and rescue. NASA is responsible 
for crew transportation and rescue for the remainder of the ISS crew 
after completion of assembly. The ISS Partnership has agreed that the 
Russian Soyuz vehicle can continue to be used for crew transportation 
and serve as the Space Station Crew Return Vehicle (CRV) for the U.S. 
segment of the ISS; assuming that an agreement can be reached between 
NASA and the Russian Federal Space Agency on this issue, and that this 
can be accomplished without violating the provisions of the Iran 
Nonproliferation Act.
    Since the Soyuz carries a maximum of three people, one factor in 
crew size will be based on the number of Soyuz docked to the Station to 
provide a crew rescue capability. Additional life support capability is 
another factor in increasing crew size. The U.S. Regenerative 
Environmental Control and Life Support System (ECLSS) will need to be 
installed and tested on orbit before the Station crew grows to more 
than three people.

    Question 4. Provide a summary of the current plans for delivering 
ISS crews to orbit, providing for their safe return in the event of an 
emergency and supporting research with payload delivery and retrieval 
capabilities from this point forward, over the planned life of the ISS.
    Answer. The Russian Soyuz vehicle is currently being used for crew 
transport, and will continue to serve as the Space Station Crew Return 
Vehicle (CRV). NASA continues to assess its future requirements for 
crew and cargo transportation in support of the Space Station. The CEV 
is being developed to be capable of ferrying astronauts to the Space 
Station.
    The first CEV missions to Earth orbit will include docking with the 
ISS. NASA's Exploration Systems Mission Directorate will be responsible 
for developing and acquiring both crew and cargo services to support 
the Space Station. A key element in the future of the ISS program is 
the purchase of alternate cargo transportation services to supplement 
the Space Shuttle, and the development of new crew transportation 
capabilities to replace Shuttle when it retires. Because the ESMD has 
the mission to develop and acquire such crew and cargo capabilities for 
the Space Station and beyond, NASA has transferred management 
responsibility for the activities and budget of ISS Cargo/Crew Services 
to Exploration Systems Mission Directorate from the Space Operations 
Mission Directorate.
    NASA is currently examining alternative configurations for the 
Space Station that meet the goals of the Vision for Space Exploration 
and the needs of our international partners, while maintaining safety 
as our highest priority. In May 2005, we initiated the Shuttle/Station 
Configuration Options Team (SSCOT). This team is conducting a 60-day 
study of the configuration options for the ISS and assessing the 
related number of flights needed by the Space Shuttle before it retires 
no later than the year 2010. The scope of the Shuttle/Station 
Configuration Options Team study spans ISS assembly, operations, and 
use and considers such factors as international partner commitments, 
research utilization, cost, and ISS sustainability. This team is 
expected to complete its work in June, with those results integrated 
into the ongoing Exploration Systems Architecture Study (ESAS).
    ESAS will focus on four primary areas, including a complete 
assessment of the top-level CEV requirements and plans to enable the 
CEV to provide crew transport to the ISS and to accelerate the 
development of the CEV and crew launch system to reduce the gap between 
Shuttle retirement and CEV initial operating configuration.
    NASA is also working across the ISS partnership to identify 
opportunities to augment the flight rate of the International Partner 
transportation vehicles, including the Russian Progress vehicle, the 
European Automated Transfer Vehicle (ATV), and the Japanese H-IIA 
Transfer Vehicle (HTV). The ATV is scheduled to be launched on Europe's 
Ariane V rocket for its demonstration flight to the ISS in 2006. The 
HTV is planned to be launched on Japan's H-IIA rocket for a 
demonstration flight to the ISS in the 2008-2009 timeframe. In return 
for performance of common systems operations on the ISS, NASA 
anticipates that it will have upmass allocations on some ATV and HTV 
missions. (ATV, HTV, and Progress are not designed for returning cargo 
to the Earth).

    Question 5. Describe the impact to scientific research aboard ISS 
if the Space Shuttle is retired in 2010 without the immediate 
availability of U.S.-developed replacement capabilities for the 
transfer of crews and cargo to and from the ISS. Indicate the degree to 
which crew size and allocable research time are affected in any interim 
period between Shuttle retirement and an operational follow-on 
replacement capability. Also, indicate whether size and/or weight 
limitations of interim cargo delivery and return capabilities impact 
ISS research options. Assuming that efforts to narrow the gap between 
Shuttle retirement and a follow-on capability will be successful 
provide a series of the requested impact assessments in any remaining 
gap in one-year increments, from 2010 to 2015.
    Answer. During the assembly period, crew rights are shared equally 
between Russia and the U.S. as stipulated in the ISS Agreements. As far 
as size of crew, since the Soyuz carries a maximum of three people, one 
of the factors in increasing crew size will be determined based on the 
number of Soyuz docked to the Space Station to provide a crew rescue 
capability (the other factor being is to increased life support 
capability). The ISS Partnership has agreed that the Russian Soyuz 
vehicle can continue to be used for crew transportation and serve as 
the Station Crew Return Vehicle (CRV) for the U.S. segment of the ISS; 
assuming that an agreement can be reached between NASA and the Russian 
Federal Space Agency on this issue and that this can be accomplished 
without violating the provisions of the Iran Nonproliferation Act.
    Following completion of assembly, Russia will have a right to a 
crew of three and will use its Soyuz vehicle to provide crew 
transportation and rescue. NASA is responsible for crew transportation 
and rescue for the remainder of the ISS crew after completion of 
assembly. To answer questions such as research impacts post-Shuttle and 
ISS crew/cargo services, NASA is conducting two studies. In May 2005, 
we initiated the Shuttle/Station Configuration Options Team (SSCOT). 
SSCOT is currently examining alternative configurations for the Space 
Station that meet the goals of the Vision for Space Exploration and the 
needs of our international partners, while maintaining safety as our 
highest priority. This team is conducting a 60-day study of the 
configuration options for the ISS and assessing the related number of 
flights needed by the Space Shuttle before it retires no later than the 
year 2010. The scope of the Shuttle/Station Configuration Options Team 
study spans ISS assembly, operations, and use and considers such 
factors as international partner commitments, research utilization, 
cost, and ISS sustainability. This team is expected to complete its 
work in June, with those results integrated into a second study. the 
Exploration Systems Architecture Study (ESAS).
    ESAS will focus on four primary areas, including a complete 
assessment of the top-level CEV requirements and plans to enable the 
CEV to provide crew transport to the ISS and to accelerate the 
development of the CEV and crew launch system to reduce the gap between 
Shuttle retirement and CEV initial operating configuration.

    Question 6. The President has stated that an important requisite to 
the Vision for Exploration is ensuring that the United States honors 
its international commitments in the development of ISS. How does a 
refocusing of the Space Station to support the U.S. Vision for 
Exploration affect the research plans and commitments of our 
international partners in the space station program?
    Answer. Refocusing Space Station science goals to support human 
space exploration does not necessarily have an immediate impact on the 
research plans of our international partners. Any use of U.S. resources 
is detailed in separate agreements with our partners. These agreements 
outline things such as crew time and facility and power use; they do 
not restrict the content or focus of the research performed (within the 
normal safety guidelines). However, NASA anticipates that our ISS 
Partners may also adjust the focus of some of their research in the 
longer term in order to advance their exploration plans and enhance 
their participation in future NASA programs.

    Question 7. Describe the status of studies conducted by NASA, or at 
NASA's request, to identify alternative operations and research 
management schemes for ISS. Specifically, describe the status of non-
governmental organization (NGO) alternatives, as well as any other 
alternatives similar in form to a Federally-Funded Research and 
Development Center (FFRDC) or an ISS Research Institute.
    Answer. On January 10, 2003, NASA submitted to Congress a study of 
International Space Station (ISS) utilization management in compliance 
with FY 2001 and FY 2003 VA-HUD-Independent Agencies Appropriations 
Acts (Pub. L. 106-377 and Pub. L. 107-73, respectively). The study was 
a seven-month, inter-Center team assessment of options for ISS 
utilization management. The study set the following objectives for ISS 
utilization management: (1) to facilitate the pursuit of flight 
research; (2) to optimize research opportunities within current 
capabilities of ISS and with future enhancements for greater 
capabilities, and (3) to increase the long-range productivity of 
science, technology, and commercial research and development aboard the 
ISS. Enclosure 1 is the January 2003 study. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    As a key part of the NASA study, the scope of utilization work was 
defined as twenty-one principle functions ranging from development of 
strategic plans to archival of research samples. A few functions, such 
as policy development and safety certification, were determined to be 
inherently governmental. The other functions were analyzed as 
candidates for delegation to a non-governmental organization.
    Ten potential business models were evaluated. Two business models--
a research institute and a Federally Funded Research and Development 
Center (FFRDC)--emerged as the best choices. A scoring process based 
upon an agreed upon set of evaluation criteria resulted in the research 
institute ultimately emerging as the preferred business model.
    While NASA initially recommended the establishment of a non-
governmental organization, specifically a non-profit institute, to 
perform research leadership functions including significant aspects of 
research planning, manifesting, prioritizing, resource allocation, 
advocacy, outreach, and archiving, the Agency rescinded plans for a 
non-profit institute based on a Presidential announcement.
    On January 14, 2004, the President announced the Vision for Space 
Exploration--a vision that gives NASA a new focus and clear objectives. 
As a part of this Vision, the President has directed that U.S. research 
on the International Space Station (ISS) be focused on supporting space 
exploration goals, with an emphasis on understanding how the space 
environment affects astronaut health and the development of 
countermeasures and exploration capabilities.
    The Vision for Space Exploration is in accord with the recently 
released report of the National Research Council entitled, ``Issues and 
Opportunities Regarding the U.S. Space Program.'' Their recommendations 
align closely to the Vision, also specifically calling for an 
exploration research agenda for the ISS.
    Given a highly focused research agenda for the ISS, NASA reassessed 
its original need and plan for an International Space Station Research 
Institute (ISSRI). The original plans discussed above had called for 
establishing an ISSRI with the primary objective of providing U.S. 
research leadership for a diverse U.S. community performing a broad 
range of research on the ISS. With a more focused research agenda for 
the ISS, NASA stopped activity on the procurement efforts for the 
ISSRI.

    Question 8. Concerns have been expressed by the Japanese about the 
possible elimination of the Centrifuge Accommodation Module (CAM), 
which they are building for the United States in exchange for the 
launching of their core research facility, the Japanese Experiment 
Module (JEM/``Kibo''). Are these concerns justified? What is the 
current status of the CAM and its scientific capabilities?
    Answer. NASA has completed a Zero Base Review (ZBR) of the Human 
Systems Research and Technology Program (HSR&T) to ensure that future 
investments are aligned with exploration objectives and that biological 
and physical research planned for the ISS is driven by the unique 
capabilities of the ISS. The objective of the ZBR was to prioritize 
needs for each phase of the planned exploration strategy, and to 
rebalance the research portfolio accordingly. The ZBR employed a 
methodical, disciplined process to align research tasks to exploration 
requirements and was informed by NASA medical policies and the National 
Academies-reviewed Bioastronautics Roadmap. The review identified 
critical research priorities to reduce risk for long-duration human 
spaceflight, and has given NASA confidence that a significant part of 
ongoing BPR research directly supports the Vision. However, certain 
tasks will be discontinued, others will be augmented, and still new 
ones will be started in order to fill priority areas identified during 
the review. These high-priority areas include space radiation health 
and shielding, advanced environmental control and monitoring, advanced 
extra-vehicular activities, human health and countermeasures, advanced 
life support, exploration medical care, and space human factors. The 
highest priorities for research on ISAS have been identified as medical 
research with human subjects and microgravity validation of 
environmental control and life support technologies. Lower-priority 
tasks, which are now subject to reduced funding include basis research 
using model organisms (such as cells or rodents), and fundamental 
research in physics, material science, or basic combustion--with no 
direct link to exploration requirements. Additional refinement to the 
research and development portfolio may take place in the future as a 
result of a Shuttle/Station Configuration Options Study currently 
underway.
    The Shuttle/Station Configuration Options Team study is 60-day 
study of the configuration options for the ISS in the context of 
potential future flight rates for the Space Shuttle Program and within 
the Presidential constraint to cease flight of the Shuttle fleet no 
later than the end of FY 2010. The scope of this study spans across ISS 
assembly, operations and utilization, and supersedes all prior NASA 
studies in these areas. S/SCOT will then feed into ESAS.
    While we cannot comment on any potential changes to the ISS 
configuration (including CAM) until the completion of these ongoing 
studies, we can report that the CAM recently completed its Critical 
Design Review (CDR) and the Centrifuge Rotor CDR is scheduled for late 
2005.

    Question 9. Provide a brief summary of the research that has been 
conducted up to this point aboard the ISS, including an indication of 
which science disciplines are represented by that research.
    Answer. See Enclosure 2 for activities from Expedition 1 through 
11. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.

    Question 10. Describe the criteria and process being used to re-
plan research aboard the Space Station within the Vision for 
Exploration. What is the timetable for providing a clear definition of 
NASA's future plans for space station research?
    Answer. Explorations Systems Mission Directorate (ESMD) conducted a 
study to develop an International Space Station (ISS) Research & 
Technology development investment strategy with the goal of optimizing 
ISS utilization to support the Vision for Space Exploration. A 
Strategy-to-Task-to-Technology (STT) process was employed as the 
primary means for allowing stakeholders to prioritize Exploration 
objectives and distill a research and technology portfolio for meeting 
those objectives. STT is a top-down approach to requirements definition 
that links weighted strategic objectives to successive levels of 
operational objectives, tasks and technologies to meet those tasks. The 
ISS study had broad representation from all relevant ESMD offices as 
well and Space Operations Mission Directorate (SOMD) and the Office of 
the NASA Chief Health and Medical Officer (OCHMO). The process 
succinctly con-elates the informed opinions of the stakeholders leading 
an assessment of the benefit of various research and technology (R&T) 
activities on ISS used to guide ISS research.
    With the research benefits in hand, ESMD then identified ISS 
resources needed to carry out the R&T activities. An analysis of the 
benefit and the resource requirements allowed ESMD to determine 
research priorities based on the best research benefits vs. the cost of 
ISS resource requirements.
    This cost-benefit analysis has been provided to a recently formed 
Shuttle/Station Configuration Options Study team, who has been charged 
to develop a series of specific configuration options for the 
International Space Station (ISS) in the context of potential future 
flight rates for the Space Shuttle Program. The study is operating 
under the constraint to cease Shuttle flights no later than FY 2010 
while maintaining safety as the Agency's highest priority. The scope of 
the Shuttle/Station Configuration Options Team study spans ISS 
assembly, operations, and use and considers such factors as 
International Partner commitments, research utilization, cost, and ISS 
sustainability. This study will be completed later this summer in time 
to inform key Agency decisions.

    Question 11. Identify any decisions that have been made since 
January 4, 2004 regarding what previously planned research, within 
which science disciplines, will not be supported aboard the space 
station. Indicate whether that research can be accomplished by some 
other means, either on Earth or in a free-flying orbital capability, 
and describe the impact of any changes in such research on the 
investment of time and funds expended by the principal investigator(s) 
and supporting institutions.
    Answer. Immediately following the President's announcement of the 
Vision for Space Exploration, the Office of Biological and Physical 
Research (OBPR) initiated a reorganization of its research and 
technology development programs.
    The previously discipline-based research programs with objectives 
targeting fundamental and applied research for microgravity physics, 
for applications to Earth-based practices, and for the basic 
understanding of biology in space, were reorganized into product line-
based efforts to enable space technologies in the areas of life support 
and habitation and human health and performance during long-duration 
missions beyond low-Earth orbit.
    An initial reduction of the OBPR research portfolio was submitted 
to Congress in the FY04 Second Operating Plan change letter June 25, 
2004) and subsequent detailed description. Elements of ISS research 
that were deselected included non-exploration related fundamental 
physics (low-temperature and atomic physics), basic materials science 
in solidification and phase transformation, and fundamental combustion 
science and fluid physics. The principal investigators associated with 
deselected research were provided enough funding and time to transition 
their activities to other areas by retaining them in the program for a 
reasonable time period. Most of this research cannot be accomplished on 
the ground. The OBPR research program was subsequently transferred to 
the Exploration Systems Mission Directorate and renamed Human Systems 
Research and Technology.
    NASA has recently completed a Zero-Based Review (ZBR) of the Human 
System Research and Technology (HSR&T) portfolio that includes the bulk 
of the planned ISS research activities. This rigorous programmatic 
assessment identified a number of ground-based and ISS-based existing 
research tasks that were programmatically classified as non-Exploration 
related and slated for phase-out. These areas were in fundamental space 
biology and cellular biotechnology. Some of this research can be 
accomplished on the ground and by using free flying space platforms. 
All principal investigators associated with the phased-out research 
areas have been given time and funding necessary to reorient their 
activities.

    Question 12. What other disciplines, besides geology and life 
science disciplines would benefit from an orbiting research laboratory?
    Answer. There is no doubt that several disciplines could benefit 
from an orbiting research laboratory. However, logistics support, 
volume, electric power, and crew time to support research in orbiting 
laboratories are limited and extremely costly. As a result, the 
President has directed NASA to focus U.S. research and use of the 
International Space Station on supporting space exploration goals, with 
emphasis on understanding how the space environment affects astronaut 
health and capabilities and developing countermeasures. In addition to 
the life sciences disciplines, the following disciplines will use the 
ISS: materials science, combustion research, and fluids physics. These 
disciplines have been retained because they directly contribute to the 
achievement of exploration objectives, not because of their intrinsic 
scientific value. Specifically, the following ISS facilities are 
currently expected to be continued: the Combustion Integrated Rack, the 
Fluid Integrated Rack, and the Microgravity Science Glovebox. The ISS 
is not anticipated to have excess utilization capacity beyond meeting 
the needs of the exploration vision and our International Partners 
through the middle of the next decade. Over the next several years, as 
the ISS research agenda focused on the Exploration Vision is achieved, 
it will be beneficial to re-examine the next set of research 
priorities. Until that time, it would not be practical to expand the 
ISS research functions.

    Question 13. During the hearing, reference was made to a water 
processing facility developed for use on ISS, which was the basis for a 
device, or system used to purify water in Iraq and in the region 
affected by the December 2004 tsunami. Please provide additional 
information regarding that technology and how that ISS-generated 
development has been successfully employed in terrestrial applications.
    Answer. The technology component of the ISS water processor that is 
common to the disaster relief system planned for deployment in Iraq 
this summer is the Microbial Check Valve (MCV), an iodinated resin that 
treats the water for microbial contamination. This resin was originally 
developed for NASA by the small business called ``Umpqua,'' and the 
rights were subsequently sold to Novation/Haas. The charity, Concern 
for Kids, is working with Novation/Haas to produce and deploy multiple 
ground-based water filtration units in Iraq this coming summer. The MCV 
technology is attractive in this application because it has the added 
benefit of providing villagers with iodine that is a deficiency in 
their current diet, and it is a compact, reliable method for 
controlling microorganisms. Concern for Kids plans to use the 
terrestrial units to service villages on a rotation-type schedule where 
the unit will be transported via truck from village to village. 
processing existing village water supplies.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                           William F. Readdy
    As you may know, University of North Dakota has been developing 
AgCam, a sensor intended to operate on the International Space Station 
(ISS). AgCam was designed to go into the Window Observational Research 
Facility (WORF).
    Question 1. Is the WORF scheduled for a launch on the Space 
Shuttle? When?
    Answer. NASA is currently assessing its plans for the utilization 
of the ISS, and focusing its research and technology development goals 
towards those activities that most closely support the Vision for Space 
Exploration. In this environment of limited opportunities for the 
launch of facility-class payloads, it is critical that utilization 
planning align as closely as possible with the needs of the human 
exploration planning effort. The only missions for which specific 
payloads have been manifested on the Space Shuttle are the first two 
Return to Flight missions. Consistent with the Vision, the Space 
Shuttle will be retired by 2010. Prior to its retirement, it will be 
utilized primarily for the assembly of the ISS. Our top priority will 
be to make each flight safer than the last. As we noted in our November 
3, 2004, correspondence to you on this topic, in the event that a 
future flight opportunity does become available on the Space Shuttle, 
the WORF facility will be considered for delivery to the ISS. The 
University of North Dakota has been apprised of the situation and is 
aware that NASA cannot commit to the flight of WORF on the Space 
Shuttle.

    Question 2. If the WORF cannot be launched to the ISS, could AgCam 
be accommodated some other way?
    Answer. The AgCam hardware has been designed and built to be 
operated in the WORF. The WORF would provide resources such as power, 
thermal control, data and mounting positions for operations of the 
AgCam. The hardware as designed could not operate independently of the 
WORF. It might be possible to redesign the AgCam hardware and its 
operations concepts, but the University would require additional 
funding, testing, and development time; even with such a redesign, it 
is unclear whether the redesigned hardware could achieve the expected 
scientific value without the WORF.

    Question 3. What are the plans for Earth observations from the 
International Space Station?
    Answer. While NASA is not pursuing new Earth sciences research on 
the ISS because of the limited launch opportunities on the Space 
Shuttle, we are continuing with two Earth observations programs already 
on-orbit.

        1. The Earth Knowledge Acquired by Middle Schools (EarthKAM) 
        program allows middle school students to command, via computer, 
        a digital camera mounted in a window of the ISS and integrate 
        Earth images taken by the camera with inquiry-based learning 
        for 5th-8th grade students. Photos are made available on the 
        Web for viewing and study by participating schools around the 
        world. Educators use the pictures in conjunction with curricula 
        for projects involving Earth Science, geography, physics, math, 
        and technology. To date, over 80 schools with more than 1,600 
        students from the United States, Japan, Germany, and France 
        have participated in the EarthKAM program.

        2. The Crew Earth Observations (CEO) program continues, with 
        the ISS crew photographing various Earth sites on a daily 
        basis. Hand-held photography of the Earth from human 
        spaceflight missions, spanning more than 40 years, provides 
        insights and documents changes on the Earth. The ISS crew 
        members are building on this time series of imagery, which was 
        started in 1961.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
